<html>
<title> - UNDERSTANDING THE HOMELAND THREAT LANDSCAPE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                      UNDERSTANDING THE HOMELAND 
                            THREAT LANDSCAPE

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 25, 2012

                               __________

                           Serial No. 112-109

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
80-849                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1a7d6a755a796f696e727f766a3479757734">[email&#160;protected]</a>  



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security.......................................................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5

                               Witnesses

Hon. Janet Napolitano, Secretary, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     9
Mr. Matthew G. Olsen, Director, National Counterterrorism Center:
  Oral Statement.................................................    21
  Prepared Statement.............................................    24

                             For the Record

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas:
  Image..........................................................    41
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California:
  Letter.........................................................    57

                                Appendix

Questions From Chairman Peter T. King for Hon. Janet Napolitano..    71


                      UNDERSTANDING THE HOMELAND 
                            THREAT LANDSCAPE

                              ----------                              


                        Wednesday, July 25, 2012

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                            Washington, DC.
    The committee met, pursuant to call, at 10:05 a.m., in Room 
311, Cannon House Office Building, Hon. Peter T. King [Chairman 
of the committee] presiding.
    Present: Representatives King, Lungren, Rogers, McCaul, 
Broun, Miller, Walberg, Cravaack, Walsh, Meehan, Quayle, Long, 
Duncan, Marino, Turner, Thompson, Sanchez, Jackson Lee, 
Cuellar, Clarke of New York, Richardson, Clarke of Michigan, 
Hahn, and Barber.
    Also present: Representative Crawford.
    Chairman King. Good morning. The Committee on Homeland 
Security will come to order.
    Before we begin the actual proceedings, I would like to 
acknowledge the appearance of a new Member to the Congress, 
Member of the committee, Congressman Ron Barber from Arizona. 
He succeeds our former colleague, Gabby Giffords, for whom he 
served as district director, I believe. He has a long, 
distinguished record in Arizona. I am sure Secretary Napolitano 
is familiar with him. I'm getting ganged up on by people from 
Arizona here.
    But, anyway, Ron, it is good to have you on the committee. 
Look forward to working with you. You know, we appreciate the 
interest and concern you have already shown. So, thank you.
    Mr. Thompson. [Off mike.]
    Chairman King. The gentleman from Mississippi.
    Mr. Thompson. I would also like to welcome Mr. Barber to 
the Democratic side. Your reputation for being a hard worker 
precedes you. We look forward to it. The work is in the rear, 
as soon as the meeting is over. We look forward to you picking 
it up. But thank you very much for being here.
    Chairman King. I will start with the formal notice. The 
Committee on Homeland Security is meeting today to hear 
testimony from Homeland Security Secretary Janet Napolitano and 
National Counterterrorism Director Matthew Olsen on the 
homeland threat landscape. I will recognize myself for an 
opening statement.
    But before I begin the opening statement--and I will defer 
to Secretary Napolitano if she wants to add to the comments--I 
want to acknowledge that we just learned--Secretary Napolitano 
learned yesterday that former Homeland Security employees were 
killed in Afghanistan this week. Our thoughts and prayers, as 
the Secretary said, are with the families of former U.S. Border 
Patrol agent and retired ICE agent Benjamin Monsivais and 
retired CBP Port Director Joseph Perez.
    They were in Afghanistan working with contractors, 
supporting the Afghan border police in their training efforts, 
and also two other individuals wounded in this senseless 
attack. So obviously, our thoughts and prayers go out to them 
and their families.
    Chairman King. If the Secretary wants to comment on that 
now, I will defer to you.
    Secretary Napolitano. [Off mike.]
    Chairman King. All right. Thank him for his service.
    I will now recognize myself for an opening statement.
    This is Secretary Napolitano's fourth appearance before our 
committee in the past 18 months. She has also held a number of 
unofficial meetings and briefings with Members of the 
committee. I know this occurs on both sides of the aisle, and I 
want to thank her for her cooperation on that.
    Matt Olsen is, I guess, just finishing his first year as 
director of the National Counterterrorism Center. He has a long 
distinguished record in Government prior to that. I would just 
say, in a personal capacity, I have had several meetings with 
him, received several briefings from him. Whenever there has 
been an incident and we had to reach him by phone, if I was 
back in the District, he was there. He provided the essential 
information, and has, again, been more than willing to 
cooperate with us in any way, and I thank you for your service 
and look forward to continued working with you.
    When Secretary Napolitano testified before our committee in 
January 2012, she stated that the radicalization of U.S. 
citizens to al-Qaeda's violent and extremist ideology was a 
``game-changer.'' To examine that threat, I convened a series 
of hearings to examine the scope and the severity of that 
threat. That is really what we are faced with today, is what is 
the scope and severity of the threat, both from homegrown 
terrorists, from splinter terrorist groups around the world, 
and from core al-Qaeda?
    In the past year, past 15 months, there have been a number 
of outstanding achievements. There was the killing of bin 
Laden. There was the killing of Awlaki. There was the killing 
of Samir Khan, and other top al-Qaeda leaders.
    Yet there are still real threats. In this 112th Congress 
alone, there have been 10 al-Qaeda plots that we know of 
against the United States. In addition to that now, we have 
plots from Iran, as the attempted assassinations here in 
Washington demonstrated last December. Also with the intensity 
in the Middle East, with Iran and Israel, with the United 
States and Iran, with Iran and her neighbors, we have to be 
concerned about threats to the homeland from Hezbollah. We also 
have hearings on that, but I look forward to any testimony you 
have on that, especially seeing what happened to Bulgaria, to 
the extent that Hezbollah was involved in the killing of the 
Israeli children in Bulgaria.
    Also, there has been an emergence of Boko Haram. 
Congressman Meehan has done an outstanding job in that with his 
subcommittee. We have asked to have Boko Haram designated as a 
foreign terrorist organization. I believe, Congressman Meehan 
and others in the committee believe that is essential, if the 
Justice Department is going to have the powers of enforcement 
that it needs. Again, this is a growing threat, and I look 
forward to any testimony you have on the whole issue of Boko 
Haram.
    There has been another issue, and that is the question of 
leaks, which I believe have a direct impact on the security of 
our homeland. It began last year after the killing of bin 
Laden, which was--the President deserves tremendous credit for 
that, but the leaks that poured out of the administration in 
the days and weeks following that. Then the agreement with Sony 
Pictures to do a film on it.
    Then, after that, we had the--just 2 months ago, the al-
Qaeda in the Arabian Peninsula plot, which was details that 
were leaked to the media, to the Associated Press, before the 
work was completed on that, I believe compromising the effort 
that was in there, not just with the United States, but also 
with several of our very key allies overseas.
    Then we saw the series of leaks in late May or early June, 
involving drones, Stuxnet . . . and, again, these are most 
sensitive information which was being given out--it appears to 
me--it appears to Senator Feinstein and others--from people 
high up in the administration, people within the White House. 
Senator Feinstein said several months ago, these are 
unprecedented leaks.
    I have demanded investigations of all these. I know on the 
arrangements between the administration and Sony Pictures, the 
CIA did an investigation. As a result of that, they have made 
several very significant structural changes in the CIA, and the 
Department of Defense inspector general is still carrying out 
an investigation as to all the details of the arrangements 
between the military and Sony Pictures in the preparation of 
this film. The inspector general only began this investigation 
after a 4-month preliminary investigation as to whether or not 
a full investigation was warranted.
    The FBI is carrying out right now investigations of the 
leaks--well, without going into details--carrying out two very 
significant investigations regarding aspects of the leaks.
    Also, a recent matter was Hani Nour Eldin, who belongs to 
the Islamic group, which is a designated foreign terrorist 
organization, was allowed into the United States, had access to 
the White House and to the United States Congress. I will be 
discussing this with the Secretary. I don't believe the letter 
or the spirit of the law was complied involving visa waivers 
and what procedures have to be followed when we are dealing 
with a designated foreign terrorist organization.
    On a very positive note, I want to commend the Secretary 
for the work that is being done as far as the grant system, 
which are becoming more and more risk-based. I particularly 
support the continuation of the Securing the Cities program, 
which I believe is focused and is very effective at preventing 
attacks against urban areas from areas that are out in the 
suburbs, similar to what happened in Madrid and London, where 
we can foresee terrorists actually planning the attack outside 
the cities and bringing the devices--in this case nuclear 
devices, into large urban areas.
    That program has been going ahead. I want to thank the 
Secretary for the continued support that we have gotten on 
that.
    Again, I look forward to the hearing today. I think the 
issue--while we--obviously, there are philosophical differences 
on the committee, and to some extent perhaps between and among 
us, the fact is, all of us share a common desire to defeat 
terrorism, to win this war, and to do all we can to make sure 
that the counterterror forces have all of the weapons and 
powers that they need and the support of the Congress.
    So, with that, I yield to the distinguished Ranking Member, 
the gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman, for 
holding today's hearing on understanding the homeland threat 
landscape. I want to thank Secretary Napolitano, Director Olsen 
for appearing here this morning.
    As we meet today to consider the homeland threat landscape, 
we must be mindful that yesterday the leader of al-Qaeda in 
Iraq issued a videotaped message indicating his intentions to 
carry out attacks within the United States. Those new threats 
require an assessment of our ability to meet our known 
challenges and address our known vulnerabilities.
    According to recent reports, this Nation has spent about 
$360 billion on homeland security since September 1, 2001. But 
despite this amount of spending, we have not filled all the 
gaps.
    I think most people would agree that we have made some 
gains. Aviation security, border security, disaster response, 
and information-sharing activities have been improved. For the 
most part, these improvements in security have not required us 
to surrender the Constitutional rights and protections that are 
the cornerstone of this Nation's freedom.
    This Nation cannot sacrifice security or freedom in the 
face of any threat, foreign or domestic. As we look back at the 
last 11 years, we have greatly decreased the Nation's 
vulnerability to attack. I would be remiss if I did not mention 
that this administration's actions abroad, from eliminating a 
threat posed by bin Laden to stiffening our military presence, 
has also contributed to decreasing our vulnerability at home.
    However, we must be candid. Some vulnerabilities remain, 
and the nature of the threat continues to evolve. As we 
continue this evolution process, we must focus on the nature of 
the terrorist actor. The most recent incidents in this country 
have involved lone-wolf actors who are ideologically motivated 
to commit violent acts. We must accept that we will not be able 
to find every lone wolf on terror. But we cannot accept that we 
are powerless to close opportunities and remove the 
instrumentalities of destruction.
    As I stated at a hearing last week, we should not forget 
that the United States--the last person to crash a plane into a 
Federal building, fueled by an anti-Government ideology, was a 
pilot, U.S. citizen, in Texas. GAO has reported that the 
Department has testified that we do not check Americans seeking 
flight training against the terrorist watch list until they 
apply for a pilot's license. The lesson of 9/11 is that we need 
to keep people who seek to do us harm from being trained as 
pilots. We must remove the opportunities and instrumentalities 
of destruction.
    I have introduced a bill that would require everyone who is 
seeking to be trained as a pilot, make sure that they are 
vetted against a terrorist watch list. I hope my colleagues 
will join me in that effort.
    As we consider the vulnerabilities that remain, I am 
disappointed that we have not yet managed to achieve the 
screening of 100 percent of maritime cargo before it reaches 
our shores.
    Madam Secretary, it is my understanding that you have 
recently signed a blanket 2-year waiver of the 100 percent 
screening requirement. I do not understand how the Department 
can ignore a statutory mandate designed to close a known 
vulnerability. Searching the cargo before it reaches this 
country provides us with the best opportunity to remove 
instrumentalities of destruction before they reach this 
country.
    Finally, as we consider threats and vulnerabilities, we 
must also think about likely targets. GAO has introduced 
several reports highlighting the poor state of Federal building 
security. While promises have been made, little changes have 
been.
    I hope we have not forgotten that a lone-wolf terrorist 
blew up a Federal building in Oklahoma several years before the 
events of September 11. Timothy McVeigh used this opportunity 
and created destruction. We did not need to see this happen 
again before we take action.
    In closing, as we began today's discussion about the 
homeland threat landscape, I look forward to hearing about how 
we can move away from merely identifying the problem and move 
toward finding and implementing solutions.
    With that, Mr. Chairman, I yield back.
    [The statement of Ranking Member Thompson follows:]

             Statement of Ranking Member Bennie G. Thompson
                             July 25, 2012

    As we meet today to consider the homeland threat landscape, we must 
be mindful that yesterday, the leader of al-Qaeda in Iraq issued a 
videotaped message indicating his intention to carry out attacks within 
the United States. These new threats require an assessment of our 
ability to meet our known challenges and address our known 
vulnerabilities.
    According to The New York Times, this Nation has spent about $360 
billion on homeland security since September 1, 2001. But despite this 
amount of spending we have not filled all the gaps. I think most people 
would agree that we have made some gains. Aviation security, border 
security, disaster response, and information-sharing activities have 
been improved. For the most part, these improvements in security have 
not required us to surrender the Constitutional rights and protections 
that are the cornerstone of this Nation's freedom. This Nation cannot 
sacrifice security or freedom in the face of any threat--foreign or 
domestic.
    As we look back at the last 11 years, we have greatly decreased 
this Nation's vulnerability to attack. I would be remiss if I did not 
mention that this administration's actions abroad, from eliminating the 
threat posed by bin Laden to shifting our military presence, have also 
contributed to decreasing our vulnerability at home.
    However, we must be candid. Some vulnerabilities remain and the 
nature of the threat continues to evolve. As we consider this evolution 
process, we must first focus on the nature of the terrorist actor. The 
most recent incidents in this country have involved the lone-wolf actor 
who is ideologically motivated to commit violent acts. We must accept 
that we will not be able to find every lone wolf bent on terror. But we 
cannot accept that we are powerless to close opportunities and remove 
the instrumentalities of destruction.
    As I stated at a hearing last week, we should not forget that in 
the United States the last person to crash a plane into a Federal 
building, fueled by an anti-Government ideology, was a pilot in Texas. 
GAO has reported and the Department has testified that we do not check 
Americans seeking flight training against the terrorist watch list 
until they apply for a pilot's license. The lesson of 9/11 is that we 
need to keep people who seek to do us harm from being trained as 
pilots. We must remove the opportunities and the instrumentalities of 
destruction. I have introduced a bill that would require everyone who 
is seeking to be trained as pilot is vetted against a terrorist watch 
list. I hope my colleagues will join me in that effort.
    As we consider the vulnerabilities that remain, I am disappointed 
that we have not yet managed to achieve the screening of 100% of 
maritime cargo that reaches our shores. Madame Secretary, it is my 
understanding that you have recently signed a blanket 2-year waiver of 
the 100% screening requirement. I do not understand how the Department 
can ignore a statutory mandate designed to close a known vulnerability. 
Searching the cargo before it reaches this country provides us with the 
best opportunity to remove instrumentalities of destruction before they 
reach this country.
    Finally, as we consider threats and vulnerabilities, we must also 
think about likely targets. GAO has produced several reports 
highlighting the poor state of Federal building security. While 
promises have been made, little has changed. I hope we have not 
forgotten that a lone-wolf terrorist blew up a Federal building in 
Oklahoma several years before the events of September 11. Timothy 
McVeigh used his opportunity and created destruction. We do not need to 
see this happen again before we take action.
    In closing, as we begin today's discussion about the homeland 
threat landscape, I look forward to hearing about how we can move away 
from merely identifying the problems and move toward finding and 
implementing solutions.

    Chairman King. I thank the Ranking Member. I am going to 
ask if we can recess for a few moments. Apparently, there is a 
problem with the microphones, which should be corrected in the 
next several moments. So the committee stands in recess for 
hopefully just a few minutes.
    [Recess.]
    Chairman King. The hearing will resume, and--Madam 
Secretary, Mr. Director, we regret the inconvenience and the 
delay.
    Mr. Olsen, I was hoping that perhaps, considering your past 
experience with the NSA, you could have had somebody come in 
and, you know, rewire it for us very quickly, but--anyway, I 
would thank the Ranking Member for his opening statement. Other 
Members of the committee are reminded that opening statements 
may be submitted for the record.
    We are pleased to have two very distinguished witnesses 
before us today on this topic, obviously, of homeland security 
and the threats to the homeland.
    Secretary Napolitano was sworn in as the third Secretary of 
Homeland Security in January 2009, previously served as the 
Governor of Arizona and that State's attorney general. As I 
said, just in the past 18 months alone, she has testified 
before this committee four times. I am sure she has loved every 
minute of it.
    With that, we would recognize the Secretary and look 
forward to her testimony.
    Secretary Napolitano.

 STATEMENT OF HON. JANET NAPOLITANO, SECRETARY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Secretary Napolitano. Thank you Chairman King, Ranking 
Member Thompson, and Members of the committee. I thank Director 
Olsen and NCTC for their close partnership and collaboration 
across many areas.
    I am pleased to join you today, and I thank the committee 
for your strong support for the Department of Homeland 
Security, not only over the past 3\1/2\ years, but indeed, 
since the Department's founding. I look forward to continuing 
our work together to protect the American people as we advance 
our many shared goals.
    [Off mike.]
    Chairman King. Excuse me, Secretary. Is the system working? 
It seems to be going in and out.
    Secretary Napolitano. I can speak very loudly. Let me try 
again.
    Today, nearly 11 years after the 9/11 attacks, America is 
stronger and more secure, thanks to the work of the men and 
women of DHS and our Federal, State, local, Tribal, 
territorial, and international partners across the homeland 
security enterprise.
    Yet while the United States has made significant progress, 
threats from terrorists persist and continually evolve:
    We face direct threats from al-Qaeda.
    We face growing threats from other foreign-based terrorist 
groups which are inspired by al-Qaeda ideology but appear to 
have few operational connections to the core al-Qaeda group, 
such as al-Qaeda in the Arabian Peninsula and Al Shabaab.
    Perhaps most crucially, we face a threat environment where 
violent extremism is not defined or contained by international 
borders. Today we must address threats that are home-grown as 
well as those that originate abroad.
    These threats are not limited to any one individual, group, 
or ideology, and as we have seen, the tactics employed by 
terrorists can be as simple as a homemade bomb or as 
sophisticated as a biological threat or a coordinated cyber 
attack.
    While we deal with a number of threats and threat actors at 
any given time, three areas merit special, sustained attention:
    The first is aviation. With respect to our aviation sector, 
the Christmas day 2009 plot, the October 2010 air cargo threat, 
and the more recent AQAP plot that would have targeted a U.S.-
bound airliner with explosives make clear that commercial 
aviation remains a target. Terrorists, especially AQAP, 
continue to seek ways to circumvent existing security measures; 
their methods and tactics are sometimes ingenious and 
increasingly sophisticated.
    A second area is cyber. Cyber threats and incidents have 
increased significantly over the past decade. Our Nation 
continues to confront a dangerous combination of known and 
unknown vulnerabilities in cyberspace, strong and rapidly 
expanding adversary capabilities, and limited threat and 
vulnerability awareness. We remain hopeful that Congress can 
pass strong cybersecurity legislation this year.
    The third area of growing concern is home-grown violent 
extremism. Within the context of U.S.-based violent extremism, 
we know that foreign terrorist groups affiliated with al-Qaeda, 
and individual extremists, are actively seeking to recruit or 
inspire Westerners to carry out attacks against Western and 
U.S. targets.
    Recruitment within the United States spans a variety of 
activities, using social media, personal interaction, and 
publication of magazines, among other things.
    Today, the Department operates with the understanding that 
a significant terrorist risk to the homeland is posed by 
violent extremists inspired by al-Qaeda and its affiliates.
    This threat is real, as evidenced by the multiple recent 
thwarted attacks of domestic violent extremists inspired by al-
Qaeda, including the arrest of Naser Jason Abdo in Fort Hood in 
July 2011 and the arrest of Amine el-Khalifi in February 2012 
in Washington, DC. Importantly, however, we also know that 
violent extremism can be inspired by various religious, 
political, or other ideological beliefs.
    The recent terrorist attack overseas in Bulgaria, as well 
as the shooting last week in Aurora, Colorado, further 
demonstrate that we must remain vigilant and prepared.
    We mitigate these threats in several ways. First and 
foremost, we have worked to build a homeland security 
enterprise that allows DHS and our many partners to detect 
threats earlier, share information, minimize risks, and 
maximize our ability to respond and recover from attacks and 
disasters of all kinds.
    With respect to the aviation sector, we have implemented a 
layered detection system focusing on risk-based screening, 
enhanced targeting, and information-sharing, while 
simultaneously facilitating travel for nearly 2 million 
domestic air travelers every day.
    Following the December 2009 threat, we launched a historic 
global initiative to strengthen international aviation, which 
has improved cooperation on passenger and air cargo screening, 
technology development and deployment, information collection 
and sharing, and the development of security standards.
    We have strengthened information sharing with our 
international partners. For example, our new and historic PNR 
agreement with the European Union allows us to continue sharing 
passenger information so that we can better identify travelers 
who merit our attention before they depart for the United 
States.
    Our Pre-Departure Targeting Program, Immigration Advisory 
Program and enhanced in-bound targeting operations also allow 
us to more effectively identify high-risk travelers who are 
likely to be inadmissible to the United States, and make 
recommendations to commercial carriers to deny boarding before 
a plane departs.
    At home, we have continued the deployment of advanced 
technology at airports, including AIT machines, while at the 
same time implementing new programs to make the screening 
process more efficient for trusted travelers through programs 
such as TSA PreCheck and Global Entry.
    Across the cyber domain, we have continued to partner with 
sector-specific agencies and the private sector to help secure 
cyberspace and critical infrastructure such as the financial 
sector, the power grid, water systems, and transportation 
networks.
    We have taken significant action to protect Federal 
civilian government systems through the deployment of intrusion 
detection systems like EINSTEIN, greater monitoring and sharing 
of threat information, National exercises and incident response 
planning, public awareness and outreach programs, and a cyber 
workforce initiative to recruit the next generation of cyber 
professionals.
    Internationally, we have worked with our partners to share 
expertise, combat cybercrime, and strengthen shared systems and 
networks.
    Finally, we have improved our domestic capabilities to 
detect and prevent terrorist attacks against our citizens, our 
communities, and our critical infrastructure.
    We have increased our ability to analyze and distribute 
threat information at all levels. Specifically, we have worked 
to build greater analytic capability through 77 designated 
fusion centers, resulting in unprecedented levels of 
information sharing at the State and local level.
    We have invested in training for local law enforcement and 
first responders of all types, to increase expertise and 
capacity at the local level.
    For example, we have transformed how we train front-line 
officers regarding suspicious activities, through the 
Nationwide Suspicious Activity Reporting Initiative, in 
partnership with the Department of Justice.
    We are also in the final stages of implementing a 
Countering Violent Extremism curriculum for Federal, State, 
local, and correctional facility law enforcement officers that 
is focused on community-oriented policing, which will help 
front-line personnel identify activities that are potential 
indicators of potential terrorist activity and violence.
    Through the Nation-wide expansion of the ``If You See 
Something, Say Something,'' campaign, we are encouraging all 
Americans to alert local law enforcement if they see something 
that is potentially dangerous.
    DHS has come a long way in the nearly 11 years since 9/11 
to enhance the protection of the United States and engage our 
partners in this shared responsibility.
    Together, we have made significant progress to strengthen 
the homeland security enterprise. But many challenges still 
remain.
    Threats against our Nation, whether by terrorism or 
otherwise, continue to exist and evolve. DHS must continue to 
evolve as well. We continue to be ever-vigilant to protect 
against threats, while promoting travel, trade, and 
safeguarding our essential rights and liberties.
    I thank the committee for your attention as we work 
together to keep our Nation safe.
    [The prepared statement of Secretary Napolitano follows:]

              Prepared Statement of Hon. Janet Napolitano
                             July 25, 2012

    Thank you Chairman King, Ranking Member Thompson, and Members of 
the committee, I am pleased to join you today, and I thank the 
committee for your strong support for the Department of Homeland 
Security (DHS), not only over the past 3\1/2\ years, but indeed, since 
the Department's founding. I look forward to continuing our work 
together to protect the American people as we advance our many shared 
goals.
    Almost 11 years after the terrorist attacks of September 11, 
America is stronger and more secure, thanks to the support of the 
Congress, the work of the men and women of DHS, and our Federal, State, 
local, Tribal, and territorial partners across the homeland security 
enterprise. I thank them all for their service.
    Created with the founding principle of protecting the American 
people from terrorist and other threats, DHS and its many partners 
across the Federal Government, public and private sectors, and 
communities throughout the country have strengthened homeland security 
to better mitigate and defend against evolving threats.
    Additionally, within the Federal Government, many departments and 
agencies contribute to the homeland security mission. The Nation's 
armed forces serve on the front lines of homeland security by degrading 
al-Qaeda's capabilities to attack the United States and targets 
throughout the world. The Office of the Director of National 
Intelligence, the Central Intelligence Agency, and the entire 
intelligence community, of which DHS is a member, are producing better 
streams of intelligence than at any time in history.
    The Federal homeland security enterprise also includes the strong 
presence of the Department of Justice (DOJ) and the Federal Bureau of 
Investigation (FBI), whose role in leading terrorism investigations has 
led to the arrest of numerous individuals on terrorism-related charges.
    But despite considerable progress, the horrific attack last week in 
Aurora, Colorado--and the terrorist attack in Bulgaria--serve as a 
reminder that our work to detect and prevent attacks against Americans 
is never done.
    As I have said many times, homeland security begins with hometown 
security. As part of our commitment to strengthening hometown security, 
we have worked to get information, tools, and resources out of 
Washington, DC, and into the hands of State, local, Tribal, and 
territorial officials and first responders.
    This has led to significant advances. We have made great progress 
in improving our domestic capabilities to detect and prevent terrorist 
attacks against our citizens, our communities, and our critical 
infrastructure. We have increased our ability to analyze and distribute 
threat information at all levels. We have invested in training for 
local law enforcement and first responders of all types in order to 
increase expertise and capacity at the local level. We have also 
supported and sustained preparedness and response capabilities across 
the country through more than $36 billion in homeland security grants 
since 2002.
    As we look ahead, and in order to address evolving threats and make 
the most of limited resources, the administration proposed a new vision 
for homeland security grants in the fiscal year 2013 President's 
budget. The administration's proposal focuses on building and 
sustaining core capabilities associated with the five mission areas 
within the National Preparedness Goal (NPG), helping to elevate Nation-
wide preparedness.
    This proposal reflects the many lessons we have learned in grants 
management and execution over the past 10 years. Using a competitive, 
risk-based model, the proposal envisions a comprehensive process to 
assess gaps, identify and prioritize deployable capabilities, limit 
periods of performance to put funding to work quickly, and require 
grantees to regularly report progress in the acquisition and 
development of these capabilities. The administration looks forward to 
working with Congress and stakeholders on this proposal to enable all 
levels of government to build and sustain, in a collaborative way, the 
core capabilities necessary to prepare for incidents that pose the 
greatest risk to the security of the Nation.
    Our experience over the past several years has also made us smarter 
about the terrorist threats we face and how best to deal with them. We 
continue to expand our risk-based, intelligence-driven security 
efforts. By sharing and leveraging information, we can make informed 
decisions about how to best mitigate risk, and provide security that is 
seamless and efficient.
    We also free up more time and resources, giving us the ability to 
focus those resources on those threats or individuals we know the least 
about. This approach not only makes us safer, it also creates 
efficiencies within the system for travelers and for businesses. In 
other words, our homeland security and our economic security go hand-
in-hand.
    Strengthening homeland security includes a significant 
international dimension. To most effectively carry out our core 
missions--including preventing terrorism, securing our borders, 
enforcing immigration laws, and protecting cyberspace--we partner with 
countries around the world. This work ranges from strengthening cargo, 
aviation, and supply chain security to joint investigations, 
information sharing, and science and technology cooperation.
    Through collaborations with other Federal agencies and our foreign 
counterparts, we not only enhance our ability to prevent terrorism and 
transnational crime; we also leverage the resources of our 
international partners to more efficiently and cost-effectively secure 
global trade and travel, to help ensure that dangerous people and goods 
do not enter our country.
    In my time today, I would like to provide an update on the key 
areas of the DHS mission that fall within the committee's jurisdiction, 
our priorities, and our vision for working with the Congress to build 
on the substantial progress we have achieved to date and must continue 
to sustain in the months and years ahead.

              PREVENTING TERRORISM AND ENHANCING SECURITY

    While the United States has made significant progress, threats from 
terrorists--including, but not limited to al-Qaeda and al-Qaeda-
affiliated groups--persist and continually evolve, and the demands on 
DHS continue to grow. Today's threats are not limited to any one 
individual, group, or ideology and are not defined or contained by 
international borders. Terrorist tactics can be as simple as a homemade 
bomb and as sophisticated as a biological threat or a coordinated cyber 
attack.
    DHS and our partners at the Federal, State, Tribal, and local 
levels have had success in thwarting numerous terrorist plots, 
including the attempted bombings of the New York City subway, foiled 
attacks against air cargo, and other attempts across the country. 
Nonetheless, recent attacks overseas, and the continued threat of home-
grown terrorism in the United States, demonstrate how we must remain 
vigilant and prepared.
    To address these evolving threats, DHS employs risk-based, 
intelligence-driven operations to prevent terrorist attacks. Through a 
multi-layered detection system focusing on enhanced targeting and 
information sharing, we work to interdict threats and dangerous people 
at the earliest point possible. We also work closely with Federal, 
State, and local law enforcement partners on a wide range of critical 
homeland security issues in order to provide those on the frontlines 
with the information and tools they need to address threats in their 
communities.
    Likewise, countering biological, nuclear, and radiological threats 
requires a coordinated, whole-of-Government approach. DHS, through the 
Domestic Nuclear Detection Office, works in partnership with agencies 
across Federal, State, and local governments to prevent and deter 
attacks using nuclear and radiological weapons through nuclear 
detection and forensics programs. The Office of Health Affairs (OHA), 
the Science and Technology Directorate (S&T), and the Federal Emergency 
Management Agency (FEMA) also provide medical, scientific, and other 
technical expertise to support chemical, biological, nuclear, and 
radiological preparedness and response efforts.

Sharing Information, Expanding Training, and Raising Public Awareness
    The effective sharing of information in a way that is timely, 
actionable whenever possible, and that adds value to the homeland 
security enterprise is essential to protecting the United States. As 
part of our approach, we have changed the way DHS provides information 
to our partners by replacing the outdated color-coded alert system with 
the National Terrorism Advisory System, or NTAS, which provides timely, 
detailed information about credible terrorist threats and recommended 
security measures.
    We also have continued to enhance our analytic capability through 
the 77 designated fusion centers, resulting in unprecedented 
information-sharing capabilities at the State and local levels. DHS has 
supported the development of fusion centers through deployed personnel, 
training, technical assistance, exercise support, security clearances, 
connectivity to Federal systems, technology, and grant funding. We 
currently have more than 90 DHS intelligence officers deployed to 
fusion centers, working side by side with their Federal, State, and 
local counterparts.
    We are working to ensure that every fusion center supported by DHS 
maintains a set of core capabilities that includes the ability to 
assess local implications of National intelligence, share information 
with Federal authorities so we can identify emerging National threats, 
and ensure the protection of civil rights, civil liberties, and 
privacy.
    Specifically, we are encouraging fusion centers to develop and 
strengthen their grassroots analytic capabilities so that National 
intelligence can be placed into local context, and the domestic threat 
picture can be enhanced based on an understanding of the threats in 
local communities. We are partnering with fusion centers to establish 
more rigorous analytic processes and analytic production plans, 
increase opportunities for training and professional development for 
State and local analysts, and encourage the development of joint 
products between fusion centers and Federal partners.
    Over the past 3 years, we have transformed how we train our 
Nation's front-line officers regarding suspicious activities, through 
the Nationwide Suspicious Activity Reporting Initiative (NSI). This 
initiative, which we conduct in partnership with the Department of 
Justice, is an administration effort to train State and local law 
enforcement to recognize behaviors and indicators potentially related 
to terrorism and terrorism-related crime; standardize how those 
observations are documented and analyzed; and ensure the sharing of 
those reports with the Federal Bureau of Investigation-led Joint 
Terrorism Task Forces (JTTFs) for further investigation.
    More than 229,000 law enforcement officers have now received 
training under this initiative, and more are getting trained every 
week. The training was created in collaboration with numerous law 
enforcement agencies, and with privacy, civil rights, and civil 
liberties officials. DHS also has expanded the Nationwide Suspicious 
Activity Reporting Initiative to include our Nation's 18 critical 
infrastructure sectors. Infrastructure owners and operators from the 18 
sectors are now contributing information, vetted by law enforcement 
through the same screening process otherwise used to provide 
information to the JTTFs.
    Because an engaged and vigilant public is vital to our efforts to 
protect our communities, we have also continued our Nation-wide 
expansion of the ``If You See Something, Say Something<SUP>TM</SUP>'' 
public awareness campaign. This campaign encourages Americans to 
contact law enforcement if they see something suspicious or potentially 
dangerous. To date, we have expanded the campaign to Federal buildings, 
transportation systems, universities, professional and amateur sports 
leagues and teams, entertainment venues, some of our Nation's largest 
retailers, as well as local law enforcement. Most recently DHS has 
partnered with sports leagues such as the National Football League, 
Major League Baseball, the National Basketball Association, National 
Collegiate Athletic Association, National Hockey League, U.S. Golf, and 
the U.S. Tennis Association, to promote public awareness of potential 
indicators of terrorism at sporting events.

Countering Violent Extremism
    At DHS, we believe that local authorities and community members are 
often best able to identify individuals or groups residing within their 
communities exhibiting dangerous behaviors--and intervene--before they 
commit an act of violence. Countering violent extremism (CVE) is a 
shared responsibility, and DHS continues to work with a broad range of 
partners to gain a better understanding of the behaviors, tactics, and 
other indicators that could point to terrorist activity, and the best 
ways to mitigate or prevent that activity.
    The Department's efforts to counter violent extremism are three-
fold. We are working to better understand the phenomenon of violent 
extremism, and assess the threat it poses to the Nation as a whole, and 
within specific communities. We are bolstering efforts to address the 
dynamics of violent extremism and strengthen relationships with those 
communities targeted for recruitment by violent extremists. We are also 
expanding support for information-driven, community-oriented policing 
efforts that have long proven effective in preventing violent crime. 
All of this is consistent with the administration strategy released in 
August 2011 and the related Strategic Implementation Plan released in 
December 2011.
    DHS has conducted extensive analysis and research to better 
understand the threat of violent extremism in order to support State 
and Local law enforcement, fusion centers, and community partners with 
the knowledge needed to identify behaviors and indicators of violent 
extremism, and prevent violent crime. This includes over 75 case 
studies and assessments produced by the DHS Office for Intelligence and 
Analysis (I&A) since 2009 on home-grown violent extremist activities, 
including an in-depth study that examined the common behaviors 
associated with 62 cases of al-Qaeda-inspired violent extremists.
    Finally, DHS is in the last stages of implementing a CVE curriculum 
for Federal, State, local, and correctional facility law enforcement 
officers that is focused on community-oriented policing, which will 
help front-line personnel identify activities that are potential 
indicators of potential terrorist activity and violence. The training's 
key goal is to help law enforcement recognize the indicators of violent 
extremist activity and distinguish between those behaviors that are 
potentially related to crime and those that are Constitutionally 
protected or part of a religious or cultural practice. We piloted the 
24-hour State and local training curriculum in San Diego in January 
2012, and we are aiming to finalize the curriculum by the end of 2012. 
DHS is working with the International Association of Chiefs of Police 
to develop shorter CVE training modules for the recruit and field 
training officer level, which will be introduced into Police Academies 
and posted on an internet-based platform before the end of 2012. We are 
also developing a similar curriculum with the Federal Law Enforcement 
Training Center for Federal law enforcement officers, and finalizing a 
CVE awareness training for Correctional Facility, Probation, and Parole 
Officers in collaboration with the Interagency Threat Assessment 
Coordination Group, the Bureau of Prisons, and the National Joint 
Terrorism Task Force.
    Ensuring that State and Local law enforcement have access to 
operationally accurate and appropriate training is a top priority. With 
local communities and the Department of Justice, we have published 
guidance on best practices for community partnerships to prevent and 
mitigate home-grown threats. DHS publicly released the CVE Training 
Guidance and Best Practices, which was sent to all State and local 
partner grantors and grantees thereby tying to grant guidance policy on 
October 7, 2011. DHS also incorporated language into fiscal year 2012 
grant guidance that prioritizes CVE and allows funds to be used in 
support of State and local CVE efforts.

Protecting Our Aviation System
    Threats to our aviation system remain active and continue to 
evolve. Consequently, TSA is working internationally and with the 
private sector to continue to improve security screening, while 
simultaneously facilitating lawful travel and trade. We are continuing 
to strengthen protection of our aviation sector through a layered 
detection system focusing on risk-based screening, enhanced targeting, 
and information-sharing efforts to interdict threats and dangerous 
people at the earliest point possible.
    The Department is focused on measures to shift aviation security 
from a ``one-size-fits-all'' approach for passenger screening to a 
risk-based approach. In doing so, TSA utilizes a range of measures, 
both seen and unseen, as part of its layered security system--from 
state-of-the-art explosives detection, to using Advanced Imaging 
Technology (AIT) units and canine teams to screen passengers and cargo, 
to expediting screening for known travelers. Through Secure Flight, TSA 
is now pre-screening 100 percent of all travelers flying within, to, or 
from the United States against terrorist watch lists before passengers 
receive their boarding passes.
    In our increasingly interconnected world, we also work beyond our 
own airports, partnering with our Federal agencies and countries to 
protect both National and economic security.
    For example, through the Pre-Departure Targeting Program, 
Immigration Advisory Program, and enhanced in-bound targeting 
operations, Customs and Border Protection (CBP) has improved its 
ability to identify high-risk travelers who are likely to be 
inadmissible into the United States and make recommendations to 
commercial carriers to deny boarding before a plane departs.
    Through the Visa Security Program, U.S. Immigration and Customs 
Enforcement (ICE) has deployed trained special agents overseas to high-
risk visa activity posts to identify potential terrorist and criminal 
threats before they reach the United States.
    Through preclearance agreements, CBP Officers deployed overseas 
inspect passengers abroad through the same process a traveler would 
undergo upon arrival at a U.S. port of entry, allowing us to extend our 
borders outward while facilitating a more efficient passenger 
experience.
    Finally, our continued use, analysis, and sharing of Passenger Name 
Record (PNR) data has allowed us to better identify passengers who 
merit our attention before they depart for the United States. On July 
1, 2012, a new agreement with the European Union on the transfer of PNR 
data entered into force, marking an important milestone in our 
collective efforts to protect the international aviation system from 
terrorism and other threats.
    As we have taken these actions to strengthen security, we also have 
focused on expediting trade and travel for the millions of people who 
rely on our aviation system every day. One key way we have done this is 
through expansion of trusted traveler programs.
    For instance, the Global Entry program, which is managed by CBP, is 
allowing us to expedite entry into the United States for pre-approved, 
low-risk air travelers. More than 1 million trusted traveler program 
members are able to use the Global Entry kiosks, and we are expanding 
the program both domestically and internationally as part of the 
administration's efforts to foster increased travel and tourism.
    In addition to U.S. citizens and lawful permanent residents, 
Mexican nationals can now enroll in Global Entry, and Global Entry's 
benefits are also available to Dutch citizens enrolled in the Privium 
program; South Korean citizens enrolled in the Smart Entry Service 
program; Canadian citizens and residents through the NEXUS program; and 
citizens of the United Kingdom, Germany, and Qatar through limited 
pilot programs. In addition, we have signed agreements with Australia, 
New Zealand, Panama, and Israel to allow their qualifying citizens and 
permanent residents to participate in Global Entry. We are continuing 
to expand the program both domestically and internationally as part of 
the administration's efforts to foster travel and tourism, which 
supports the President's Executive Order 13597 on Travel and Tourism.
    U.S. citizen participants in Global Entry are also eligible for TSA 
PreCheck<SUP>TM</SUP>--a passenger prescreening initiative. TSA 
PreCheck<SUP>TM</SUP> is part of the agency's on-going effort to 
implement risk-based security concepts that enhance security by 
focusing on travelers the agency knows least about. More than 1.7 
million passengers have received expedited screening through TSA 
PreCheck<SUP>TM</SUP> security lanes since the initiative began last 
fall. TSA PreCheck<SUP>TM</SUP> is now available in 18 airports for 
select U.S. citizens traveling on Alaska Airlines, American Airlines, 
Delta Air Lines, United Airlines and US Airways and members of CBP 
Trusted Traveler programs. TSA has expanded TSA PreCheck<SUP>TM</SUP> 
benefits to U.S. military active-duty members traveling through Ronald 
Reagan Washington National and Seattle-Tacoma International airports. 
In addition to TSA PreCheck<SUP>TM</SUP>, TSA has implemented other 
risk-based security measures including modified screening procedures 
for passengers 12 and younger and 75 and older.

Visa Waiver Program
    With our partners overseas, we have acted to strengthen the Visa 
Waiver Program (VWP), a program that boosts our economy by facilitating 
legitimate travel for individuals traveling to the United States for 
tourism or business. According to the Commerce Department, tourism 
alone supported 7.6 million U.S. jobs last year, and tourism revenue in 
early 2012 was up 14% from the previous year.
    The VWP is an essential driver of international tourism because it 
allows eligible nationals of 36 countries to travel to the United 
States without a visa and remain in our country for up to 90 days. 
Almost two-thirds of international travelers come to the U.S. from VWP 
countries. Additionally, since its inception in the mid-1980s, VWP has 
also become an essential tool for increasing security standards, 
advancing information sharing, strengthening international 
relationships, and promoting legitimate travel to the United States.
    Over the last several years, DHS has focused on bringing VWP 
countries into compliance with information-sharing agreement 
requirements of The Implementing Recommendations of the 9/11 Commission 
Act of 2007 (9/11 Act), Pub. L. No. 110-53. As of January 2012, all VWP 
countries have completed an exchange of diplomatic notes or an 
equivalent mechanism for the requirement to enter into an agreement to 
share information on lost and stolen passports with the United States 
through INTERPOL or other designated means.
    DHS, in collaboration with the Department of Justice, has concluded 
Preventing and Combating Serious Crime (PCSC) agreements, or their 
equivalent, with 35 VWP countries and two VWP aspirants. DHS, along 
with the Departments of Justice and State, continues to work closely 
with the remaining country to sign a PCSC agreement. These agreements 
facilitate the sharing of information about terrorists and serious 
criminals.
    The U.S. Government has also concluded negotiations on arrangements 
with all VWP countries for the exchange of terrorism screening 
information.
    Additionally, DHS developed the Electronic System for Travel 
Authorization (ESTA) as a proactive on-line system to determine whether 
an individual is eligible to travel to the United States under the VWP, 
and whether such travel poses any law enforcement or National security 
risks.
    We support carefully managed expansion of the VWP to countries that 
meet the statutory requirements, and are willing and able to enter into 
a close security relationship with the United States. To this end, we 
support current bi-partisan efforts by the Congress, such as the 
proposed JOLT Act of 2012, to expand VWP participation and to promote 
international travel and tourism to the United States while maintaining 
our strong commitment to security. Additionally, as part of the 
President's recent Executive Order, we are working with partner 
countries to meet existing requirements and prepare for further 
expansion of the VWP.

Overstays and Exit Capabilities
    Over the past year, we have worked to better detect and deter those 
who overstay their lawful period of admission through the enhanced 
biographic program. The ability to identify and sanction overstays is 
linked to our ability to determine who has arrived and departed from 
the United States. By matching arrival and departure records, and using 
additional data collected by DHS, we can better determine who has 
overstayed their lawful period of admission.
    In May 2011, as part of Phase 1 of the enhanced biographic effort, 
DHS began a coordinated effort to vet all potential overstay records 
against intelligence community and DHS holdings for National security 
and public safety concerns. Using those parameters, we reviewed the 
backlog of 1.6 million overstay leads within the U.S. Visitor and 
Immigrant Status Indicator Technology (US-VISIT) program and referred 
leads based on National security and public safety priorities to ICE 
for further investigation.
    Through limited automated means, DHS cross-referenced additional 
overstay leads with DHS location and immigration holdings, closing 
additional records by confirming changes in immigration information or 
travel history that had not yet been recorded. Previously, these 
records would not have been examined, except in instances when 
resources allowed it. Now, we are vetting all overstays for public 
safety and National security concerns, and DHS is also conducting 
automated reviews for changes in immigration status or travel history. 
This is performed on a recurrent basis.
    In July, Congress approved DHS's plan to continue building its 
enhanced biographic capability. DHS is implementing Phase 2 of this 
effort, and expects to have these enhancements in place by early 2013. 
Once completed, this initiative will significantly strengthen our 
existing capability to identify and target for enforcement action those 
who have overstayed their authorized period of admission, and who 
represent a public safety and/or National security threat by 
incorporating data contained within law enforcement, military, and 
intelligence repositories.
    This strategy also will also enhance our ability to identify 
individual overstays; provide the State Department with information to 
support visa revocation, prohibit future VWP travel for those who 
overstay, and place ``lookouts'' for individuals, in accordance with 
existing Federal laws; establish greater efficiencies to our Visa 
Security Program; and enhance the core components of an entry-exit and 
overstay program.
    Concurrently, the Department's Science and Technology Directorate 
(S&T) is working to establish criteria and promote research for 
emerging technologies that would provide the ability to capture 
biometrics and develop a biometric exit capability at a significantly 
lower operational cost than is currently available. S&T is working 
closely with the National Institute of Standards and Technology (NIST) 
on this initiative.
    Last, as part of the Beyond the Border Action plan signed by 
President Obama and Canadian Prime Minister Harper in December 2011, we 
are creating an exit program on the United States Northern Border. 
Under the plan, the United States and Canada will exchange entry 
records, so that an entry to one country essentially becomes an exit 
record from the other.

Protecting Surface Transportation
    Beyond aviation, we have worked with Federal agencies and other 
Government partners, transportation sector entities, and companies 
across the United States to enhance security of surface transportation 
infrastructure through risk-based security assessments, critical 
infrastructure hardening, and close partnerships with State and local 
law enforcement partners.
    Because of its open access architecture, surface transportation has 
a fundamentally different operational environment than aviation. As a 
result, our approach must be different. To protect surface 
transportation, we have conducted compliance inspections throughout the 
freight rail and mass transit domains; critical facility security 
reviews for pipeline facilities; comprehensive mass transit assessments 
that focus on high-risk transit agencies; and corporate security 
reviews conducted in multiple modes of transportation on a continuous 
basis to elevate standards and identify security gaps.
    We also have continued to support Visible Intermodal Prevention and 
Response (VIPR) teams, including 12 multi-modal teams. VIPR teams are 
composed of personnel with expertise in inspection, behavior detection, 
security screening, and law enforcement for random, unpredictable 
deployments throughout the transportation sector to prevent potential 
terrorist and criminal acts.
    These efforts have been supported by more than $1.9 billion in DHS 
grant funding awarded through the Transit Security Grant Program to 
harden assets, improve situational awareness, and build National 
capabilities to prevent and respond to threats and incidents across the 
transportation sector.

                      GLOBAL SUPPLY CHAIN SECURITY

    Securing the global supply chain system is integral to securing 
both the lives of people around the world, and maintaining the 
stability of the global economy. We must work to strengthen the 
security, efficiency, and resilience of this critical system. Supply 
chains must be able to operate effectively, in a secure and efficient 
fashion, in a time of crisis, recover quickly from disruptions, and 
continue to facilitate international trade and travel.
    We know that a crisis or vulnerability in any part of the world has 
the ability to impact the flow of goods and people thousands of miles 
away. Beyond loss of life and physical damage, these events can cause 
large economic consequences. Therefore, our economy is dependent on our 
ability to secure and facilitate the flow of people and goods to and 
from our shores.
    Within the American economy, trade with our international partners 
accounts for roughly one-quarter of our GDP. This year alone, DHS will 
help facilitate about $2 trillion in legitimate trade, while enforcing 
U.S. trade laws that protect the economy, the health, and the safety of 
the American people.
    Earlier this year, the administration announced the U.S. National 
Strategy for Global Supply Chain Security to set a Government-wide 
vision of our goals, approach, and priorities to strengthen the global 
supply chain system. The National Strategy establishes two explicit 
goals: Promoting the efficient and secure movement of goods and 
fostering resilient supply chain systems. As we work to achieve these 
goals, we will be guided by the overarching principles of risk 
management and collaborative engagement with key stakeholders who also 
have key supply chain roles and responsibilities.
    DHS is now working in close partnership with other Federal 
departments and agencies to translate the high-level guidance contained 
in the Strategy into concrete actions. We are focusing our immediate 
efforts on the priority action areas identified in the Strategy.
    In addition to the National Strategy for Global Supply Chain 
Security, DHS continues to advance a range of other measures and 
programs to strengthen different components of this vital system in 
partnership with multilateral organizations such as the International 
Maritime Organization (IMO), the International Civil Aviation 
Organization (ICAO), the World Customs Organization (WCO), and the 
Asia-Pacific Economic Cooperation (APEC) as well as bilaterally with 
trading partners.
    We are also working closely with industry and foreign government 
partners to identify and address high-risk shipments as early in the 
shipping process as possible by collecting and analyzing advance 
electronic commercial data. This allows DHS to make risk-informed 
decisions about what cargo is safe to be loaded onto vessels and 
aircraft prior to their departure from a foreign port and facilitates 
the clearance of those shipments upon their arrival in the United 
States.
    Through the Container Security Initiative (CSI), CBP works with 
host government customs services to examine high-risk maritime 
containerized cargo at foreign seaports, before they are loaded on-
board vessels destined for the United States. CSI teams currently 
operate at a total of 58 ports in North America, Europe, Asia, Africa, 
the Middle East, and Latin and Central America--covering approximately 
80 percent of all maritime containerized cargo imported into the United 
States.
    In the aviation environment, we are working with leaders from 
global shipping companies and the International Air Transport 
Association (IATA) to develop preventive measures, including terrorism 
awareness training for employees and vetting personnel with access to 
cargo. We are reviewing our foreign partners' cargo screening to 
determine whether their programs provide a level of security 
commensurate with U.S. air cargo security standards. Those who meet 
these requirements are officially recognized to conduct screening for 
cargo traveling to the United States. We are also building 
partnerships, through mutual recognition arrangements, with foreign 
governments maintaining industry partnership programs comparable to the 
Customs-Trade Partnership against Terrorism. We concluded such an 
agreement with the European Union in May which will give us better 
visibility into the security applied early in the supply chain for 
shipments from all 27 Member States of the European Union.
    DHS is also focused on preventing the exploitation of the global 
supply chain by those seeking to use the system to transport dangerous, 
illicit, contraband, contaminated, and counterfeit products. For 
example, under Program Global Shield, we are working with more than 90 
countries to prevent the illegal theft or diversion of precursor 
chemicals that can be used to make Improvised Explosive Devices, or 
IEDs. Through these efforts, we have already seized more than 62 metric 
tons of these deadly materials.
    DHS, through ICE and CBP, also continues to investigate U.S. export 
control law violations, including those related to military items, 
controlled ``dual-use'' commodities, and sanctioned or embargoed 
countries. We are committed to ensuring that foreign adversaries do not 
illegally obtain U.S. military products and sensitive technology, 
including weapons of mass destruction and their components, or attempt 
to move these items through the global supply chain. In fiscal year 
2011, ICE initiated 1,780 new investigations into illicit procurement 
activities, made 583 criminal arrests, and accounted for 2,332 seizures 
valued at $18.9 million. ICE also manages and operates the Export 
Enforcement Coordination Center (E2C2), an interagency hub for 
streamlining and coordinating export enforcement activities and 
exchanging information and intelligence.

                   SECURING AND MANAGING OUR BORDERS

    DHS secures the Nation's air, land, and sea borders to prevent 
illegal activity while facilitating lawful travel and trade. The 
Department's border security and management efforts focus on three 
interrelated goals: Effectively securing U.S. air, land, and sea 
borders; safeguarding and streamlining lawful trade and travel; and 
disrupting and, in coordination with other Federal agencies, 
dismantling transnational criminal and terrorist organizations.
Southwest Border
    To secure our Nation's Southwest Border, we have continued to 
deploy unprecedented amounts of manpower, resources, and technology, 
while expanding partnerships with Federal, State, Tribal, territorial, 
and local partners, as well as the government of Mexico.
    We have increased the number of Border Patrol agents Nation-wide 
from approximately 10,000 in 2004 to more than 21,000 today with nearly 
18,500 ``boots on the ground'' along the Southwest Border. Working in 
coordination with State and other Federal agencies, we have deployed a 
quarter of all ICE operational personnel to the Southwest Border 
region--the most ever--to dismantle criminal organizations along the 
border.
    We have doubled the number of ICE personnel assigned to Border 
Enforcement Security Task Forces, which work to dismantle criminal 
organizations along the border. We have tripled deployments of Border 
Liaison Officers, who facilitate cooperation between U.S. and Mexican 
law enforcement authorities on investigations and enforcement 
operations, including drug trafficking, in coordination with the Drug 
Enforcement Administration. We also have increased the number of 
intelligence analysts working along the U.S.-Mexico border.
    In addition, we have deployed dual detection canine teams as well 
as non-intrusive inspection systems, Mobile Surveillance Systems, 
Remote Video Surveillance Systems, thermal imaging systems, radiation 
portal monitors, and license plate readers to the Southwest Border. 
These technologies, combined with increased manpower and 
infrastructure, give our personnel better awareness of the border 
environment so they can more quickly act to resolve potential threats 
or illegal activity. We also are screening southbound rail and vehicle 
traffic, looking for the illegal weapons and cash that are helping fuel 
the cartel violence in Mexico.
    We also have completed 651 miles of fencing out of nearly 652 miles 
mandated by Congress as identified by Border Patrol field commanders, 
including 299 miles of vehicle barriers and 352 miles of pedestrian 
fence.
    To enhance cooperation among local, Tribal, territorial, State, and 
Federal law enforcement agencies, we have provided more than $203 
million in Operation Stonegarden funding to Southwest Border law 
enforcement agencies over the past 4 years.
    Our work along the border has included effective support from our 
partners at the Department of Defense (DOD). In addition to continuing 
support from DOD's Joint Task Force--North, in 2010, President Obama 
authorized the temporary deployment of up to 1,200 National Guard 
troops to the Southwest Border to contribute additional capabilities 
and capacity to assist law enforcement agencies as a bridge to longer-
term deployment of border surveillance technology and equipment that 
will strengthen our ability to identify and interdict the smuggling of 
people, drugs, illegal weapons, and money.
    Beginning in March 2012, DOD's National Guard support to CBP began 
to transition from ground support to air support, essentially moving 
from boots on the ground to boots in the air with state-of-the-art 
aerial assets equipped with the latest detection and monitoring 
capabilities.
    These aerial assets, which include both rotary and fixed-wing 
aircraft, supplement the CBP Office of Air and Marine aerial assets and 
support the Border Patrol's ability to operate in diverse environments, 
expand our field of vision in places with challenging terrain, and help 
us establish a greater visible presence from a distance, which 
increases deterrence. And this year, CBP introduced an extremely 
effective new aviation surveillance technology to monitor the border. 
The U.S. Army has loaned CBP a new electronic sensor system. CBP flies 
Predator B unmanned aircraft systems (UASs) with this new system on the 
Southwest Border. This system provides DHS with the first broad-area, 
electronic sensor system, with capabilities that far exceed those of 
the ground-based fixed or mobile systems.
    The results of these comprehensive and coordinated efforts have 
been significant. Border Patrol apprehensions--a key indicator of 
illegal immigration--have decreased 53 percent in the last 3 years and 
have decreased 80 percent from what they were at their peak. Indeed, 
illegal immigration attempts have not been this low since 1971. Violent 
crime in U.S. border communities has also remained flat or fallen over 
the past decade, and statistics have shown that some of the safest 
communities in America are along the border. From fiscal years 2009 to 
2011, DHS seized 74 percent more currency, 41 percent more drugs, and 
159 percent more weapons along the Southwest Border as compared to 
fiscal years 2006 to 2008.
    To further deter individuals from illegally crossing our Southwest 
Border, we also directed ICE to prioritize the apprehension of recent 
border crossers and repeat immigration violators, and to support and 
supplement Border Patrol operations. Between fiscal years 2009 and 
2011, ICE made over 30,936 criminal arrests along the Southwest Border, 
including 19,563 arrests of drug smugglers and 4,151 arrests of human 
smugglers.
    In addition to our efforts to strengthen border security, we made 
great strides in expediting legal trade and travel, working with local 
leaders to update infrastructure and reduce wait times at our Southwest 
Border ports of entry. Along the Southwest Border, new initiatives have 
included outbound infrastructure improvements and port hardening, which 
when completed, will expand our outbound inspection capabilities, 
enhance port security, and increase officer safety. We also have 
implemented Active Lane Management, which leverages Ready Lanes, 
Dedicated Commuter Lanes, and LED signage to dynamically monitor 
primary vehicle lanes and re-designate lanes as traffic conditions and 
infrastructure limitations warrant.
    These efforts are not only expediting legitimate trade, they are 
also stopping contraband from entering and leaving the country. In 
fiscal year 2011, DHS interdicted goods representing more than $1.1 
billion in Manufacturer's Suggested Retail Price. Further, the value of 
consumer safety seizures including pharmaceuticals totaled more than 
$60 million, representing a 41 percent increase over fiscal year 2010.

Northern Border
    To protect the Northern Border, we have continued to deploy 
technology and resources, invest in port of entry improvements to 
enhance security, and deepen our strong partnership with Canada.
    For instance, CBP expanded unmanned aerial surveillance coverage 
along the Northern Border into eastern Washington, now covering 950 
miles of the Northern Border. In 2011, CBP Office of Air and Marine 
provided nearly 1,500 hours of unmanned aerial surveillance along the 
Northern Border.
    In 2011, CBP opened the Operations Integration Center in Detroit--a 
multi-agency communications center for DHS, and other Federal, State, 
local, and Canadian law enforcement agencies. The Operations 
Integration Center increases information-sharing capabilities leading 
to seizures of drugs, money, and illegal contraband along the Northern 
Border within the Detroit Sector.
    ICE has four Border Enforcement Security Task Force (BEST) units 
along the Northern Border. These units, including representatives from 
the Royal Canadian Mounted Police, Canadian Border Services Agency, and 
numerous other provincial Canadian police departments, enhance 
coordination of U.S.-Canada joint interdictions and investigations, 
resulting in increased security for both countries.
    To support the Beyond the Border Action Plan, in June we released 
the DHS Northern Border Strategy, the first unified strategy to guide 
the Department's policies and operations along the U.S.-Canada border. 
Through this strategy, we will continue to work to improve information 
sharing and analysis within DHS, as well as with our partners. We will 
enhance coordination of U.S.-Canada joint interdictions and 
investigations, deploy technologies to aid joint security efforts along 
the border, and continue to update infrastructure to facilitate travel 
and trade. We also look forward to continuing to deepen partnerships 
with Federal, State, local, Tribal, private sector, and Canadian 
partners that are so critical to the security, resiliency, and 
management of our Northern Border.

Maritime
    With more than 350 ports and 95,000 miles of coastline, the U.S. 
maritime domain is unique in its scope and diversity.
    The Coast Guard provides maritime security using a major cutter and 
patrol boat fleet to respond to threats, and launch boats and aircraft 
to maintain a vigilant presence over the seas. Closer to shore, Coast 
Guard helicopters small cutters and boats monitor, track, interdict, 
and board vessels. In the Nation's ports, the Coast Guard and CBP, 
along with our Federal, State, local, and Tribal partners, working in 
concert with other port stakeholders, monitor critical infrastructure, 
conduct vessel escorts and patrols, and inspects vessels and 
facilities.
    The U.S. Coast Guard plays an integral role in DHS' border 
enforcement strategy through its maritime operations as part of Joint 
Interagency Task Force (JIATF)--South, the U.S. Southern Command entity 
that coordinates integrated interagency counter drug operations in the 
Caribbean Sea, Gulf of Mexico, and the eastern Pacific. In fiscal year 
2011, Coast Guard major cutters and other assets removed over 75 metric 
tons of cocaine, more than 17 metric tons of marijuana, detained 191 
suspected smugglers, and seized 40 vessels. Additionally, Coast Guard 
Law Enforcement Detachments are deployed aboard U.S. Navy and Allied 
assets to support detection, monitoring, interdiction and apprehension 
operations. CBP Office of Air and Marine P-3 and Coast Guard fixed-wing 
aircraft have also been an integral part of successful counter-narcotic 
missions operating in the Source and Transit Zones in coordination with 
JIATF-South. Collectively the efforts to interdict drugs in the Source 
and Transit Zones helped to control the flow of drugs to the Southwest 
Border.
    Robust interagency cooperation and strong international 
partnerships also helped the Coast Guard interdict 2,474 migrants at 
sea in fiscal year 2011.

                  SAFEGUARDING AND SECURING CYBERSPACE

    Our daily life, economic vitality, and National security depend on 
a safe, secure, and resilient cyberspace. A vast array of 
interdependent IT networks, systems, services, and resources are 
critical to communication, travel, powering our homes, running our 
economy, and obtaining Government services. While we are more network-
dependent than ever before, increased interconnectivity increases the 
risk of theft, fraud, and abuse.
    Cyber incidents have increased significantly over the last decade 
and the United States continues to confront a dangerous combination of 
known and unknown vulnerabilities in cyberspace, strong and rapidly 
expanding adversary capabilities, and limited threat and vulnerability 
awareness. There have been instances of theft and compromise of 
sensitive information from both Government and private-sector networks. 
Last year, the DHS U.S. Computer Emergency Readiness Team (US-CERT) 
received more than 100,000 incident reports, and released more than 
5,000 actionable cybersecurity alerts and information products.
    DHS is the Federal Government's lead agency for securing civilian 
government computer systems and works with our industry and Federal, 
State, local, Tribal, and territorial government partners to secure 
critical infrastructure and information systems. DHS analyzes and 
mitigates cyber threats and vulnerabilities; distributes threat 
warnings; provides solutions to critical research and development 
needs; and coordinates the vulnerability, mitigation, and consequence 
management response to cyber incidents to ensure that our computers, 
networks, and information systems remain safe. DHS also works with 
Federal agencies to secure unclassified Federal civilian government 
networks and works with owners and operators of critical infrastructure 
to secure their networks through risk assessment, mitigation, and 
incident response capabilities.
    With respect to critical infrastructure, DHS and the sector-
specific agencies work together with the private sector to help secure 
the key systems upon which Americans rely, such as the financial 
sector, the power grid, water systems, and transportation networks. 
Protecting critical infrastructure requires taking an integrated 
approach toward physical and cybersecurity and ensuring that we can 
utilize our established partnerships with the private sector to address 
cybersecurity concerns. We do this by sharing actionable cyber threat 
information with the private sector, helping companies to identify 
vulnerabilities before a cyber incident occurs, and providing forensic 
and remediation assistance to help response and recovery after we learn 
of a cyber incident.
    In addition, DHS S&T works collaboratively across Federal agencies, 
private industry, academic networks and institutions, and global 
information technology owners and operators to research, develop, test, 
and transition deployable solutions to secure the Nation's current and 
future cyber and critical infrastructures.
    To combat cyber crime, DHS leverages the skills and resources of 
the U.S. Secret Service and ICE, who investigate cyber criminals and 
work with the Department of Justice, which prosecutes them. Cyber crime 
investigations are directly led by the USSS and involve numerous 
partners at the Federal, State, and local level as well as the private 
sector. In fiscal year 2011 alone, USSS prevented $1.6 billion in 
potential losses through cyber crime investigations. Additionally, ICE 
HSI cyber crime investigations relating to child exploitation in fiscal 
year 2011 resulted in 1,460 criminal arrests, 1,104 indictments and 928 
convictions. One significant child exploitation investigation conducted 
by ICE HSI was Operation Delego, which resulted in prosecutors bringing 
charges against 72 individuals for their alleged participation in an 
international criminal network that sought the sexual abuse of children 
and the creation and dissemination of child pornography.
    DHS recognizes that partnership and collaboration are crucial to 
ensuring that all Americans take responsibility for their actions on-
line. To that end, we are continuing to grow the Department's 
Stop.Think.Connect.<SUP>TM</SUP> Campaign, which is a year-round 
National public awareness effort designed to engage and challenge 
Americans to join the effort to practice and promote safe on-line 
practices.
    The Department of Defense is a key partner in our cybersecurity 
mission. In 2010, I signed a Memorandum of Understanding with then-
Secretary of Defense Robert Gates to formalize the interaction between 
DHS and DOD, and to protect against threats to our critical civilian 
and military computer systems and networks. Congress mirrored this 
division of responsibilities in the National Defense Authorization Act 
for fiscal year 2012. We are currently working with the Defense 
Industrial Base to exchange actionable information about malicious 
activity.
    As much as we are doing, we must do even more. To this end, 
Congress has before it several pieces of proposed legislation designed 
to address emerging cyber threats. The proposal the administration has 
supported is a bipartisan bill sponsored by Senators Lieberman, 
Collins, Rockefeller, and Feinstein, and is known as the Cyber Security 
Act of 2012.
    Under current law, Congress gave DHS significant cyber authorities, 
and we inherited a patchwork of others. But we have reached a point 
where the current threat outpaces our existing amalgam of laws, and so 
we are working with Congress to make some changes to the law. 
Specifically, the Cyber Security Act of 2012 would require the 
establishment of baseline cybersecurity practices for the Nation's 
critical core infrastructure.
    It removes barriers to information sharing between the Federal 
Government, industry, and State, local, Tribal, and territorial 
governments so that we may more quickly respond to and mitigate any 
cyber threat or intrusion. And, importantly, the legislation would help 
us attract and retain cybersecurity professionals to execute this 
complex and challenging mission by adding flexibility to the current 
personnel laws. I understand that Senator Lieberman has recently 
introduced a new version of this legislation. The administration is 
currently reviewing this version of the bill and looks forward to 
working with the Congress as the bill moves through the legislative 
process.

ENSURING ROBUST PRIVACY AND CIVIL RIGHTS AND CIVIL LIBERTIES SAFEGUARDS

    The Department builds privacy, confidentiality, and civil rights 
and civil liberties protections into its operations, policies, 
programs, and technology deployments from the outset of their 
development.
    The DHS Privacy Office--the first statutorily-required privacy 
office of any Federal agency--partners with every DHS component to 
assess policies, programs, systems, technologies, and rulemakings for 
privacy risks, and recommends privacy and confidentiality protections 
and methods for handling personally identifiable information.
    DHS's Office for Civil Rights and Civil Liberties (CRCL) plays a 
key role in the Department's mission to secure the Nation while 
preserving individual freedoms and represents the Department's 
commitment to the idea that core civil rights values--liberty, 
fairness, and equality under the law--are a vital part of America, and 
that these values provide a bulwark against those who threaten our 
safety and security.
    Since its inception, CRCL has expanded its participation in 
programs and activities throughout the Department and continued its 
efforts to promote civil rights and civil liberties. For example, CRCL 
collaborates with U.S. Immigration and Customs Enforcement on detention 
reform and other immigration-related efforts, and works with TSA to 
ensure that evolving aviation security measures are respectful of civil 
rights and civil liberties.
    CRCL's community engagement efforts include a wide variety of 
stakeholders and organizations through regular roundtables across the 
country. CRCL has also expanded its training capacity and worked 
closely with the DHS Privacy Office and the Office of Intelligence and 
Analysis to offer civil rights and civil liberties training for fusion 
centers, as well as training to a number of the Department's Federal, 
State, and local partners.

                               CONCLUSION

    While America is stronger and more resilient as a result of these 
efforts, threats from terrorism persist and continue to evolve. Today's 
threats do not come from any one individual or group. They may 
originate in distant lands or local neighborhoods. They may be as 
simple as a homemade bomb or as sophisticated as a biological threat or 
coordinated cyber attack.
    As threats to our Nation evolve, DHS must also evolve. Thus, we 
continue to remain vigilant, protecting our communities from terrorist 
threats, while promoting the movement of goods and people and 
maintaining our commitment to civil rights and civil liberties.
    I thank the committee for your continued partnership and guidance 
as together we work to keep our Nation safe. I look forward to your 
questions.

    Chairman King. Thank you, Secretary Napolitano. Thanks for 
working through the technical problem with us.
    I will ask the staff--okay. It is--okay.
    Our next witness is Matthew Olsen, who served as the 
director of the National Counterterrorism Center, the NCTC, 
since August of last year. Prior to joining NCTC, Mr. Olsen 
served as the general counsel for the National Security Agency, 
where he served as the chief legal officer for NSA. He also has 
served in Government with the FBI and the Department of 
Justice, and it is a pleasure to have him testify here before 
this committee for the first time.
    Director Olsen.

       STATEMENT OF MATTHEW G. OLSEN, DIRECTOR, NATIONAL 
                    COUNTERTERRORISM CENTER

    Mr. Olsen. Chairman King, Ranking Member Thompson, Members 
of the committee, thank you very much.
    I appreciate this opportunity to be here with the committee 
today to discuss the terrorist threat facing our country and 
our efforts to combat it. I am particularly pleased to be here 
with Secretary Napolitano. The Department of Homeland Security 
and NCTC are strong partners in the fight against terrorism.
    As you mentioned, Chairman, I have now served as the 
director of NCTC for almost a year. During that year, we have 
continued to make steady progress in the fight against 
terrorism. At the same time, acts of terror and acts of 
violence still threaten us here at home and abroad.
    As you know, just last week in Bulgaria, seven people were 
killed in a brazen terrorist attack on a bus filled with 
Israeli tourists. While there is no suggestion that the 
shooting last week in Colorado was connected to international 
terrorism, the attack is a tragic reminder that a lone, 
calculating shooter can inflict devastating damage.
    Over the past year, with the guidance and support of 
Congress and of this committee, we have placed relentless 
pressure on the core of al-Qaeda. We have denied that group 
safe haven and the ability to plan and to train. Following the 
death of Osama bin Laden last year, several of his top 
lieutenants have been eliminated.
    The leaders that remain lack experience, and they are under 
siege. They have a very limited ability to recruit and to 
communicate with other operatives. In short, the intelligence 
picture shows that al-Qaeda core is a shadow of its former 
self. The overall threat from al-Qaeda in Pakistan is degraded.
    While these gains are significant and enduring, al-Qaeda 
and its affiliates and its adherents around the world, as well 
as other terrorist organizations, continue to pose a 
significant threat to our country. As al-Qaeda's core 
leadership struggles to remain relevant, it has turned to other 
groups to carry out attacks and to advance its ideology.
    These groups are from an array of countries. They include 
Yemen, Somalia, Iraq, and Iran. The men and women at the 
National Counterterrorism Center are confronting this threat 
and working with resolve to prevent a terrorist attack.
    In the balance of my remarks, I would like to further 
describe briefly the threat landscape and then discuss the role 
of NCTC and some of the ways that we are responding to this 
threat.
    First, beginning with al-Qaeda in Pakistan, as I mentioned 
over the past year, sustained pressure has degraded Pakistan-
based al-Qaeda's leadership and its operational capabilities, 
leaving the core of al-Qaeda at its weakest point in over a 
decade.
    The death of bin Laden, the subsequent losses of other top 
lieutenants and senior planners, have eroded the group's bench 
of potential leaders and have shaken the group's sense of 
security in Pakistan's tribal areas. Al-Qaeda is placing a 
greater emphasis on smaller, simpler plots that are easier to 
carry out and more difficult to detect.
    We remain concerned that individuals like the alleged Fort 
Hood shooter, Nidal Hasan, and the Toulouse shooter, Mohamed 
Merah, may inspire other like-minded individuals to conduct 
attacks in the name of al-Qaeda.
    Beyond the core of al-Qaeda, we face a diverse set of 
affiliated groups, enabled in part by political instability and 
unrest in areas such as Yemen and Somalia. To varying degrees, 
these groups coordinate their activities and follow the 
direction of al-Qaeda leadership in Pakistan.
    The single most capable affiliate today is al-Qaeda in the 
Arabian Peninsula, AQAP, based in Yemen. This group remains the 
affiliate most likely to attempt and to carry out a 
transnational attack, including against the United States. The 
death of Anwar al-Awlaki last September temporarily slowed 
AQAP's external plotting efforts, but the group maintains the 
intent and the capability to conduct U.S. attacks with little 
or no warning. AQAP demonstrated this intent last May, when it 
plotted to bring down an airliner bound for the United States.
    We monitor other key al-Qaeda affiliates and related groups 
in the Middle East, in South Asia, and in Africa. These groups 
remain primarily focused on local and regional plotting. Al-
Qaeda in the Lands of the Islamic Maghreb, or AQIM, and Boko 
Haram are active in countries like Mali and Nigeria, and are 
focused on targeting Western and U.S. interests in that region.
    Al-Shabaab, which formally merged with al-Qaeda just this 
past February, is principally concerned with combating Kenyan 
and Ethiopian incursions into Somalia, which are eroding the 
group's safe haven in Somalia. It also remains intent on 
conducting attacks against regional and Western targets in East 
Africa, having carried out a number of recent low-level attacks 
in Kenya.
    Pakistani and Afghan militant groups, including the 
Pakistani Taliban, or TTP, the Haqqani network, Lashkar-e-
Taiba, or L.T., continue to pose a direct threat to U.S. 
interests and our allies in South Asia. We continue to watch 
for signs that any of these groups or networks or individuals 
is pursuing operations outside of that region as a strategy to 
achieve their objectives.
    Al-Qaeda in Iraq continues to carry out high-profile, 
coordinated attacks against government and civilian targets in 
Iraq. Just this past weekend, more than 100 people were killed 
in terrorist attacks across Iraq. In a video a couple days ago, 
AQI, al-Qaeda in Iraq's leader, forecast a new offensive 
against individuals in Iraq and threatened to carry out attacks 
in the United States.
    In the past 2 years, American and Canadian law enforcement 
authorities have arrested North American-based AQI operatives, 
highlighting the potential threat posed by U.S.-based AQI 
associates.
    I would like to take a moment to discuss the terrorist 
threat from Lebanese Hezbollah and Iran. Lebanese Hezbollah has 
intensified its terrorist activities around the world. Since 
2008, it has engaged in an increasingly aggressive terrorist 
campaign, seeking to carry out attacks in places like Egypt, 
Israel, and Thailand. Israel has blamed Hezbollah for the 
attack last week on an Israeli tourist bus in Bulgaria, taking 
the lives of seven people.
    Iran remains the foremost state sponsor of terrorism. Since 
9/11, the regime has expanded its involvement with terrorists 
and insurgent groups, primarily in Iraq and in Afghanistan, 
that target U.S. and Israeli interests. Iran has been linked to 
plots elsewhere, as well. As the committee is aware, the 
disrupted Iranian plot to assassinate the Saudi ambassador to 
the United States last fall demonstrated that Iran is willing 
to conduct terrorist attacks inside the United States.
    Then finally, Mr. Chairman, with regard to HVEs, the 
homegrown violent extremists who are inspired by al-Qaeda's 
ideology continue to pose a threat to the United States, as 
Secretary Napolitano discussed. AQAP members Anwar al-Awlaki 
and Samir Khan created propaganda specifically for an American 
audience. Even after their deaths, that propaganda remains 
accessible on-line.
    Lone actors or small insular groups posed the most serious 
HVE threat to the homeland. They are difficult to detect. They 
may carry out their attacks without travel and without 
consulting others.
    Now, briefly, if I could turn to the role that the National 
Counterterrorism Center is playing. Our analysts review all 
terrorism intelligence, collected both inside and outside of 
the United States. We have access to the full catalogue of 
reporting, both foreign and domestic, on terrorism issues, and 
our workforce includes representatives from across the 
government, including from the Department of Homeland Security. 
They reflect a wide range of viewpoints and perspectives.
    Today, we are facing a dynamic and complex threat 
environment, and we are seeking to adapt to that threat. I 
would like to focus on a couple of key initiatives that we have 
adopted to, in particular, focus on the threat to the U.S. 
homeland.
    In 2010, NCTC created the Pursuit Group. This group is 
designed to develop tactical leads and to pursue terrorist 
threats. The Pursuit Group analysts at NCTC help ensure that 
terrorism cases are examined thoroughly, focusing on the 
details and connections that could yield relevant information. 
These analysts provide leads to operational organizations, like 
DHS and the FBI and the CIA.
    Second, we continue to implement important reforms in the 
watch listing process. We have improved our processing and 
information-sharing in support of that mission. As the threat 
continues to evolve, our experts on watch listing work closely 
with the rest of the CT community to expedite the sharing of 
information and to build more complete terrorist identities.
    Additionally, we have implemented several improvements to 
our information technology. Our counterterrorism data layer is 
being developed to process relevant information and to allow 
analysts to search and correlate terrorism information in a 
single environment.
    Later this week, Mr. Chairman, the London Olympics begin. 
For the past 2 years, NCTC, in coordination with our 
intelligence community and British partners, has been leading 
the U.S. effort to make sure that we are collecting and 
analyzing and sharing all potential threat information relating 
to the Olympics and that we are in a position to respond 
quickly to prevent any possible plotting tied to the games.
    Finally, if I may say, that all of these activities must be 
consistent with the protection of privacy and civil liberties 
of the American people. As NCTC's director, I am committed to 
making sure that we retain the trust and the confidence of our 
citizens.
    I would like to close these opening remarks by identifying 
our single most important resource, and that is our people. As 
we bolster our efforts to meet the challenges posed by the 
threat I have described, our progress is dependent on 
maintaining and developing a diverse workforce, much of which 
comes from other agencies like the Department of Homeland 
Security. I am proud to lead such a committed group of 
professionals.
    Mr. Chairman and Ranking Member Thompson and Members of the 
committee, thank you for this opportunity. Thank you for your 
continued support of our mission and the men and women of the 
National Counterterrorism Center. I am happy to answer your 
questions.
    [The statement of Mr. Olsen follows:]

                 Prepared Statement of Matthew G. Olsen
                             July 25, 2012

    Thank you Chairman King, Ranking Member Thompson, Members of the 
committee. I appreciate this opportunity to be here today to discuss 
the terrorist threat against the United States and our efforts to 
counter it.
    I also want to express my appreciation to the committee for your 
steadfast leadership and your support of the National Counterterrorism 
Center (NCTC). I am particularly pleased to be here today with 
Secretary Napolitano. The Department of Homeland Security and NCTC are 
strong and vital partners in the fight against terrorism.
    I have now served as Director of NCTC for close to 1 year. During 
this year, with the support and guidance of Congress, we have made 
significant progress in the fight against terrorism. Our Nation has 
placed relentless pressure on al-Qaeda's leadership. We have denied the 
group safe havens, resources, and the ability to plan and train. 
Following the death last year of Usama bin Ladin, several of his top 
lieutenants have been eliminated. The leaders that remain lack 
experience and are under siege. They have limited ability to recruit 
and communicate with other operatives. In short, the intelligence 
picture shows that al-Qaeda core is a shadow of its former self, and 
the overall threat from al-Qaeda in Pakistan is diminished.
    Further, the Government has disrupted terrorist attacks in the 
United States and abroad. Our intelligence officers have worked to 
identify and stop terrorist plots before they are executed. And we have 
investigated and prosecuting individuals who have sought to carry out 
and supported terrorist operations.
    In addition, we have continued to build an enduring 
counterterrorism framework--including institutions like NCTC and DHS--
dedicated to analyzing and sharing terrorism information across the 
Government and to the mission of detecting and preventing terrorist 
attacks against our citizens and interests around the world.
    The credit for these successes belongs to the men and women in our 
military, law enforcement, and intelligence communities.
    While these gains are real and enduring, al-Qaeda, its affiliates 
and adherents around the world--as well as other terrorist 
organizations--continue to pose a significant threat to our country. 
This threat is resilient, adaptive, and persistent.
    More than a decade after the September 11 attacks, we remain at war 
with al-Qaeda, and we face an evolving threat from its affiliates and 
adherents. America's campaign against terrorism did not end with the 
mission at bin Ladin's compound in Abbottabad, Pakistan. Indeed, the 
threats we face have become more diverse. As al-Qaeda's core leadership 
struggles to remain relevant, the group has turned to its affiliates 
and adherents to carry out attacks and to advance its ideology. These 
groups are from an array of countries, including Yemen, Somalia, 
Nigeria, Iraq, and Iran. To varying degrees, these groups coordinate 
their activities and follow the direction of al-Qaeda leaders in 
Pakistan. Many of the extremist groups themselves are multi-
dimensional, blurring the lines between terrorist group, insurgency, 
and criminal gang.
    Confronting this threat and working with resolve to prevent another 
terrorist attack is NCTC's overriding mission. We continue to monitor 
threat information, develop leads, work closely with domestic and 
international partners, and develop strategic plans to combat our 
terrorist adversaries. Today I can report that, while we have taken 
important steps against al-Qaeda and other terrorist groups, much work 
remains. And the dedicated professionals at NCTC, along with our 
partners across the Government and overseas, remain steadfast, and 
committed to sustaining and enhancing the effort to protect the Nation.
    In my statement, I will begin by examining the terrorist threats to 
the homeland and to U.S. interests. I will then describe NCTC's role in 
addressing these threats and some of the key reforms and initiatives we 
have adopted.

                   THE TERRORIST THREAT IN TRANSITION

Pakistan-based al-Qaeda Core
    Over the past year, sustained CT pressure has systematically 
degraded Pakistan-based al-Qaeda's leadership and operational 
capabilities. These efforts have left the group at its weakest point in 
the last 10 years. Although core al-Qaeda remains committed to its 
overarching goals, it is clearly a group in decline.
    The death of Usama bin Ladin on May 2, 2011 removed al-Qaeda's 
founder and leader and its staunchest proponent of spectacular attacks 
against the U.S. homeland. The subsequent losses of several of bin 
Ladin's top lieutenants and senior operational planners--including 
general manager Atiyah Abd al-Rahman last August and his replacement 
Abu Yahya al-Libi this June--have eroded the group's bench of potential 
leaders and have shaken al-Qaeda's sense of security in Pakistan's 
tribal areas. Remaining leaders have been driven underground to varying 
degrees and the group has shifted a substantial portion of its 
attention from terrorist plotting to security and survival.
    Operationally, core al-Qaeda has not conducted a successful 
operation in the West since the 2005 London bombings. The group, 
however, remains committed to striking Western targets, including the 
United States. Its degraded capabilities almost certainly will compel 
operational planners to place a greater emphasis on smaller, simpler 
plots that are easier to carry out.
    Since bin Ladin's death, multiple al-Qaeda leaders have publicly 
endorsed the concept of individual acts of violence. We remain 
concerned that individuals like alleged Fort Hood shooter Nidal Hassan 
and Toulouse shooter Mohammed Merah may inspire other like-minded 
individuals to conduct attacks in al-Qaeda's name.
    Despite its shrinking leadership cadre, al-Qaeda continues to issue 
propaganda and media statements specifically focused on the Arab 
unrest. Persistent conflict in places such as Yemen, Libya, and Syria, 
and the impending withdrawal of U.S. forces from Afghanistan, may 
provide core al-Qaeda a propaganda opportunity to claim victories over 
the United States and reinvigorate its image as the leader of the 
global movement. Senior leaders almost certainly recognize that the 
Coalition drawdown in Afghanistan presents an opportunity for the group 
to reconstitute in parts of the country and in propaganda declare a 
major victory.

Al-Qaeda's Affiliates: A Persistent and Diversifying Threat to the U.S. 
        and Overseas Interests
    AQAP.--Al-Qaeda in the Arabian Peninsula (AQAP) remains the 
affiliate most likely to attempt and carry out transnational attacks, 
including against the United States. Despite Anwar al-Aulaqi's death, 
the group maintains the intent and capability to conduct anti-U.S. 
attacks with little to no warning.
    In its three attempted attacks against the U.S. homeland--the 
airliner plot of December 2009, an attempted attack against U.S.-bound 
cargo planes in October 2010, and an airliner plot this May--AQAP has 
shown an awareness of Western security procedures and demonstrated its 
efforts to adapt. The death of al-Aulaqi probably temporarily slowed 
AQAP's external plotting efforts but did not deter the group from 
attempting another aviation attack in May. We are also concerned by 
AQAP's efforts to exploit the security vacuum associated with the Arab 
Spring, although the group has suffered recent setbacks in these 
efforts.
    AQAP also remains intent on publishing the English-language Inspire 
magazine--previously spearheaded by al-Aulaqi and now-deceased Samir 
Khan--in order to mobilize Western-based individuals for violent 
action. While the deaths of al-Aulaqi and Khan have affected the 
quality of the magazine, the publication endures and continues to reach 
a global audience of violent extremists.
    AQIM and Boko Haram.--Al-Qaeda in the Lands of the Islamic Maghreb 
(AQIM) and Boko Haram remain focused on local and regional attack 
plotting, including targeting Western interests in Nigeria. The groups 
have shown minimal interest in targeting the U.S. homeland.
    AQIM is actively working with local violent extremists in northern 
Mali to establish a safe haven from which to advance future operational 
activities. While Boko Haram is primarily focused on plotting against 
targets in Nigeria, in April a spokesman for the group publicly 
threatened to find a way to attack a U.S.-based news outlet if its 
coverage of Islam did not change.
    Al-Qaeda in Iraq.--Since the withdrawal of U.S. forces from Iraq 
late last year, al-Qaeda in Iraq (AQI) has conducted numerous high-
profile attacks there and this year has carried out coordinated 
country-wide attacks against government, security, and Shia civilian 
targets. During the past 2 years AQI has continued to release media 
statements supporting global extremism.
    AQI's propaganda statements have cited its support for uprisings 
against secular governments in the Middle East and North Africa and, in 
a June statement, the group expressed solidarity with the Syrian Sunni 
population. In January 2011 it published an explosives training video 
that called for lone-wolf attacks in the West and against so-called 
apostate regimes in the Middle East.
    During the past 2 years, American and Canadian authorities have 
arrested several North America-based AQI associates, highlighting the 
potential threat posed by to the United States. The FBI in May 2011 
arrested Kentucky-based Iraqi nationals Waad Alwan and Shareef Hamadi 
for attempting to send weapons and explosives from Kentucky to Iraq and 
conspiring to commit terrorism while in Iraq. Alwan pled guilty to 
supporting terrorism in December. In January 2010, Canadian authorities 
arrested dual Iraqi-Canadian citizen Faruq Isa who is accused of 
vetting individuals on the internet for suicide operations in Iraq.
    Al-Shabaab.--We continue to monitor al-Shabaab and its foreign 
fighter cadre as a potential threat to the United States, although the 
group is mainly focused on combating the on-going Kenyan and Ethiopian 
incursions into Somalia which have eroded its territorial safe haven 
since late last year.
    The group, which formally merged with al-Qaeda in February, also 
remains intent on conducting attacks against regional and Western 
targets in East Africa, especially in countries supporting Transitional 
Federal Government (TFG) and allied forces in Somalia. Probable al-
Shabaab sympathizers recently conducted several low-level attacks in 
Kenya. Al-Shabaab leaders publicly have called for transnational 
attacks, including threatening to avenge the January death of British 
national and al-Shabaab senior foreign fighter Bilal Berjawi.

                        OTHER TERRORIST THREATS

    Lebanese Hizballah.--Lebanese Hizballah has intensified its 
terrorist activities around the world and we remain concerned that the 
group's activities endanger U.S. interests and citizens, as well as our 
allies.
    Since May 2008, Hizballah plots against Israeli targets in 
Azerbaijan, Egypt, and Israel have been disrupted, and additional 
operational activity in Turkey has reportedly been uncovered. The 
Government of Israel has cited possible Hizballah involvement in the 
July 18 terrorist attack in Burgas, Bulgaria. Hizballah has engaged in 
an increasingly aggressive terrorist campaign since the end of its 2006 
war with Israel and probably accelerated by the death of its operations 
chief Imad Mughniyah in Syria in 2008.
    In Thailand this past January, a dual Lebanese-Swedish citizen and 
suspected Hizballah facilitator was arrested by the Royal Thai police 
at the Bangkok airport as he prepared to leave the country. Following 
his arrest, the individual gave the location of two buildings where 
Thai authorities found a large supply of explosive precursors. The 
disrupted attack may have targeted Israelis in an area popular with 
tourists from many countries, including the United States.
    Iranian Threat.--Iran remains the foremost state sponsor of 
terrorism. Since 9/11 the regime has expanded its involvement with 
terrorist and insurgent groups--primarily in Iraq and Afghanistan--that 
target U.S. and Israeli interests.
    Iran's Islamic Revolutionary Guard Corps-Qods Force and Ministry of 
Intelligence and Security have been involved in the planning and 
execution of terrorist acts and the provision of lethal aid--such as 
weapons, money, and training--to these groups, particularly Lebanese 
Hizballah. Iran's relationship with Hizballah since 9/11 has evolved 
from a traditional state sponsor-proxy relationship to a strategic 
partnership that provides a unified front against Israel and the United 
States.
    The disrupted Iranian plot to assassinate the Saudi Ambassador to 
the United States last fall demonstrates that Iran is more willing to 
conduct terrorist operations inside the United States than was 
previously assessed. As part of the plot, the Islamic Revolutionary 
Guard Corps-Qods Force attempted to use a dual Iranian-U.S. national to 
recruit Mexican criminal organizations to conduct the assassination, 
raising our concerns that Iran may seek to leverage other Mexican 
contacts for activities in the United States.
    South Asia-Based Militants.--Pakistani and Afghan militant groups--
including Tehrik-e Taliban Pakistan (TTP), the Haqqani Network, and 
Lashkar-e Tayyiba (LT)--continue to pose a direct threat to U.S. 
interests and our allies in the region, where these groups probably 
will remain primarily focused. We continue to watch for signs that any 
of these groups, networks, or individuals are actively pursuing or have 
decided to incorporate operations outside of South Asia as a strategy 
to achieve their objectives.
    TTP's recent claim of responsibility for the beheading of 17 
Pakistani soldiers and its threat to attack Coalition supply lines 
through Pakistan underscore the threat the group poses in the region. 
TTP leaders have repeatedly threatened attacks against the United 
States, including after the death of bin Ladin in May 2011. TTP's claim 
of responsibility for the failed Times Square bombing in May 2010 
demonstrates its willingness to act on this intent.
    The Haqqani Network has orchestrated and carried out multiple 
attacks against NATO and Afghan Government targets in Afghanistan, 
notably the 18-hour multi-pronged assault against military, security, 
and government facilities in Kabul and three other cities in April.
    LT leaders have maintained a regional focus. LT leaders almost 
certainly recognize that an attack in the United States would bring 
intense international backlash upon Pakistan and endanger the group's 
safe haven there. LT provides training to a wide range of Pakistani and 
Western militants, some of whom could plot terrorist attacks in the 
West without direction from LT leaders. LT members frustrated with the 
group's focus on South Asia likewise could leave LT to join a more 
globally focused group like al-Qaeda.
    LT has demonstrated a willingness to attack Western interests in 
South Asia in pursuit of its regional objectives, as it did through a 
high-profile operation targeting hotels frequented by Westerners during 
the Mumbai attacks in 2008.

Homegrown Violent Extremists
    Homegrown violent extremists (HVEs), including those who are 
inspired by al-Qaeda's ideology, continue to pose a threat to the 
United States. HVEs inspired by al-Qaeda are almost certainly entering 
a period of transition as U.S.-based violent extremists adjust to the 
deaths and disruption of influential English-language figures who 
helped al-Qaeda's ideas resonate with some in the United States.
    Now-deceased AQAP members Anwar al-Aulaqi and Samir Khan were 
probably best positioned to create propaganda specifically for an 
American audience and mobilize HVEs. Their propaganda remains easily 
accessible on-line and will likely continue to inspire HVE violence.
    The growth of on-line English-language extremist content during the 
past 3 years has fostered a shared identity--but not necessarily 
operational collaboration--among HVEs. Plots disrupted during the past 
year were unrelated operationally, but may demonstrate a common cause 
rallying independent violent extremists to plot against the United 
States.
    Lone actors or insular groups pose the most serious HVE threat to 
the homeland. HVEs could view lone-offender attacks as a model for 
future plots in the United States and overseas. The perceived success 
of previous lone-offender attacks combined with al-Qaeda and AQAP's 
propaganda promoting individual acts of terrorism is raising the 
profile of this tactic.
    The arrests last year of Texas-based Saudi Khalid Aldawsari and 
U.S. Army Private First Class Naser Abdo, as well as the successful 
attack in France, underscore the threat from lone offenders who are 
able to adapt their plans quickly by rapidly changing time lines, 
methods, and targets to meet existing circumstances--all without 
consulting others.

                            THE ROLE OF NCTC

NCTC's Core Missions
    The overarching mission of the NCTC is to lead the effort to combat 
international terrorism. In 2004 the 9/11 Commission observed that, 
``the United States confronts a number of less visible challenges that 
surpass the boundaries of traditional nation-states and call for quick, 
imaginative, and agile responses.'' That observation--as true today as 
it was in 2001--led the Commission to recommend the creation of a 
National Counterterrorism Center: ``Breaking the mold of national 
government organization, this NCTC should be a center for joint 
operational planning and joint intelligence.''
    In 2004 Congress established NCTC. The Intelligence Reform and 
Terrorism Prevention Act set forth NCTC's key responsibilities as 
detailed below. These responsibilities are captured in NCTC's mission 
statement: ``Lead our Nation's effort to combat terrorism at home and 
abroad by analyzing the threat, sharing that information with our 
partners, and integrating all instruments of National power to ensure 
unity of effort.''
    Intelligence Integration and Analysis.--NCTC serves as the primary 
organization in the U.S. Government for analyzing and integrating all 
intelligence possessed or acquired by the Government pertaining to 
international terrorism and counterterrorism. NCTC has a unique 
responsibility to examine all international terrorism issues, spanning 
geographic boundaries, and allowing for intelligence to be analyzed 
regardless of whether it is collected inside or outside the United 
States.
    NCTC has access to the catalogue of reporting--both foreign and 
domestic--on terrorism issues. NCTC's strategic analyses are vetted and 
coordinated throughout the intelligence community, which adds multiple 
analytic perspectives. NCTC produces coordinated assessments on such 
critical terrorism issues as terrorist safe havens, state sponsors of 
terrorism, counterterrorism cooperation worldwide, and regional 
terrorism issues and groups. NCTC also regularly prepares intelligence 
assessments that are integrated into NCTC's Directorate of Strategic 
Operational Planning to inform policymakers on the progress of U.S. 
counterterrorism efforts.
    NCTC's analytic cadre includes detailees and assignees from across 
the intelligence community and Government, ensuring NCTC products 
reflect the diversity of the entire intelligence community and not the 
analytic view of one group or agency.
    Watchlisting.--NCTC hosts and maintains the central and shared 
knowledge bank on known and suspected terrorists and international 
terror groups, as well as their goals, strategies, capabilities, and 
networks of contacts and support. NCTC has developed and maintains the 
Terrorist Identities Datamart Environment (TIDE) on known and suspected 
terrorists and terrorist groups. In this role, NCTC advances the most 
complete and accurate information picture to our partners to support 
terrorism analysts. We also support screening activities that 
ultimately help prevent terrorist plans and operations against U.S. 
interests.
    Situational Awareness and Support to Counterterrorism Partners.--
NCTC provides direct support to counterterrorism partners at both the 
Federal and State and local levels.
    In particular, our unique, centralized access to intelligence 
information on terrorist activity enables our analysts to integrate 
information from foreign and domestic sources and to pass that 
information in a timely manner to domestic agencies. Below are several 
examples:
  <bullet> NCTC provides around-the-clock support to domestic 
        counterterrorism activities through the NCTC Operations Center, 
        which is collocated with FBI Counterterrorism Division Watch. 
        NCTC produces and disseminates daily situational awareness 
        products and chairs thrice-daily secure video teleconferences 
        to facilitate timely information exchanges between all 
        counterterrorism partners.
  <bullet> The Interagency Threat Assessment and Coordination Group 
        (ITACG), located at NCTC and led by DHS and FBI, brings 
        together Federal and non-Federal intelligence, law enforcement, 
        and first responder detailees, who are dedicated to bridging 
        the intelligence information gap between traditional 
        intelligence agencies and State, local, Tribal, and private-
        sector partners. ITACG ensures that shared information is both 
        timely, relevant, and transformed into situational awareness 
        products for public safety officials--including police officers 
        and firefighters--enhancing their capabilities to quickly 
        assess and effectively respond to suspected terrorist 
        activities.
  <bullet> NCTC expedites the dissemination of information at 
        unclassified levels to support DHS and FBI efforts to inform 
        law enforcement and local officials of potential dangers to 
        include near-real-time export of watch-list data to the FBI's 
        Terrorist Screening Center.
  <bullet> NCTC provides threat information to DHS regarding 
        individuals who have been identified as overstaying their visas 
        in the United States, and we work regularly with DHS and FBI to 
        provide briefs to Federal, State, and local officials at Fusion 
        Centers regarding counterterrorism matters.
  <bullet> NCTC ensures the timely dissemination of finished 
        intelligence and situational reporting via the NCTC Online 
        CURRENT--the premier classified website and repository for 
        counterterrorism reporting and analysis. The site is available 
        on JWICS with more than 10,000 monthly users from 45 different 
        organizations and on DHS's Homeland Secure Data Network to 
        certain State and local officials in the Fusion Centers and at 
        FBI-led Joint Terrorism Task Forces (JTTFs).
    Strategic Operational Planning.--NCTC is charged with conducting 
strategic operational planning for counterterrorism activities, 
integrating all instruments of National power, including diplomatic, 
financial, military, intelligence, homeland security, and law 
enforcement activities. In this role, NCTC looks beyond individual 
department and agency missions toward the development of a single, 
unified counterterrorism effort across the Federal Government. NCTC 
develops interagency counterterrorism plans to help translate high-
level strategies and policy direction into coordinated department and 
agency activities to advance the President's objectives.
    These plans address a variety of counterterrorism goals, including 
regional issues, weapons of mass destruction-terrorism, and countering 
violent extremism. The strategic operational planning process 
integrates all phases of the planning cycle--developing a plan, 
monitoring its implementation, and assessing its effectiveness and 
resource allocations--and creates communities of interest to coordinate 
and integrate implementation.
    For example, NCTC is joining with the Department of Homeland 
Security and the Federal Bureau of Investigation to conduct workshops 
across the United States that enable cities to better develop and 
refine their response plans to evolving terrorist threats. These 
``Joint Counterterrorism Awareness Workshops'' increase the ability of 
Federal, State, local, and private-sector partners to respond to a 
threat by discovering gaps in capabilities, planning, training, and 
resources; and identify existing programs or resources that can close 
those gaps. The workshops also provide a venue to share best practices 
at the State and local levels and serve as a basis for identifying 
issues and gaps that may subsequently be addressed Nation-wide.

                          KEY NCTC INITIATIVES

    Facing a dynamic and complex terrorist environment, NCTC is 
changing and adapting to build on the past several years of experience 
to meet these threats and the challenges they present. With lessons 
learned from AQAP's December 2009 failed airline bombing and other 
plots, NCTC has implemented several key initiatives to advance our 
ability to identify and prevent terrorist attacks.
    Pursuit Group.--NCTC created the Pursuit Group to develop tactical 
leads and pursue terrorism threats. The formation of the Pursuit Group 
has provided the counterterrorism community with a group of co-located 
analysts that have unparalleled data access and expertise, enabling the 
Pursuit Group to focus exclusively on information that could lead to 
the discovery of threats aimed against the homeland or U.S. interests 
abroad.
    With teams comprised of personnel from across the intelligence 
community, with access to the broadest range of terrorism information 
available, Pursuit Group analysts are able to identify actionable leads 
that could otherwise remain disconnected or unknown. Pursuit Group 
analysts can ensure that terrorism cases are examined as thoroughly as 
possible by pursuing non-obvious and unresolved connections, 
identifying unknown, known, or suspected terrorists, and focusing on 
seemingly unimportant details that could yield relevant information. 
The Pursuit Group provides investigative leads, collection 
requirements, and potential source candidates to operational elements 
like the FBI, CIA, or DHS for intelligence purposes or action.
    Watch-listing and TIDE Enhancements.--NCTC has adopted important 
reforms in the watch-listing process and has improved NCTC's receipt, 
processing, and quality of information sharing in support of the 
Center's watch-listing and screening responsibilities. One of the key 
gaps we identified in the watch-listing process was the need to enhance 
existing TIDE records with additional information. NCTC is now taking a 
more aggressive and innovative approach to seek methodologies and data 
repositories to ingest biographic, biometric, and derogatory 
information. As the threat continues to evolve, our watch-listing 
experts are proactively working with NCTC's Pursuit Group and the 
counterterrorism community to expedite the sharing of information to 
build more complete terrorist identities. We have also enhanced our 
ability to store, compare, match, and export biometrics such as 
fingerprint, facial images, and iris scans.
    The community watch-listing guidance was revised in 2010 to provide 
flexibility to push forward information that previously had not met the 
requirements. Nevertheless, nominations of U.S. persons to a watch list 
must still be supported by ``reasonable suspicion'' that the person is 
a ``known or suspected terrorist,'' and a person cannot be watch listed 
based solely upon a First Amendment-protected activity, or based solely 
upon race, ethnicity, or religious affiliation.
    Information Sharing.--NCTC is promoting information integration and 
sharing across the counterterrorism community with the development of 
the Counterterrorism Data Layer (CTDL). The CTDL provides users a 
single access point to millions of pieces of Government 
counterterrorism-related data gathered from multiple data sets. Prior 
to December 2009 analysts were required to manually search multiple 
networks and integrate information. Now, NCTC's CTDL is being developed 
to ingest relevant data and to allow NCTC analysts to identify, search, 
exploit, and correlate terrorism information in a single environment.
    Thanks to the support of our key counterterrorism partners, 
including DHS and the FBI, NCTC is acquiring priority data sets for 
ingestion. For the first time, NCTC analysts can search across key 
homeland security and intelligence information and get back a single 
list of relevant results. Moreover, sophisticated analytical tools are 
in place to permit analysts to conduct analytic searches, conduct link 
analysis and data visualization, and triage information.
    Finally, we are committed to handling data in a manner that retains 
the trust of the American people and remains true to the oaths we have 
taken to support and defend the Constitution. Specifically, we protect 
information relating to United States persons through procedures 
approved by the Attorney General under Executive Order 12333, and we 
adhere to the requirements of the Privacy Act. Compliance with these 
protections is reviewed at several levels--including NCTC's Civil 
Liberties and Privacy Officer, ODNI's Office of General Counsel, ODNI's 
Civil Liberties and Privacy Office, and the Intelligence Community 
Office of Inspector General.
    NCTC Domestic Representatives.--NCTC has developed a domestic 
representative cadre, deploying officers to serve as counterterrorism 
liaison representatives in seven cities around the country. These 
officers are embedded with FBI joint terrorism task forces and with 
fusion centers where they bring the National counterterrorism 
intelligence picture to regional Federal, State, and local officials. 
The NCTC representatives engage with counterterrorism partners, at all 
levels, and provide analytic insights drawn from the full catalogue of 
counterterrorism intelligence collection. Based on the positive 
feedback we have received about this program, we are sending 
representatives to two additional cities and will be aligned with the 
DNI domestic representative program to provide Nation-wide coverage.
    Countering Violent Extremism.--As our understanding of the threat 
evolves, so too must our approach to defeating it. Over the past 10 
years, the Government has expanded its counterterrorism efforts to 
include a focus on preventing al-Qaeda and its adherents from 
recruiting and radicalizing to violence the next generation of 
terrorists. We recognize that al-Qaeda's recruitment is not constrained 
by geographical boundaries, which is why we are working closely with 
U.S. Government partners both overseas and at home. We also recognize 
that communities are best placed to identify and prevent recruitment 
efforts.
    Therefore, working side by side with FBI, DHS, DOJ, State, and DoD, 
we are building whole-of-Government approaches focusing on expanding 
Government and community understanding of all forms of violent 
extremism, including al-Qaeda-inspired radicalization to violence. 
Domestically, in partnership with DHS and FBI, NCTC developed a 
``Community Awareness Briefing'' to inform members of American 
communities about the threat of terrorist recruitment and to facilitate 
discussions with those communities about their role in to catalyzing 
efforts to counter the al-Qaeda narrative. NCTC is working with 
Federal, State, and local partners to broadly disseminate the briefing 
to communities around the country. Internationally, NCTC works with our 
colleagues at the State Department to support CVE work in embassies 
across Europe, North Africa, and South Asia.
    NCTC continually examines al-Qaeda-inspired violent radicalization 
in order to understand and track this dynamic threat. NCTC's 
Directorate of Intelligence published the Radicalization Dynamics 
Primer, which includes a new framework that conceptualizes the process 
of radicalization, mobilization, and engagement in violent action for 
al-Qaeda-inspired individuals. The Primer was coordinated throughout 
the intelligence community, and is intended as a reference guide for 
U.S. policymakers, law enforcement officers, and analysts--including 
civilian and military personnel--who assess or take action on 
radicalization to violence trends in their areas of responsibility. 
NCTC, in collaboration with FBI and DHS, also developed a training 
curriculum to enable law enforcement and Government agencies to more 
effectively identify, counter, and report on violent extremists in the 
homeland. Several hundred Federal, State, local government, and law 
enforcement representatives across the country have received the 
training and given it positive reviews.
    Support to the London Olympics.--NCTC, in coordination with the 
U.S. intelligence community, is leading the effort to coordinate U.S. 
intelligence integration as we approach 2012 Olympic Games in London. 
The Olympics present a potential target for terrorists and other 
disruptive groups. We are working closely with our British counterparts 
to ensure that we are collecting, analyzing, and sharing all potential 
threat information relating to the Olympics and that we are in a 
position to respond quickly to prevent any possible plotting tied to 
the Games. In particular, NCTC, with our intelligence community 
partners, established a Threat Integration Center, designed to operate 
around the clock providing real-time situational awareness and threat 
analysis.
    Chairman King, Ranking Member Thompson, and Members of the 
committee, thank you for the opportunity to testify before you this 
morning.
    The talented men and women who work at NCTC perform a unique and 
vital service to the Nation, and we benefit from the integration of 
analysts and planners from across the intelligence community, the U.S. 
military, and other Federal, State, and local partners. As NCTC 
bolsters its efforts to meet the challenges ahead, our progress is 
dependent on our diverse and dedicated workforce. Maintaining this 
diversity through continued commitment from intelligence agencies and 
other organizations is a priority for the Center.
    The men and women I am privileged to represent appreciate the 
intelligence committee's bipartisan interest and support as they work 
around the clock to identify and disrupt potential terrorist threats. 
And while perfection is no more possible in counterterrorism than it is 
in any other endeavor, NCTC, in partnership with DHS and the rest of 
the counterterrorism community, continues to work day and night to 
reduce the likelihood of a successful attack.
    Thank you for your continued support of our mission, and I would be 
happy to answer any questions the Members of the committee may have.

    Chairman King. Thank you, Director Olsen. I understand you 
are accompanied today by one of your main advisers, Nate Olsen, 
who is sitting here in the front row. I want to welcome him, 
your son, to the hearing.
    Mr. Olsen. That is right. Thank you very much.
    Chairman King. Thank you.
    Secretary Napolitano, I would like to discuss the whole 
issue of Hani Nour Eldin, who is the Egyptian member of the 
Islamic Group who was here in the country, and what this 
portends for the future, as we go forward, with representatives 
coming from the Middle East.
    My understanding of the Immigration and Nationality Act is 
anyone who belongs to a designated foreign terrorist 
organization, before receiving a visa, must apply and receive a 
waiver from the Secretary of State and the Secretary of 
Homeland Security. I know we have seen a number of them--for 
instance, you and Secretary Clinton signed one for a member of 
the Iraqi National Congress, and this has been the procedure, I 
guess, since 1996, 1997. If you are designated FTO--if you 
belong to it, you cannot come into the country without getting 
a waiver.
    Now, my understanding is that Eldin, who is an elected 
official in Egypt, was a part of a delegation that came to 
Washington, went to the White House, went to the National 
Security Council, and also met with Members of Congress. He is 
a member--according to his own Facebook page--of the Islamic 
Group, which is a designated foreign terrorist organization. 
Yet he was given a visa, never applied for a waiver. No waiver 
was given. When he arrived at Kennedy airport, he did not go 
through any secondary inspection.
    He was at the White House, he asked for the release of the 
Blind Sheikh, I understand; met with Members of Congress, who 
were never told he is a member of a designated foreign 
terrorist organization.
    Now, the reason I ask this question, it appears as if the 
law was not complied with, in that he did not apply for a 
waiver. Congress was not notified, which was also required, 
that whenever a waiver is given, Congress has to be notified 
that one of these individuals is in the country.
    My understanding, also--and I take only information that 
was provided by your Department in a letter to me--but the 
reason that said that no waiver was required is because there 
was no derogatory information found. Yet his own Facebook page 
says he belonged to a terrorist organization.
    The concern I have is, this individual case is one thing. 
But as we see the results of the Arab Spring, whether it is 
Egypt, whether it is Libya, hopefully Syria, and other 
countries in the Middle East, we are going to have people 
coming to this country or attempting to come to this country 
who may have had involvement in the past, peripheral or real, 
with various terrorist organizations.
    The administration, whether it is this administration or 
another administration, may feel that some of these people can 
be dealt with, can be worked with, but if that is to be done, 
to me, it would seem to me, it would have to be an open 
process--a transparent process where Congress and the people 
would know who was being let into this country, what were the 
factors that went in to giving this person a waiver, and also 
at what level that decision is made.
    I mean, we went through the situation in the 1940s where 
people in the State Department said that Mao was an agrarian 
reformer; or the 1950s, that Castro was a Jeffersonian 
Democrat. So you can have people making bad decisions.
    My question to you is: Who in the State Department, who in 
the Department of Homeland Security would initiate allowing 
someone from one of these organizations into the country? For 
instance--and even if they are not designated as an FTO, as a 
foreign terrorist organization, you could have the Muslim 
Brotherhood, without going into details, which may be 
considered one way in Egypt but another way in Syria, and 
members of it may have different types of relationships with 
the organization.
    Who is going to be making those decisions? Who is going to 
give the waiver? Is Congress going to be informed so we will 
know who is being allowed into the country and who is not and 
why a waiver is being issued?
    Again, I say in this case, with all respect, it does not 
appear that either letter or the spirit of the law was complied 
with, with Eldin, who was a self-proclaimed member of a 
designated foreign terrorist organization.
    Secretary Napolitano. Thank you, Mr. Chairman. I think a 
couple of things. One is, I think you are right in pointing out 
that, as we move forward, we are going to continue to have 
visitors to this country that the State Department and others 
feel are useful to bring to the country, to have discussions 
moving forward, who in the past--or who say they are members of 
a political party that in the past has been so designated.
    In the particular case you refer to, this was a State 
Department-selected group. It originated there. He was vetted 
before he got a visa against all known terrorists and other 
databases for derogatory information. None was found.
    As he entered the United States, we, too, vetted him 
against all of our holdings, including terrorists and 
information from a variety of sources. No derogatory was found.
    Before he entered the White House, he was vetted a third 
time by the Secret Service. No derogatory information was 
found. So then we can have some confidence that this was not a 
security breach in that sense.
    With respect to notification to Congress about this, that 
is something I will have to look into. I don't know what the 
status of that was.
    Within our organization, when we get a visitor like that--
and we have had some in the past--it is usually a combination 
of our counterterrorism group and CIS that reviews the 
information, and then oftentimes--not oftentimes, but 
occasionally, it will actually come up to the Secretary.
    Chairman King. But with all this vetting, the fact is, on 
his own Facebook page, he said was a member of the Islamic 
Group, which is a designated foreign terrorist organization. 
Now, how did that escape the entire vetting process?
    Secretary Napolitano. Again, Mr. Chairman, I think we have 
to add more nuance to that. We have to know, you know, what the 
group was. Is it now a political party that is running the 
government of a country that has strong ties with the United 
States? If that is so, what is the actual derog information? 
What was the content of the relationship, the substance of the 
relationship?
    In the particular instance you raise, I think everyone who 
looked at this individual felt confident that he was not a 
security risk to the White House or to the United States.
    Chairman King. But I think you are proving my point. That 
was a policy decision. It may or may not have been right. I am 
not even quibbling with the policy decision. I am saying, under 
the law, if he belonged to a foreign terrorist organization, a 
formal process had to be gone through, reasons given why the 
waiver was going to be granted, and then Congress notified of 
it. That is the concern I have.
    If he was able--even though he had it on his own Facebook 
page, that he belonged to a foreign terrorist organization, we 
could have hundreds of people in the situation over the next 
several years coming in who may not all brag on their Facebook 
page that they are a member of a foreign terrorist 
organization.
    So it raises serious questions to me, really, as to then 
how effective the vetting process is. Or if a policy decision 
was made, and it was made without Congress intending to be 
notified, because under--again, if he had applied for a waiver, 
and it had been granted, you would have had to notify Congress. 
So Congress was left out of it. He was allowed in without a 
waiver. I have a real concern.
    Director Olsen, do you want to--
    Secretary Napolitano. Well, if I might, Mr. Chairman, if I 
might give you--separate it into substance and process. On the 
substance, there was no derogatory information. He was vetted 
multiple times by multiple departments. But on the process, 
that is a fair point to make.
    Chairman King. Okay. I would say that it is a significant 
point here, because I made it, but a significant point because, 
again, if a person belongs to an organization and he is allowed 
in without applying for the waiver, it is bad enough it 
happened in this instance, but we could be faced with this 
situation many times over the next several years, especially 
involving, for instance, Libya, Syria, hopefully sometime, 
Egypt is going to be a work in progress.
    So I would really ask that that be looked into. I hope the 
decision is not being made at a policy level with the intention 
of keeping Congress excluded, which, again, on the face of it, 
appears to have happened here.
    Also, in closing, in the letter I sent to the Department, I 
understand that Eldin at the White House asked if the Blind 
Sheikh could be released. He was told the answer is no. But 
when I asked, what is the position of the Department of 
Homeland Security regarding any potential transfer or release 
of Omar Abdel-Rahman, the Blind Sheikh who was the architect of 
the first World Trade Center attack, quite frankly, your 
Department didn't answer it. They said he is in the custody of 
the Justice Department.
    Well, the fact is, if he is going to be released, Homeland 
Security has a real role to play in that. I mean, the Justice 
Department and the Department of Homeland Security--and, again, 
it appears as you are not answering--the Department is not 
answering the question about whether or not there is any 
intention at any time to release the Blind Sheikh.
    Secretary Napolitano. Well, let me just say this. I know of 
no such intention.
    Chairman King. Okay.
    The gentleman from Mississippi.
    Mr. Thompson. Thank you very much, Mr. Chairman. Madam 
Secretary, in a hearing in one of our subcommittees last week, 
we were told that American citizens can be trained to fly 
planes and not be vetted against a no-fly list. We were told 
that foreigners are vetted through a robust process that would 
only start once they are cleared.
    The question was whether or not a process could be put 
where anyone before they are admitted to a flight school would 
be vetted. Testimony from the Department at that time was it 
couldn't be done. Have you looked at that since that testimony 
was presented to this committee?
    Secretary Napolitano. I have.
    Mr. Thompson. What is your position on it?
    Secretary Napolitano. Well, the answer is, yes, there is a 
distinction between U.S. citizens and foreign persons who are 
seeking to get flight training. With respect to U.S. citizens 
who may be on one of our watch lists, there are a variety of 
ways that we can and do keep abreast of their activities. I 
don't want to go into those in an open setting.
    But the law is somewhat unclear as to whether we can vet a 
U.S. citizen prior to their application for certification from 
the FAA. So the Department historically is taking the position 
that we cannot formally vet them--any U.S. citizen before that 
application.
    Mr. Thompson. Well, then I will say that we introduced a 
bill last week to close that gap. Do you support such 
legislation?
    Secretary Napolitano. Absent an opportunity to see the 
exact language, I don't want to say support, but I would say 
the idea behind the bill is something we support, yes.
    Mr. Thompson. But right now, you also admit that that is a 
problem?
    Secretary Napolitano. It can be a gap, but, again, let me 
just say, it is a gap that would be easily filled a number of 
ways. Those for whom we actually have watch list information, 
there is a variety of ways we receive information about 
possible flight school training. But it would be nice to tidy 
up the law a little bit.
    Mr. Thompson. Thank you. Taking on the Chairman's questions 
about intent of Congress, Congress passed a law mandating 100 
percent cargo screening for inbound containers. You indicated 
that it can't be done, but that some other things are being 
done to do that. I think the question for some of us is that 
this was an act Congress said the Department should do.
    I would like to hear where we are on a percentage of 
screening of containers based on whatever system you are using 
at this point. Are we 20 percent, 30 percent? Where are we 
along the goal toward 100 percent?
    Secretary Napolitano. Well, we have looked at containers 
from different angles, as you know, and as we have discussed 
before--high-risk versus low-risk. We have actually done quite 
a bit to form and strengthen the international partnerships and 
the industry partnerships necessary to know and to secure 
containers and freight as it leaves foreign ports, to the 
extent we can. There are a lot of foreign ports, it is just 
physically not available to us to do that.
    With respect to inbound, we have an algorithm and other 
algorithms we use to evaluate high-risk cargo. We do a random 
selection of a small percentage of other containers.
    I would say, Representative Thompson, this is an area that 
I know that the Department and some in the Congress are at odds 
about, but there are a lot of ways to protect the ports of the 
United States and the interior of the United States from 
dangerous cargo. As we keep in mind the 100 percent law, which 
we understand is the law, sometimes those laws are very 
difficult standards to attain, and we have had to move in other 
directions in the near term to make sure that we are doing 
everything we can with respect to cargo.
    Mr. Thompson. So what percentage screening are you at right 
now?
    Secretary Napolitano. I will get you the exact numbers, but 
I would differentiate between high-risk and low-risk cargo, and 
we are very high percentage on the high-risk cargo. Low-risk, 
as I said, is very small.
    Mr. Thompson. So you can't give us a number?
    Secretary Napolitano. No, I can. I can't give you it at 
this precise hearing. That number is available.
    Mr. Thompson. But, Madam Secretary, you know, Congress said 
you shall do it. They didn't say look at it and come back to 
us. What I am saying to you is, if the Department differs, you 
instituted the waiver, but I think you should come back to us 
and say, you asked for 100 percent, we are at 20 percent. But I 
think it is not a good omen that we can't get the numbers.
    Can you provide us with any task orders that have been 
issued by the Department, looking for new technology to get us 
to 100 percent, or anything like that?
    Secretary Napolitano. Representative Thompson, we are happy 
to brief you and your staff again on where exactly we are. All 
that has been done. The numbers are available. I just don't 
have them at my fingertips at this hearing.
    Let me also say, however, that as we move forward--we have 
to recognize Congress also gave the Secretary the power to 
waive that requirement. I think implicit in that is if it is 
not feasible, practicable, affordable; whether it would have 
undue interference with all of the cargo that needs to transit 
into American ports for real-time inventories by the American 
manufacturers of our country. Those are all things taken into 
account. Whether that interference with lawful and legal trade, 
we get enough of a benefit that it makes it worth it. We 
believe that there are other ways currently available to get 
there.
    Mr. Thompson. Well, I am aware of information that you have 
shared from time to time. What I would ask, that if you have 
the current rationale for not doing it, and whatever data 
supporting it, I think some on the committee would be 
interested in seeing it.
    The last question--Mr. Chairman, I appreciate your 
indulgence. Also, can you tell us how much of this cargo that 
Congress said should be screened before it comes to this 
country is actually screened when it gets here?
    Secretary Napolitano. Yes, I can give you those numbers. I 
will be happy to provide those numbers to you.
    Mr. Thompson. So your testimony is that some of this cargo 
is already here before we look at it?
    Secretary Napolitano. It may be. It depends on the source, 
but, again, there are multiple layers that go into examining 
and knowing what is in the containers that are on ships bound 
for the United States. Some of those layers begin before it 
gets to the point of exit. It has to do with trusted shippers. 
It has to do with other initiatives we have, particularly in 
some of the large ports of the world.
    Others have to do with what in particular the Coast Guard 
does before cargo is allowed to enter a port of the United 
States. In between, there is the exchange of a lot of the 
manifest and other information necessary to evaluate whether 
cargo is high- or low-risk.
    So there is a whole system set up--I don't want to leave 
the public or the committee with the idea that not only we are 
not doing 100 percent, we are not doing anything. We are doing 
quite a bit. But the 100 percent as the standard is not yet 
attainable.
    Mr. Thompson. Yield back.
    Chairman King. I recognize the gentleman from California, 
the Chairman of the Subcommittee on Cybersecurity, 
Infrastructure Protection, Security Technologies, Mr. Lungren--
5 minutes.
    Mr. Lungren. I thank the Chairman. I thank both of our 
witnesses.
    I might just say at the beginning that some discussion 
about application of lone wolf. While it would not have 
assisted in the terrible case in Colorado, we did have a debate 
on the floor of the House about whether we should have the 
lone-wolf provisions allowed for the Patriot Act, and we won 
that on the floor. It was consistent with what the 
administration was supporting. So I appreciate the fact that it 
is now recognized as a current and continuing threat to us, 
that is, the operation of a lone wolf.
    Madam Secretary, I want to thank your Department for the 
excellent classified briefing we received on the subcommittee 
yesterday on Domestic Nuclear Detection Office. I think some of 
the questions asked with respect to the last issue were 
addressed there, and I appreciate that. I appreciate the work 
that is being done there. We are going to have a subcommittee 
open hearing on that and other issues with DNDO tomorrow.
    I was very interested in your prepared testimony with 
respect to DHS implementing a curriculum for Federal, State, 
local, and correctional facility law enforcement officers with 
respect to community-oriented policing. In California, for 
instance, we have the post officer standards and training 
commission that establishes the curriculum for all law 
enforcement officers who are allowed to carry weapons, and 
community-oriented policing is a part of that. So I look 
forward to see exactly what your Department has.
    I would be most interested in an elaboration on exactly 
what the indicators of violent extremist activity are that you 
mention or reference in your prepared testimony. The reason I 
ask that is this: In the aftermath of the Fort Hood situation, 
it was very difficult to get some to admit that we had missed a 
whole lot of red flags with respect to Major Hasan. When we had 
a joint hearing asking a representative of the administration 
with DOD about what those indicators or red flags would be and 
how they would have actually been implemented with respect to 
Nidal Hasan, it was difficult to get a response.
    What I am trying to figure out is, if you are preparing a 
curriculum that is to assist local and State law enforcement 
officials as to those signs that hopefully will help us 
identify before violent behavior takes place, what are those 
signs?
    Secretary Napolitano. Well, a couple of things. One is the 
curriculum is based on the community policing idea, with the 
idea that police officers, deputy sheriffs, whatever, are 
normally in the best position to witness something, tactics, 
techniques, other indicators. Without spelling in an 
unclassified setting what all those indicators are, let me just 
say that we have involved local law enforcement, including 
California, in the development of this curriculum.
    Part of it includes taking 62 cases of home-grown terrorism 
or purported terrorism from a variety of ideologies and mapping 
them out as to what happened so we can precisely look at, well, 
what were some of the things that--early warning signs, early 
tripwires, things that should have alerted law enforcement. It 
can be as simple as communication with known terrorists that 
becomes available, all the way to unusual purchases of guns and 
unusual purchases of explosives, explosive materiel.
    Mr. Lungren. How do you distinguish between the area of 
protected Constitutional speech versus that which is an 
indicator of potential violent acts? What I mean is, in Major 
Hasan's case, we have evidence of the fact that at a setting in 
which he was supposed to lecture on a medical issue; instead, 
he went into a rant about the justification for radical 
Islamists attacking those in the West. Yet that was not 
reported. That was not acted upon. I would consider that an 
indicator.
    Is that such an indicator in the curriculum that you are 
presenting to law enforcement, including my State of 
California?
    Secretary Napolitano. Perhaps. I don't want to get into 
Hasan, the FBI, DOD issues there. I think Judge Webster has 
issued a report on that now.
    But all of these things taken together--so when you 
actually look at the Department's efforts on CVE, countering 
violent extremism, they actually are a number of things. No. 1 
is, we need to get a better understanding of the roots of 
violent extremism. What is it that is going on in society that 
leads to the creation of a violent extremist? Can we get at 
some of those root causes?
    No. 2, how do we partner with nongovernmental agencies, 
NGOs, other groups that may come into contact with someone who 
is moving from your espousal of beliefs to actually becoming 
pre-operational and operational?
    Then No. 3 is, how do we better train our local law 
enforcement to be aware of tactics and indicators? I think one 
of the best ways we can do that is to provide case studies and 
analysis either from events that happened within the United 
States or like Merah that happen in other countries.
    Chairman King. The time of the gentleman is--Director 
Olsen, you want to----
    Mr. Olsen. Yes, if I could just add a couple of points. 
DHS, under Secretary Napolitano's leadership, is taking the 
lead on this, along with FBI and Department of Justice and us 
at NCTC.
    One way that we contribute to this effort is analytically. 
We have a group of analysts that look at the question of 
radicalization. We have generated a number of analytic products 
to help understand exactly what you are talking about, 
Congressman, in terms of the pathway from radicalization to 
mobilization to violence, helping to explain what those 
identifiers are so that we can then use that in training to 
sensitize local law enforcement and first responders to 
recognize those signs, and then to take action when somebody is 
on that path. We can stop that person before they do take 
action.
    Mr. Lungren. I appreciate that. I am just very concerned 
about this. I mean, Tony Blair said just 2 days ago that the 
West is asleep on this issue--that even he underestimated the 
power of the narrative of the violent Islamists.
    Chairman King. The time of the gentleman is expired.
    Mr. Lungren. It is a powerful statement, and I just hope 
that we have learned from our----
    Chairman King. The gentle lady from Texas, Ms. Jackson Lee, 
is recognized for 5 minutes.
    Ms. Jackson Lee. I thank the Chairman and the Ranking 
Member for this hearing and acknowledge the witnesses and thank 
them for their presence this morning. Good morning.
    First, let me acknowledge the passing and funeral of 
Inspector Phillip Prater, who was assigned to the Houston 
division of the Federal Protective Service. His on-going 
service indicated the stellar record of service, and I am 
grateful that Director Patterson was able to attend, Madam 
Secretary. I hope we will have a dialogue over the next couple 
of days.
    Let me thank you for your letter of sympathy to the family. 
I would just like to put on the record, there is a need for a 
more responsive H.R., human resources. If you could look into 
that, I would appreciate it, in terms of working with the 
family.
    Let me ask a question that--if the Homeland Security 
Department was operable in 1993--I think it was--1993, 1994--in 
the action of the Oklahoma bombing----
    Secretary Napolitano. Nineteen ninety-five.
    Ms. Jackson Lee [continuing]. Nineteen ninety-five. Thank 
you. Would that have been considered domestic terrorism and 
under the Homeland Security Department?
    Secretary Napolitano. Yes, I actually worked on that case. 
I would say, Representative, that, yes, that had all the 
hallmarks of domestic terrorism.
    Ms. Jackson Lee. Do we as a Department--your Department, 
our opportunity in review--concern ourselves with domestic 
terrorism, meaning actions that may be driven by American 
citizens?
    Secretary Napolitano. Yes, Representative. As I testified, 
I think Matt testified, we look at terrorism from abroad and 
from within. It can be Islamist. It can be motivated by other 
ideologies, but yes.
    Ms. Jackson Lee. So would a situation that would have wired 
and set booby traps and others in a residential dwelling, that 
has now left dwellers outside of their home for a period of 
time, and if it had been triggered, could have caused massive 
loss of life, would that warrant homeland security involvement? 
Does a local jurisdiction have to call you for that?
    Secretary Napolitano. Well, the Aurora tragedy--and a true 
tragedy--is under investigation. I don't want to get too much 
into the comment on that, because there is a lot we still don't 
know. But I would say that, with respect to the response--and 
the local police, by the way, if I might make this point--one 
of the things we have been doing is doing a lot of training 
around the country on how to respond to different types of 
terrorist potential attacks.
    One of the scenarios we have been training across the 
country for is something along the lines of a Mumbai-style 
attack, where you have multiple shooters, organized. We had 
actually coincidentally----
    Ms. Jackson Lee. Right. I have another----
    Secretary Napolitano [continuing]. Just done that training 
in Colorado.
    Ms. Jackson Lee. I have another question, so if you can--go 
ahead. Finish.
    Secretary Napolitano. Yes. The Aurora police were there, 
and their response last week is to be commended. But with 
respect to, is there a Federal process and so forth in an 
investigation of an incident of that type? Yes.
    Ms. Jackson Lee. Let me express my sympathy to those and 
applaud for those law enforcement first responders. Of course, 
this was a very difficult time. I would encourage that Homeland 
Security be present, because I do believe there are issues of 
domestic terrorism.
    Let me move quickly to another issue on--five Members of 
Congress attacked a staff person in the State Department on the 
grounds of being associated with the Muslim Brotherhood--the 
mother, father, and brother. I do not want to call that staff 
person's name. I know that staff person as an outstanding 
American. But they sent a letter to the State Department 
inspector general.
    My question is, broadly, their letter suggests that there 
are Muslim Brotherhood operatives in the United States 
Government. To me, that is a Homeland Security issue. My 
question to you, barring classified information, and if we have 
to have a classified response at a later time, are you engaged, 
or have you been notified, or are you investigating the idea of 
present staff being associated with the Muslim Brotherhood in 
the United States of America?
    They cited the Tariq Ramadan decision, where there was 
civilization jihad. They cited de facto U.S. recognition of 
some entities. Where is Homeland Security in this? This is our 
jurisdiction, if that is a truthful accusation.
    Secretary Napolitano. We have looked into this. The FBI has 
looked into this. We have found no credible evidence that such 
activity is going on.
    Ms. Jackson Lee. Could you repeat that again, Madam 
Secretary? Maybe we have not heard you clearly.
    Secretary Napolitano. We have looked into it. The FBI 
looked into it. We have found no credible evidence that such 
infiltration is going on.
    Ms. Jackson Lee. The FBI, being the component that would 
have an intelligent component, would it be necessary for the 
CIA, which we look internationally with their work, but the FBI 
would have used their intelligence resources? Is that what you 
are suggesting in their investigation?
    Secretary Napolitano. I would assume so, yes. I don't know 
precisely who they use, but that is what would be my 
assumption.
    Ms. Jackson Lee. Both the U.S. Department of Homeland 
Security and the FBI have found no evidence of this?
    Secretary Napolitano. That is correct.
    Ms. Jackson Lee. I thank the Chairman.
    Chairman King. The time of the gentle lady is expired.
    The gentleman from Texas, Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    I want to thank the witnesses. First, Madam Secretary, let 
me compliment you on your recent attention to the Caribbean. We 
chaired an oversight hearing on the Caribbean being the third 
border. I know that I got reports back from Governor Fortuno 
and Representative Pierluisi that you did a great job going 
over there. I certainly appreciate that.
    I also chaired a hearing just recently on the use of 
drones. Now, as you know, Congressman Cuellar and I have been 
strong advocates for the use of DHS drones down on the border. 
There is another issue with respect to drones being used 
throughout the United States in the interior.
    I bring this up because the GAO 4 years ago said that the 
TSA, under DHS, had a role to play with respect to security 
assessments and a National policy. Then less than a year ago, 
we had a man who attempted to use this drone, but was thwarted 
by the FBI, in an attempt to blow up the Pentagon and the 
United States Capitol.
    I have to tell you, I was surprised at the response from 
your Department was that you had no role with respect to these 
drones and that you were not going to send witnesses to testify 
at that hearing. So I just want to register my disappointment.
    I personally think that DHS does have a role. In fact, 
every Member sitting on the subcommittee, both Republican and 
Democrat, agreed with that assessment. In fact, the witnesses--
I mean, it is rare that you have a privacy expert and a law 
enforcement expert agreeing on the same issue, and that was 
that DHS has a role through the Office of Privacy and also 
through Science and Technology and other departments within DHS 
to deal with this issue.
    Can you explain to me why this is not given any attention?
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Secretary Napolitano. Well, I think--and I can't speak to 
exactly how the role was expressed last week, but here is what 
is going on. Yes, you are right. Yes, you are right. We use the 
drones on the border extensively. With respect to the 
regulation of drone use in the interior of the United States, 
which is a relatively new phenomenon--and I think this was the 
focus of the committee--the regulatory authority is with the 
FAA, in part because it is an air traffic control issue. But we 
are working and will be working with the FAA to make sure that 
Homeland Security equities are protected.
    With respect to science and technology, that directorate, 
we do have a funded project--I think it is in California--
looking at drones that could be utilized to give us situational 
awareness in a large public safety or disaster such as a forest 
fire and how they could give us better information----
    Mr. McCaul. Excuse me. My time is limited, but I appreciate 
that comment. I hope that you--you know, the Ranking Member is 
prepared to offer legislation with me. I would prefer to see 
this happen administratively by either Executive Order or 
within your Department, to coordinate with the Justice 
Department and the FAA. I do think FAA controls the safety of 
the airwaves, but doesn't really focus on security, per se. I 
think that is an appropriate role for the Department.
    Director Olsen, Fort Hood occurred not too far from my 
district. I went to the memorial service. The Webster report 
just recently came out. Well, since the tragic incident, it has 
been downplayed. First, it was a workplace violence incident. 
Senior intelligence officials, including your predecessor, 
downplayed the e-mail exchanges between Mr. Hasan and Awlaki, 
which always concerned me.
    Since then, we have found out that the San Diego Joint 
Terrorism Task Force pleaded with the Washington field office 
to respond to this, as they saw it--threat. The WFO responded 
that he is doing research; we can't investigate everybody 
looking at websites; and in one documentation, that this was a 
politically sensitive issue. I think that failure to contact 
the DOD resulted in the deaths of 13 soldiers, and next to 9/
11, the biggest terrorist attack on American soil.
    Real briefly, one of these e-mails particularly, literally 
outlines exactly what Major Hasan did. It is the one on May 27, 
2009. At the end of it, he says, ``So I would assume that 
suicide bombers whose aim is to kill enemy soldiers or their 
helpers, but also kill innocents in the process, is 
acceptable.''
    I mean, there is a huge red flag in this e-mail. You know, 
as a former DOJ prosecutor, working with JTTFs, I can't 
imagine--I can see San Diego's concern, and I can't imagine why 
WFO did not give that greater attention. Do you have any 
response?
    Mr. Olsen. I can say, Congressman, you know, obviously, the 
Webster report, an extensive study of exactly how--focused on 
the FBI, how the FBI responded. I know that the director of the 
FBI has indicated that a number of the recommendations from the 
Webster report are being implemented, in terms of changes to 
information sharing, technology, and policies.
    I mean, I can say, at a personal level, also as a former 
prosecutor, at NCTC, the Fort Hood shooting, along with the 
2009 Abdulmutallab attempted attack, are sort of seminal events 
for us, as far as trying to learn what we can from those 
lessons. I mean, those are hard-learned lessons. But we need to 
continue to be vigilant to do better at spotting those types of 
indicators and sharing that information appropriately.
    Mr. McCaul. Oh, I would sure hope so, when you get a major 
on a major base in the United States talking to a No. 2 
terrorist in the world, and that is not transmitted to the 
general and the commanding officer in charge of Fort Hood? I 
think that is absolutely unacceptable.
    In particular, after reading these e-mails, I feel misled 
that senior intelligence officials misled the Congress by 
downplaying the extent and the importance and significance of 
these e-mails. I see my time has expired.
    Chairman King. The time of the gentleman has expired.
    The gentlelady from--Mr. Cuellar is not here--the 
gentlelady from California, Ms. Richardson, is recognized for 5 
minutes.
    Ms. Richardson. [Off mike.]
    Chairman King. Ms. Richardson, it is not working. It is 
probably not being picked up. Maybe Ms. Clarke can let you----
    Ms. Richardson. Will you give me a little more time?
    Chairman King. You have got it. Start over. Oh, that is a 
new one.
    Ms. Clarke of New York. Try this.
    Ms. Richardson. Okay. All right.
    Chairman King. You can start the clock over.
    Ms. Richardson. Thank you, sir.
    Madam Secretary, as I was explaining, my role here on the 
committee and also having where I live--Congressman Rohrabacher 
actually represents the port of both Los Angeles and Long 
Beach. However, throughout my whole district is all the traffic 
and the impacts of the port and that part that we both benefit 
and we also have challenges.
    My question to you is as follows, and I want to build upon 
the questions of Ranking Member Thompson: When you submit the 
information that you promised for the record, would you also be 
willing to include in that--and it may require a briefing or a 
classified briefing to this committee--what do you view as the 
continuing vulnerabilities within our Nation's ports? What 
resources might you need to be able to address these gaps in 
the security of our ports? Because we would like to assist you 
with that.
    No. 3, what is being done to look at specifically the small 
vessel threats that are now becoming of great concern to us, as 
well?
    I should let you know that, for the record, I did submit a 
letter to the GAO, and I believe it was provided to you, as 
well, at the time back on May 7, 2012. So I just wanted to, 
one, give you an opportunity to respond to your willingness to 
provide us that information.
    Secretary Napolitano. We are always willing, 
Representative, to work with you on issues of the ports. They 
are obviously a critical infrastructure for the country. We 
work with a variety of partners on them. They are complicated 
entities, particularly large ports like Los Angeles, but, yes, 
we would be happy to work with you.
    Ms. Richardson. And supply the information, too?
    Secretary Napolitano. Yes. It may have to be--some of it 
will undoubtedly be classified, but yes.
    Ms. Richardson. Yes, madam. Thank you.
    Also, being a part of the Emergency Communications and 
Preparedness Committee, we recently had an update regarding the 
reforms that have been done due to the grant program. I want to 
commend you and your staff for establishing transparency with 
those who utilize those programs within State and local 
government and getting their thoughts.
    I would like to, though, ask you, what do you expect to do 
in terms of continuing to address how we can make sure that 
those funds are, in fact, risk-based, versus by traditional 
formula? Specifically, I am referencing the minimum requirement 
amount that I believe is in statute that allows, for example, 
well over $2 million, I think, to various cities that certainly 
don't rise to the risk that we see in others.
    Secretary Napolitano. Well, I think as the Chairman noted 
in his opening remarks, we have moved more and more to a risk-
based approach to a lot of things, I mean, from how TSA looks 
at the traveling public to how we deal with containers, to how 
we award grant monies. There is a little bit of a policy issue, 
I think, for the Congress to consider; which is to say, at a 
certain amount, you know, risk evaluation is not perfect. It is 
somewhat of an art, not a science, and spreading some of the 
monies around might make sense.
    But on the other hand, where we have high-risk areas and 
known risk areas, we need to be sure to address those.
    Ms. Richardson. Okay. Would you be willing, though, to 
consider working with this committee to establish those policy 
changes that would give you the ability to ensure that more of 
those funds are, in fact, risk-based, especially given the 
tremendous reduction that your Department has, unfortunately, 
suffered?
    Secretary Napolitano. Yes, absolutely. In our fiscal year 
2013 budget request, we proposed that the Congress take up all 
of our grants and look at merging them, reconfiguring them in 
such a way as to maximize our ability to use risk-based 
criteria. So we have that proposal before the Congress, and we 
will be happy to provide you with a copy.
    Ms. Richardson. Okay. My other question is, in your 
response regarding the ports, one of the things that you 
mentioned of the difficulties of implementing 100 percent cargo 
inspection is potentially the cost and the international 
relationships.
    Could you describe to the committee what you are doing in 
conjunction with the trade ambassador to establish these 
agreements so that we could go forward and have a more 
stringent system, similar to what we have internationally with 
passengers?
    Secretary Napolitano. Well, I have not personally dealt 
with the trade ambassador, the trade representative on this. I 
know our staffs have had discussions. We also have had 
discussions simply port to port, not with respect to the trade 
representative, but with respect to the actual shippers, 
consigners, and forwarders, and the like. So there has been a 
broad variety of approaches to this issue.
    Ms. Richardson. Would you consider meeting with the trade 
ambassador? Because when we had the trade agreements that came 
before this Congress, four of them, I asked the trade 
ambassador specifically, had he worked with you to establish 
these agreements, so at least for those going forward, we could 
eliminate this problem? The answer was no.
    Secretary Napolitano. Always happy to work with the trade 
rep.
    Ms. Richardson. Okay, thank you.
    Mr. Chairman, would you allow me to ask one question to Mr. 
Olsen?
    Chairman King. Yes, if we can just try to keep it within 
30--because Director Olsen has to leave about 12:30, so, yes, 
go ahead and ask him.
    Ms. Richardson. Thank you, sir.
    Mr. Olsen, I am sure that you are aware that in this 
committee, there are many discussions about terrorism 
intelligence. Could you share with this committee what you 
would view would be the percentage of intelligence that you 
receive that implies that the terrorism that this country is 
facing is based upon those being directed by their Islamic 
faith?
    Mr. Olsen. A percentage that is directed by--you know----
    Ms. Richardson [continuing]. That is motivated by----
    Mr. Olsen [continuing]. I think the way to answer that 
question is, in terms of our work, certainly a substantial 
majority of our work focuses on al-Qaeda and its affiliates. So 
certainly, a substantial majority of NCTC's focus, which is 
international terrorism, focuses on al-Qaeda and the al-Qaeda 
ideology.
    Chairman King. The time of the gentlelady is----
    Ms. Richardson. But do you--could I just ask a follow-up 
question, sir? You are very kind.
    Chairman King. Oh, I know that. It is part of my 
personality.
    [Laughter.]
    Also, you do bring out the best in me.
    Ms. Richardson. Oh, you just might get a hug, sir.
    Just a follow-up question. But would you view that that al-
Qaeda direction is directed and motivated strictly by the 
Islamic faith? Or is it based upon the perspectives of the work 
that they do?
    For the record, I will submit other questions specifically 
to this for the record, if you could----
    Mr. Olsen. It is certainly much broader than just faith, so 
it is a particular brand of ideology that is associated 
specifically with al-Qaeda and its ideology.
    Ms. Richardson. Okay.
    Thank you, sir.
    Chairman King. Okay. The time of the gentle lady has 
expired.
    The gentleman from Georgia, Dr. Broun, is recognized for 5 
minutes.
    Mr. Broun. Thank you, Mr. Chairman.
    Madam Secretary, right after the Fort Hood massacre, 
members of your Department came here and talked about an 
alleged attack after 13 soldiers were killed and many were 
injured. I stated at that time that political correctness was 
going to kill people. I think it did in that case. The more we 
have learned about that particular incident, the more there 
were gaps in communications between your Department and the FBI 
and other entities, as Mr. McCaul has brought up, and my friend 
from California, Mr. Lungren has brought up.
    It is certainly something that just really concerns me. I 
think the blood of those dead soldiers falls on the head of 
members of this Executive branch because they did not do their 
work and because political correctness prevented Major Hasan 
from carrying out the attack that was blatantly obvious to many 
people.
    I hope we change all that, because I think political 
correctness is going to kill more people if we don't stop it. 
But had it existed at the time of the Fort Hood incident, how 
would this new curriculum that you have proposed or described 
in your written testimony have prevented the tragedy from 
happening at Fort Hood?
    Secretary Napolitano. Representative, first the Webster 
report goes into the FBI-DOD issues. To my knowledge, and I 
haven't read the full report, but DHS was not there. But I must 
take exception to the way the question was worded, because the 
men and women I work with, the men and women at the FBI, the 
men and women at NCTC----
    Mr. Broun. Madam, I am asking you about how your 
curriculum----
    Secretary Napolitano [continuing]. They spend 100 percent 
of their time trying to protect the American people----
    Mr. Broun. Madam Secretary, I apologize I just have a short 
time and I have got----
    Secretary Napolitano. Well, you asked a long question with 
a lot of insinuation in it, and I--I don't think it is fair to 
the men and women who work in this area all the time every day.
    Mr. Broun. Well, I asked a question about the new 
curriculum that you have described. Would it have prevented--if 
it had been in place at the time prior to the Fort Hood 
massacre, would it have prevented Major Hasan of carrying out 
that terrorist attack?
    Secretary Napolitano. It is difficult to give you a firm 
yes or no, but I can tell you the curriculum does go into the 
indicators of someone who is moving from extreme ideology to 
operational. We would be happy to provide you a briefing on it.
    Mr. Broun. I would like that. Mr. Lungren, I think, also 
asked for the similar kind of briefing. I would be very 
interested in hearing that.
    Also, how would the curriculum that you have described in 
your testimony prevent home-grown terrorist attacks without 
singling individuals or groups due to their religious or 
political beliefs?
    With that question, I want to remind you that your 
Department--some individuals in your Department have described 
anybody who is military--or a military veteran, a gun owner, a 
Christian conservative, pro-life individual--that is me--as a 
terrorist. How would you prevent me being singled out as a 
terrorist, but then find out people like Major Hasan not being 
a terrorist?
    I don't think I am a terrorist, frankly.
    Secretary Napolitano. Well, I think, Representative, as you 
know, the--the report to which you refer was prepared under the 
prior administration and issued under ours very early on. We 
have since taken corrective measures to make sure these things 
are precisely identified.
    It is something that requires all of us to continue to look 
at what are the root causes of terrorism, what are groups that 
can help us that are outside the Government? As I said before, 
the public at large can have a role under kind of a ``see 
something-say something'' aspect of things.
    So this is a very difficult area. We have to be very 
cognizant of civil rights and civil liberties and privacy 
interests. We are very cognizant of those. But on the other 
hand, we are trying to learn lessons after every incident as to 
what could have been done better. We are not static.
    Mr. Broun. Thank you, madam. My time is about expired and I 
have got a previous engagement. But I just want to say in 
closing that we have got to get past this political 
correctness. We have got to start focusing on those who want to 
harm us. I think it is going to take intelligence gathering, 
boots on the ground to do so, within the Department, as well as 
within the CIA, FBI, as well as the military, to try to prevent 
these kind of attacks.
    Mr. Chairman, I yield back.
    Chairman King. The time of the gentleman has expired.
    The gentleman from Michigan, Mr. Clarke, is recognized for 
5 minutes.
    Mr. Clarke.
    Excuse me, Hansen. I don't think your microphone is working 
either, so maybe----
    Secretary Napolitano. I can hear you, but----
    Chairman King. I don't think it is being picked up, though, 
that is what I am saying.
    Secretary Napolitano. Oh, I am sorry.
    Chairman King. You might want to try the other mike.
    [Laughter.]
    Chairman King. Actually, Hansen, you could use over here--
the one that was just used by Ms. Richardson. I guess that was 
yours. Yes--Ms. Clarke's microphone. We will go from Clarke and 
Clarke.
    Mr. Clarke of Michigan. Thank you, Mr. Chairman.
    Secretary Napolitano, thank you again for recognizing and 
protecting our aviation system as being a key priority in your 
administration. As you are well aware, metro Detroit is a known 
high-risk area. If the underwear bomber had been successful, a 
huge commercial aircraft could have blown up right over 
metropolitan Detroit.
    My concern is this: How to best warn the public about an 
imminent danger like this so they can take cover immediately. I 
feel that one of the most reliable ways to do so would be to 
alert the public through the free local broadcasting media such 
as local TV and radio.
    While many people in Detroit rely on local television, such 
as seniors and also just to mention some economic issues facing 
the region, a lot of people are struggling financially. I mean, 
just this week I have been working with Fannie Mae to help stop 
some evictions of homeowners that are currently in foreclosure.
    Many households, they can't afford cable, but they have 
free local commercial TV broadcasting accessible to them. Many 
folks do have cell phones. The unfortunate issue is that when 
we had our power grid shutdown and we had a blackout in metro 
Detroit, the wireless networks got overloaded and we could not 
communicate with our cell phones.
    That is why I think it is important at least to have access 
to radio broadcasting through cell phones. I will be soon 
asking the Subcommittee on Emergency Communications 
Preparedness and Response to hold a hearing to examine these 
issues on how we can best alert the public by continuing free 
local TV broadcasting and enhance the public's access to radio 
broadcasting.
    If you have any thoughts on how we can best alert the 
public so they can take cover in the event of an attack or 
other emergency by continuing to offer free local TV 
broadcasting and enhance free radio broadcasting, I welcome 
your comments.
    Secretary Napolitano. Yes, and we have done quite a bit of 
work in this area. The plain fact of the matter is you have to 
use multiple media to get your message out quickly. FEMA has 
actually done the most work here. But as you note, cell phones 
go out, but texting may work. Radio, TV, other ways that people 
receive information through. So there has been quite a 
developed project, and quite a lot of work done here.
    Mr. Clarke of Michigan. Well, thank you. I look forward to 
working with FEMA to make sure that our public has access free 
local broadcasting through TV and radio. I will address this 
before the FEMA subcommittee as well.
    Thank you very much.
    Mr. Olsen. Chairman, if I could add one more point in 
response to the Congressman's question----
    Mr. Clarke of Michigan. Sure.
    Mr. Olsen [continuing]. About media. Secretary Napolitano 
referred to training that is being done--DHS, FEMA in the 
lead--in local communities and how to respond to a shooter or 
Mumbai-style attack.
    Part of that training does involve not only the law 
enforcement response to a shooter-type incident, but also is 
there public messaging that must go on in the event of an 
attack, and how that would play out. The actual workshops run 
through an exercise, so that exercise helps build capability in 
those communities. That is something we are working together 
on.
    Mr. Clarke of Michigan. Okay, thank you Mr. Olsen.
    Mr. Chairman, I yield back my time.
    Chairman King. The gentleman yields back.
    The gentlelady from Michigan, the Chairwoman of the Border 
Maritime Security Committee, Mrs. Miller. Mrs. Miller is 
recognized for 5 minutes.
    Mrs. Miller. Thank you, Mr. Chairman. Hopefully, this 
microphone is working.
    Secretary, you have been asked a number of excellent 
questions today about the cargo screening. I would just mention 
that the subcommittee that I am chairing, Border and Maritime, 
have had a number of hearings about this. I think you will find 
at least the testimony that we had from your agency was that 
the percentage of screening right now is in about the 5 
percentile.
    So it is in the one-digit numerals and it has also been 
explained to our subcommittee that the estimated cost of 
compliance of 100 percent would be $15 billion to $20 billion--
rough guesstimate. So actually, the House recently passed a 
piece of legislation I sponsored, the Smart Port Act, which 
really talks about the risk-based assessment, et cetera. But 
that is not my question.
    My question is--I want to talk a little bit--or ask you a 
question about visa overstays. Again, in the subcommittee, some 
of the things that have been rather startling as we think about 
the amount of illegal aliens that are in the country. Everybody 
always thinks that somehow that all of them came across the 
desert.
    You know, the truth is in the 40 percentile of all of the 
illegals that are in the country currently came literally 
through the front door, through visa overstays. We saw that 
with the recent Capitol suicide bomber who had been here on a 
visa overstay for over a decade. Certainly in the case of 9/11, 
at least four of the terrorists and murderers were here on visa 
overstays.
    In regards to the secure communities now, which I am a huge 
supporter of, I am just wondering if you could talk a little 
bit about the criteria for your department for when you 
apprehend, or when you--when you pull over, for instance, a 
visa overstay, that may not be here--somebody that you think is 
a high-level risk, and so we don't deport them because of some 
of the criteria.
    That could have happened even in the case of the 9/11 
hijackers that might have been pulled over for routine traffic 
stop. Maybe had nothing else and then we decided they weren't a 
high-risk priority.
    So I do have some concerns about that, and I wonder if you 
could address that?
    Secretary Napolitano. Well, as I think I have explained in 
many settings, we are in the immigration enforcement area 
setting priorities in part because we have resources. We don't 
have an endless pocketbook. So we have focused on criminals, on 
recent border crossers, on repeat violators, and others who may 
be a National security risk. That process is going very well.
    With respect to visa overstays, beginning in May 2011, I 
directed that we go back and see if we could re-identify that 
population and vet it against law enforcement and intelligence 
community holdings, and DOD battlefield holdings. As we did 
that vetting, we actually learned that quite a few of them--
almost 50 percent, actually had left the country, that just the 
documents weren't linked up.
    But we have now completed that re-vetting and the priority 
cases have been referred to ICE for removal. We are current on 
vetting on visas now.
    Mrs. Miller. Yes, I appreciate that. Actually, there was a 
backlog of several hundred thousand which I think has been 
significantly----
    Secretary Napolitano. I think the backlog has been 
eliminated.
    Mrs. Miller. Good to hear that. Good to hear that.
    One other question I would have. I mentioned about Secure 
Communities and, you know, as it has rolled out and now it is 
almost everywhere really around the country, which has been a 
tremendous assist, I think, for the first responders, 
particularly when you look at them as a force multiplier for 
your various agencies under your umbrella as well in 
eliminating or deporting, I should say, deporting many of the 
detainees through the Secure Communities by using your 
database, et cetera.
    But yet, we still see that there are several areas, couple 
of them in the State of California, couple of cities in the 
State of California, and I think Alabama as a State, but that 
is going to be rectified by October, now with the Supreme Court 
ruling about the immigration law. I think the people of Alabama 
look forward to that.
    But in particular, of course, it has gotten a lot of 
attention--Cook County, which is essentially a sanctuary city. 
They have declined to participate by our Federal law with 
Secure Communities.
    I am just wondering if you have had conversation with, for 
instance, the Department of Justice about that?
    I don't think we should allow it to continue. Certainly a 
hammer that we would have initially is the State Criminal Alien 
Assistance Program, SCAP dollars which is tremendous. I mean, 
it is several million dollars a year.
    So, on the one hand, they are saying, we are not going to 
comply with Secure Communities; on the other hand, they are 
saying, would you mind giving us all the Federal money so we 
can pay for whatever they want to pay for in their system 
currently. That would seem to me would be a place to start.
    If you do intend to continue to give them the funding they 
are asking for, at the same time they are violating this, I 
guess I would look for respectfully how can we do that? Why 
would you do that?
    Secretary Napolitano. Well, SCAP is a Department of Justice 
program, and we are evaluating all options with Cook County. 
Their ordinance is not just they can't cooperate with Secure 
Communities, it even precludes them from sharing any 
information with us, so that we could put a detainer on an 
individual and make sure they are not released back in the 
community before we look at them for possible removal.
    So it is a very, very broad ordinance. As I said before, we 
are evaluating all options.
    Mrs. Miller. I appreciate that. I hope that you do that. 
Again, I think that is a very bad message to be sending out to 
everybody else in the country to look at those kinds of things. 
I would hope that you and Attorney General Holder would work 
together to bring that to a resolve to the satisfaction of 
everybody who has a mutual constituency which is every American 
to make sure that if there are violators in the system, they 
need to be deported.
    Secretary Napolitano. Indeed.
    Mrs. Miller. Thank you.
    Chairman King. The time of the gentle lady is expired.
    I now recognize the new Ranking Member for the moment, 
gentlelady from California, Ms. Hahn.
    Ms. Hahn. Thank you, Chairman King. I moved up quickly. I 
just passed my 1-year anniversary in Congress last week and 
look at me now.
    Thank you, Chairman.
    You know I think there is a theme going on here in this 
hearing this morning and I know you are aware of that and that 
is port security and the issue of cargo scanning and screening. 
Certainly it is an issue that I think still concerns a lot of 
us. You know Los Angeles and Long Beach are America's port--44 
percent of all the cargo that comes into this country comes 
through that port complex.
    Congress did pass a law that required 100 percent scanning 
by this July 14. That date clearly has come and gone. You have 
indicated pretty strongly that that is not probably going to 
happen even with the 2-year waiver.
    Well, my first committee that I sat in here, we had the 9/
11 report card. I remember specifically asking, you know, were 
we doing enough in port security and the panel pretty much 
unanimously said that was an area where we were still lacking. 
On that, with the Chairman's help, I was able to actually pass 
a bill a couple weeks ago--it is awaiting passage in the 
Senate--that will ask the Department of Homeland Security to 
take a comprehensive look again at our Nation's ports, the gaps 
that may exist in port security and then come back and tell us 
in a classified setting, you know, where are gaps, what can we 
do in the future to close those?
    So I know you have spoken about this a lot, but again, 
could you discuss--elaborate on--give us a little comfort on 
where you see us going with particularly the scanning of our 
containers?
    I know a big issue is the economy, jobs, commerce, you 
know, we don't want to slow that down and yet one major 
disaster at one of these ports could actually cripple our 
economy.
    So where do you see us going, particularly if there is new 
technology that emerges that maybe makes this more possible 
without slowing down Congress?
    Secretary Napolitano. Well I think as Representative 
Lungren's subcommittee heard with respect to the detection of 
nuclear-type materiel, there are new technologies and things 
that are in play. I won't go into that in an unclassified 
setting.
    Obviously, we pay a lot of attention to ports. Obviously, 
we think the 100 percent rule, which does give the Secretary 
the authority to waive, is not the only way to reach the goal. 
There are multiple ways.
    We also are more than willing to work with you and with the 
committee on trying to give you a greater comfort level about 
the safety of America's ports.
    But interestingly enough, Representative, one of the things 
you said is well, if there is one thing that happens, 
Armageddon is going to occur and we will see a total crash of 
the market. I think one of the hallmarks of really being 
prepared for any kind of incident is the ability to respond and 
to be resilient, and to get right back to work.
    So you will see that a lot of our work has to do with 
precisely the resilience point.
    Ms. Hahn. I agree with that and I hope that is part of 
maybe what you bring back to Congress is, you know, a better 
plan for all of our ports to recover in the event of a 
disaster.
    Let me switch quickly to airports. I know at L.A. 
International Airport, we had a big issue with an unacceptable 
high wait time for people entering into this country which I 
think presented a potential security threat at our airports.
    We were able to get 20 more CBP officers at LAX. I think 
several of us specifically requested that. But could you speak 
to long-term staffing shortage of our CBP agents at our 
airports and how we can address that in the future?
    Secretary Napolitano. Right. We are spending some 
significant time as we look at the fiscal year 2014 budget now 
within the confines of all the other restrictions about what we 
can do to increase the number of hours that we have for 
inspectors, the number of personnel; looking at our staffing 
model--seeing if we can adjust that.
    We have had a problem at LAX. We have had a problem at some 
of our other big international airports. All I can tell you, 
Representative, we are doing everything we can think of to do 
to rectify that situation.
    Ms. Hahn. Thank you very much.
    Chairman King. The time of the gentle lady has expired.
    If I could just add on to what the gentle lady said. I know 
that a number of airlines coming in and out of JFK made the 
same request to me--the fact that there does seem to be a 
shortage of customs people at the----
    Secretary Napolitano. Yes. Mr. Chairman, one of the things 
we have requested in connection with the fiscal year 2013 
budget is the authority for us to receive participation and 
payments from port authorities, from airlines, to help 
subsidize the cost of additional inspectors.
    So say for example, an airline in New York wants to bring 
in a 3:00 a.m. flight from China, they help subsidize the cost 
of having to have that shift of inspectors there. There are 
other ways it can work, but it is something I would hope the 
committee can help us with.
    Chairman King. Thank you, Secretary.
    Gentleman from Michigan, Mr. Walberg is recognized for 5 
minutes.
    Mr. Walberg. Thank you, Mr. Speaker, and thank you to our 
panel today.
    Chairman King. Don't let John Boehner hear that.
    Mr. Walberg. Well, I was hoping that your kind goodness 
would produce something for the future for me, as well. But 
thank you, Mr. Chairman.
    Let me go back to leaks. There have been leaks in this 
administration. We don't know who. We don't know why, but there 
have been. Just to rehearse a non-exhaustive list, these leaks 
have included information about drone strikes against al-Qaeda 
in Pakistan, Somalia, Yemen.
    We have leaks concerning reported cyber campaign against 
Iran's nuclear arms program. Leaks that included terrorist 
plans to destroy American airliners. Leaks and details of CIA 
and Special Operations Forces efforts to kill Osama bin Laden 
and others.
    I guess what I want to ask, Madam Secretary and Director 
Olsen, were DHS or NCTSC consulted in advance of these 
disclosures?
    Mr. Olsen. We certainly weren't consulted. In other words, 
there was no--as far as I know, nothing within NCTC were we 
involved in any of the leaks that you have referred to.
    I mean, I think the main point for us, Congressman, is 
that, you know, without getting into the specifics of the 
allegations, that this is something that we take very seriously 
within the National Counterterrorism Center.
    I know that the director of national intelligence, Director 
Clapper, has made a number of comments publically about the 
importance of this issue and the reality that leaks have the 
potential to interfere with on-going operations, and it is not 
an exaggeration to say to endanger lives of American 
intelligence officials and others.
    So it is something that I know within the intelligence 
community, we take extraordinarily seriously.
    Mr. Walberg. I assume that would be your same position, 
Madam Secretary?
    Secretary Napolitano. Yes, and I have spoken with the 
Director Clapper and promised our full cooperation in whatever 
investigations occur and also with the FBI in the same vein.
    Mr. Walberg. What is your position on--have these 
disclosures impacted our National security?
    Secretary Napolitano. They are certainly not helpful. I 
will just leave it at that for now.
    Mr. Olsen. Yes, that is what I would say as well. 
Obviously, leaks, as I said, can be very damaging. In this 
instance, these leaks are now the subject of investigations and 
I wouldn't want to comment any further.
    Mr. Walberg. Well, let me move on to that.
    You are both former senior Federal prosecutors. Attorney 
General Holder has refused bipartisan requests, and I would 
note bipartisan request, to appoint special counsel to 
investigate these disclosures relying instead on line 
prosecutors to do the job.
    In your professional opinion, is it realistic to expect a 
U.S. attorney to question senior members of the administration 
regarding these disclosures?
    Madam Secretary.
    Secretary Napolitano. Yes, as a former United States 
attorney, they are not line prosecutors in that sense, they are 
Presidentially-appointed and Senate-confirmed. They act 
independently in a number of matters. So I think that is an 
appropriate way to proceed.
    Mr. Olsen. I agree completely with that.
    Mr. Walberg. So, you don't see that it would be a challenge 
for a person in this position, a line or whatever you would 
call them, U.S. attorney, to question senior members of the 
Obama administration regarding these disclosures?
    Secretary Napolitano. No, I anticipate that there will be 
several investigations and they will involve members of the 
administration. As I said before, we have pledged our full 
support.
    Mr. Olsen. We are also cooperating with the investigation 
and I also would say, again, these questions probably are 
better posed to the Attorney General. Without knowing the----
    Mr. Walberg. I have asked questions of the Attorney General 
on a number of subjects and gotten no answer.
    So, I would appreciate getting answers, but we can only 
work with what we have.
    Mr. Olsen. I don't know the specifics of the investigation, 
but do have confidence in the U.S. attorney's offices to carry 
these investigations out completely.
    Mr. Walberg. So when you served as a U.S. attorney, or the 
National Security Division, you would have authorized an 
assistant to take sworn testimony from the President's National 
security adviser?
    Mr. Olsen. I am not sure it is appropriate for me to 
comment on a hypothetical like that, Congressman.
    Mr. Walberg. I thank you. My time has expired.
    Chairman King. Gentleman's time has expired.
    The gentleman from Arizona, Mr. Barber, is recognized for 5 
minutes. Once again, welcome to the committee.
    Mr. Barber. Thank you, Mr. Chairman. Thank you for the 
welcome.
    Madam Secretary, Mr. Olsen, thank you so much for your 
testimony. Particularly, I was appreciative of the Secretary's 
very thorough report on the evolving and emerging threats to 
our country's security. It is absolutely my honor to be here, 
not only to be on this committee, but to add another Arizona 
voice to an important issue that we all share; and that is: How 
do we increase the security of our citizens and of our border?
    As you know, Madam Secretary, there have been anecdotal 
reports about material evidence of the presence of terrorists 
along our Southern Border. My question is: Is there any 
credible evidence that these reports are accurate and that 
terrorists are, in fact, crossing our Southern Border with the 
intent to do harm to the American people?
    Secretary Napolitano. Representative, first, welcome to the 
committee. It is good to see you here in Washington, DC.
    With respect, there have been--and the Ababziar matter 
would be one I would refer to that is currently being 
adjudicated in the criminal courts from time to time. We are 
constantly working against different and evolving threats 
involving various terrorist groups and various ways they may 
seek to enter the country.
    What I can tell you, however, is that the Southern Border, 
the U.S.-Mexico border, is heavily, heavily staffed at record 
amounts of manpower, materiel, infrastructure and the like, and 
we are constantly making sure we are doing all we can to make 
that border as safe as possible.
    Mr. Barber. Thank you, Madam Secretary.
    Mr. Chairman, I have no further questions.
    Chairman King. The gentleman from Arizona yields back.
    The gentleman from Minnesota, Mr. Cravaack, is recognized 
for 5 minutes.
    Mr. Cravaack. Thank you. Can you hear me? Thank you, Mr. 
Chairman. I am not going to give you a hug. So there you go.
    [Laughter.]
    Chairman King. I thank the gentleman.
    [Laughter.]
    Mr. Cravaack. You are welcome.
    Thank you for being here today, Madam Napolitano. I have 
got a question for you. Last time we had a little exchange 
regarding FFDOs. I said the last line of defense was the FFDO. 
Would you care to comment any further on that position?
    Secretary Napolitano. Well, I think FFDOs play a valuable 
part in airline security, aircraft security, which involves 
multiple layers. I think in that exchange, we talked about the 
FFDO. We talked about the cockpit door. We talked, I think, 
about----
    Mr. Cravaack. Which you classified as the last line of 
defense.
    Secretary Napolitano. Well, last line of physical defense 
in that regard. But I would say that trained personnel aboard 
aircraft, you know how to respond to events, is always, always 
a very, very important factor.
    Mr. Cravaack. Okay. In testimony today, you said, regarding 
risk-based analysis--what we talked about last time as well--
you said it is not perfect. It is an art. It is not a science.
    With that said, given the different layers of security that 
you just talked about, where a clean person can come through 
the normal security process. Just in this hearing room we heard 
not too long ago about the various holes that are around the 
aircraft, in the shadow of the aircraft, the people that can up 
and touch the aircraft and possibly place a device or a weapon 
on-board the aircraft.
    With that understanding, that a person coming through clean 
through the airport, can hook up with a device on the aircraft 
and plant it from the tarmac, which we see as a lot of 
problems, I see the FFDO program as being absolutely vital, 
with a 1.5 million sorties being flown annually, at the cost to 
the American taxpayer for $15 a flight.
    So I think that is probably one of your chief defenses. As 
a pilot--I flew for 17 years--as a former Federal flight deck 
officer, I can assure you, madam, that the Federal flight deck 
officer is not only the last line of defense, but a chief 
deterrent for those that wish to use an aircraft as a human-
guided missile.
    The House also recently passed a homeland security 
appropriations bill that would increase the FFDO funding. Now, 
the proposals that were brought out by the administration 
basically cut the program in half--would in essence eliminate 
it.
    If the funding level stands, will this administration work 
to clear the backlog--and I am saying the increased funding--
increase the backlog of pilots that are waiting to join the 
program?
    Secretary Napolitano. Representative, first of all, the 
reason that the administration submitted the budget request it 
did is because, as you all know, we are working under severe 
budget constraints. The FFDO program, as compared to the air 
marshal program, is not a risk-based program. So that is why 
that decision was made.
    Regardless, however, certainly if that appropriation goes 
through and that is added back into the budget, we will work to 
make sure the program is well-run and backlogs are relieved.
    Mr. Cravaack. So is your intent then not to phase out the 
program if you get this funding?
    Secretary Napolitano. Well, I don't speculate. I don't play 
``what ifs.'' We will see what happens.
    Mr. Cravaack. I ask you again--make sure I understand what 
you are telling me. If the program is brought up to the level 
of funding that the Congress approved, that it is your intent 
not to phase out the program?
    Secretary Napolitano. If there is funding for the program, 
we will carry out the program, yes, sir.
    Mr. Cravaack. Thank you.
    Switching gears, servicemembers at Fort Hood that we were 
just talking about today have been denied purple heart medals 
and related compensations on the basis of the judgment that 
these shootings were workplace violence and not terrorism.
    In your opinion, were the Fort Hood shootings by Nidal 
Hasan--I will not give him the rank--who described himself as a 
soldier of Allah on his business card, who was in active 
correspondence and direction from al-Qaeda, and who cried 
``Allah Akbar'' at the beginning of the attack, a terrorist 
act?
    Secretary Napolitano. I am not going to get into the 
decisions of the Department of Defense. They have their own 
criteria. But I would say, Representative, that an act can be 
both workplace violence and a terrorist act at the same time. 
This has all the hallmarks of both.
    Mr. Cravaack. Do you think these servicemembers deserve the 
medal--purple heart?
    Secretary Napolitano. Again, I don't know the decision 
making of the Department of Defense, but I have described how 
we would look at that act.
    Mr. Cravaack. So you classify it as a terrorist act?
    Secretary Napolitano. As both.
    Mr. Cravaack. One being a terrorist act. Okay.
    In regards to recently----
    Chairman King. The time of the gentleman has expired.
    Mr. Cravaack. My time has expired. I will yield back. Thank 
you.
    Chairman King. The gentleman yields back.
    The gentlelady from California, Ms. Sanchez, is recognized 
for 5 minutes.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Thank you, Madam Secretary and Director, for both being 
here today before us.
    Madam Secretary, I wanted to ask you a question and 
actually ask you to help us and work through a problem that I 
am sure you are aware of and somehow the buck keeps getting 
passed around to different people. Madam Secretary, this has to 
do with a border crossing between Mexicali, Mexico, and 
Calexico, which is on the border of California and Mexico. A 
very big crossing. My mother grew up in Mexicali, so I am very 
well aware of that area. It has the best Chinese food in the 
world, by the way.
    There is a new border crossing or an expanded border 
crossing--land crossing going between the two. One of the 
things about Mexicali, Mexico and Calexico is that in the 
summer it can get easily to 110 degrees. People are waiting to 
cross the border there for up to 3 hours, with no shade, 
standing in line, and that is a pedestrian crossing.
    So there is an effort to make a new land crossing. Almost 
all the Mexican side of that crossing has been built. 
Meanwhile, we have failed to move from our end to meet it and 
get this land bridge open.
    Part of the problem is that it is a GSA facility. I 
understand this. But how do we do what we need to do, which is 
to get this built, so that we can meet the Mexican side, so 
that commerce can move at a faster pace than 3 hours in line, 
and that people crossing back and forth, many of them for work 
and for family purposes and for purchasing purposes, also, so 
that we can move forward and get this done?
    How do we do that? Will you work with us? Will you help me? 
Will you get us a meeting with the GSA administrator? Can we 
all sit down? I mean, this is a very big and frustrating 
problem for the people who live in that area.
    Secretary Napolitano. I concur, and I think, you know, the 
physical ports along the Southwest Border, many of them are 
inadequate for the amount of people and cargo that needs to go 
back and forth.
    As you identify, it is GSA. Probably the No. 1 thing you 
can do is provide the funding to GSA for the projects. If they 
don't have the funding, they can't build the projects.
    But we will be happy to work with you.
    Ms. Sanchez. Great.
    I would like, Mr. Chairman, to submit a letter from the 
Board of Supervisors of Imperial Valley, where Calexico sits 
there on the border, asking for some resolution, hopefully a 
positive resolution to this. It is incredibly embarrassing to 
see a brand-new built facility from Mexico, having done their 
part, and nothing happening on our side.
    Chairman King. Without objection, the letter will be made 
part of the record.
    [The information follows:]

        Letter Submitted for the Record by Hon. Loretta Sanchez
                                      July 3, 2012.

Secretary Janet Napolitano,
Department of Homeland Security, U.S. Department of Homeland Security, 
        Washington, DC 20528.
    Dear Secretary Napolitano: The Board of Supervisors of Imperial 
County, California desperately requests your assistance and direct 
involvement in helping us solve a health and safety emergency that 
continues to exist as a direct result of Department of Homeland 
Security (DHS) inaction along the U.S.-Mexico border between Calexico, 
CA and Mexicali, Mexico.
    Calexico is a small city of 38,000 that is separated only by a 
fence from the city of Mexicali, the capital of the State of Baja 
California with a population in excess of 1 million persons. Since the 
establishment of these communities 100 years ago, Calexico and Mexicali 
have been linked economically, culturally, educationally, and both have 
significant familial ties.
    Calexico and Mexicali are linked by two major ports of entry that 
are administered by DHS through the Customs and Border Protection 
Administration. Although the communities have been promised that the 
major Port of Entry (POE) at downtown Calexico would soon undergo a 
major remodel that would bring this 40-plus-year-old outmoded facility 
up to modern standards to better facilitate the movement of people and 
commerce, the necessary Federal appropriations have been stalled, 
apparently indefinitely. In the mean time border waits for persons 
wishing to cross into Calexico to work; shop; go to school; or visit 
family, regularly exceed 2 hours. We are already in the summer season 
where we can expect in excess of 130 days where the average 
temperatures will exceed 100 degrees and often reach as high as 115 
degrees. The lines are particularly dangerous for pedestrians who must 
endure these 2-hour waits while standing unprotected from the excessive 
heat.
    We understand the difficulty the Federal Government is facing in 
trying to find funding for the $300 million reconstruction of the 
entire POE and we are actively seeking solutions including local 
participation in a public/private, leaseback arrangement to help find a 
local solution. In the mean time, we face an imminent public health 
emergency that requires your immediate attention.
    We urge your direct involvement in implementing a solution to 
expedite the passage of northbound pedestrians before the intense heat 
of this coming summer season causes more health and safety issues for 
the pedestrian crossers, including elderly persons and young school 
children. Regional CBP officials have looked into temporary solutions 
to provide more northbound pedestrian turnstiles to help facilitate the 
northbound inspection of pedestrians that we believe can be quickly 
implemented to help solve this impending health emergency. Their plan 
would involve relocating the southbound passage for pedestrians and 
moving some office space within the pedestrian port to nearly double 
the number of inspection gates at downtown Calexico. The Board of 
Supervisors request that you immediately provide funds to Customs and 
Border Protection (CBP) to implement these changes or any similar 
reconfigurations or operational changes that will shorten the exposure 
of these vulnerable populations from the extreme weather conditions 
that will soon be upon us.
    While the Board has not yet declared the existence of a State of 
Emergency as a result of these increasingly long waits to cross into 
the United States, we intend to have our health and environmental 
officials continuously monitor the situation and, when warranted, we 
are prepared to make such a declaration.
    We would welcome a prompt response to this request so that we may 
quickly engage in a dialogue that will lead to prompt action to rectify 
the untenable conditions that have resulted from many years of Federal 
inattention to the needs of the border-crossing communities along the 
Southwest Border in general and in Calexico in particular.
            Sincerely,
                                              John Renison,
                                                        District 1.
                                             Jack Terrazas,
                                                        District 2.
                                         Michael W. Kelley,
                                                        District 3.
                                                Gary Wyatt,
                                                        District 4.
                                          Raymond Castillo,
                                                        District 5.

    Ms. Sanchez. Thank you, Madam Secretary.
    Chairman King. The gentleman from Pennsylvania, Mr. Meehan, 
Chairman of the Terrorism Subcommittee, is recognized for 5 
minutes.
    Mr. Meehan. Thank you, Mr. Chairman.
    Let me thank both of the panelists for your distinguished 
service to our country. I appreciate that when you come here 
you get the tough questions. But I also appreciate the 
tremendous service that you perform each and every day on 
behalf of our Nation. But I am going to ask as well some 
questions that I know have been a great importance to me.
    Let me start with you first, Mr. Olsen. I want to ask you, 
you know, because you are at the NCTC every day, you see the 
global information. Do you believe that Boko Haram should be 
designated a foreign terrorist organization?
    Mr. Olsen. We certainly have seen, Congressman, the rise of 
Boko Haram as a significant threat in Nigeria over the last 
couple years, and in particular, a dramatic rise in the amount 
of violence that that group has caused in Nigeria, particularly 
over the last year.
    If you recall, last August, the attack on the U.N. 
headquarters----
    Mr. Meehan. I am aware. We know. The record reflects. I 
just want to know your opinion. Do you believe it should be a 
foreign terrorist organization?
    Mr. Olsen. That is a question, the question of whether to 
designate that group----
    Mr. Meehan. Yes.
    Mr. Olsen [continuing]. That is within the province of the 
Department of State to make that----
    Mr. Meehan. I am aware that it is the Department of State, 
but what do you believe? Because I am having trouble getting an 
answer from the Department of State.
    Mr. Olsen. Our role is to provide the intelligence on that 
group to the--ultimate policy decision about whether to 
designate. From the pure perspective of the definition of 
terrorism and whether that group engages in terrorism the 
answer is it does. It engages in acts of terrorism in Nigeria 
and has.
    Mr. Meehan. Well, let me take a second--let me just ask, 
Madam Secretary, what is your opinion on that?
    Secretary Napolitano. Well, I think I would concur with the 
director and all that he has said. That is a policy decision 
ultimately for the State Department.
    Mr. Meehan. Well, let me go through because I am not 
getting the ability for the State Department to make a 
decision. The facts, we are attorneys and we talk about the 
criteria, the elements. Are they a foreign organization? 
Question No. 1--that is clear. Do they engage in terrorist 
activity? Without a question. I think we can stipulate both of 
those.
    Really, the third question is, is the organization's 
terrorist activity a threat to the security of the United 
States or National security of the United States, either the 
foreign relations or their economic interests?
    Now, Mr. Olsen, you have testified here today that Boko 
Haram remains focused on local and regional attack plotting, 
including Western interests in Nigeria. You further testified 
that Boko Haram is primarily focused on plotting against 
attacks in Nigeria, but in April a spokesman for the group 
publicly threatened to find a way to attack a U.S.-based news 
outlet if its coverage of Islam did not change.
    According to my interpretation of your testimony and each 
of those elements, it meets all the criteria of designation for 
a foreign terrorist organization. Would you agree with that?
    Mr. Olsen. I would agree that the acts of that group meet 
those criteria in terms of its activities, and the intelligence 
supports that. Ultimately--and as you may know, sir, that a 
number of the members of that group have been designated as 
terrorists. Ultimately, the decision of whether to designate 
the group is a policy call----
    Mr. Meehan. But why, Madam Secretary, why would we not do 
that? Because I think you appreciate, as I do, the ability to 
have enhanced activities for investigation on our part. Let me 
suggest that there is testimony, as well.
    I think most significantly the letter from the Department 
of Justice requesting that this be done, one of your, you know, 
colleague agencies, from Deputy Attorney General Monaco, 
specifically requesting.
    I have met with the CIA, and I would represent to you their 
genuine concern and hope that this would be accomplished.
    General Ham himself of the African Command has talked 
himself about the concern that AQIM and others are 
collaborating with the--you know, al-Qaeda's collaborating with 
Boko Haram.
    So given all of those facts, why would the State Department 
not designate them as a foreign terrorist organization if you 
have an opinion?
    Secretary Napolitano. Representative, I think that is a 
question to address to the State Department.
    Mr. Meehan. Okay, well, I appreciate that. I think the 
facts speak for themselves on that.
    I am fearful and, here, let me just go for the record. My 
concern is we took the same stance with TTP. We took the same 
stance with AQAP after--we did not designate them until after 
they attempted to carry out acts of terrorism within the United 
States. So I am very concerned about this issue.
    Madam Secretary, let me just ask one quick, sort of 
overarching question: Those visa overstays here in the United 
States, are we doing enough to try to deal with the issue of 
visa overstays, or can we do more? Or are we concerned about 
that?
    Secretary Napolitano. We have gone back and revetted the 
backlog. We are current with visas coming in. Doesn't mean that 
there aren't overstays in the country that are problematic, and 
we should always be concerned about that. We are open to ideas 
or suggestions on other things we could do. But I think from a 
Departmental standpoint, in the last 13 months--12, 13 months, 
quite a bit has been done from a security standpoint to look at 
those visa overstays.
    Mr. Meehan. Well, thank you.
    Thank you, again. My time is expired. But I am tremendously 
grateful for your service. Thank you.
    Chairman King. The time of the gentleman is expired.
    Madam Secretary, I have just been informed that you have to 
leave by 12:30, 12:35. We will do our best to expedite it, but 
we do have four Members left.
    The gentleman from Arizona, Mr. Quayle, is recognized for 5 
minutes.
    Mr. Quayle. Thank you, Mr. Chairman.
    Madam Secretary, last week we talked a lot in the Judiciary 
Committee about your June 15 memo. One of the things I wanted 
to talk about is not part of that. I have been hearing a lot 
of--I have talked with a number of sheriffs down in 
southeastern Arizona, and they have been talking about CBP 
reports about--where they have a new policy where they just 
turn illegal entrants back south if they don't pose a threat 
either criminally or violently.
    With the onset of the Morton memos, your June 15 memo--and 
then I recently got a copy of a CBP memo that says, ``CBP 
guidance for exercising discretionary authority and 
prosecutorial discretion in the enforcement of immigration 
laws.'' what it states is that they, again, are prioritizing 
people who have ties to terrorist organizations or those that 
could present a threat or smuggling.
    Then they also say that you can exercise discretion when it 
is confirmed that the alien does not--well, actually, 
generally, when it is confirmed that the alien does not fall 
within the categories. Then they list a number of different 
examples or key factors where they actually take into account 
of whether they just turn them back south rather than 
processing them, one of them being the likelihood that the 
alien will be granted temporary permanent status or other 
relief from removal, or the alien's ties to their home country 
and conditions in that country.
    One of the things that they are allowed to do is just have 
the voluntary return at the time that they are actually 
encountered along the border.
    How are the CBP agents actually going to be able to 
determine all of these different factors if they are just 
encountering them when they are making that illegal entry in 
between the ports of entry?
    Secretary Napolitano. What they do--and I think, 
Representative, we can provide you with a briefing off-line. 
But what they do is they bring the immigrant, the illegal 
alien, to a central center.
    I think we need to distinguish between when they make a 
referral to ICE for removal versus apply the consequences that 
we apply along the border with respect to detention and 
movement back to the country of origin. That is different than 
I think you are thinking of like a turnaway or something of 
that sort. We don't do turnaways at the Southern Border.
    Mr. Quayle. It actually does say that they have--``in the 
enforcement context exercising discretion applies to a broad 
range of discretionary enforcement decisions, including but not 
limited to the following between the ports of entry: voluntary 
return.'' So that is----
    Secretary Napolitano. That is right.
    Mr. Quayle. Yes. Voluntary----
    Secretary Napolitano. Voluntary return is not turnaway. 
Voluntary return means you stay in Border Patrol process for 
purposes of being handled versus going into the immigration 
court context.
    Mr. Quayle. But this actually says with the language--and 
language does matter within these memos. It says, ``Although 
the initial exercise of discretionary review should be made at 
the second line supervisor level''--it doesn't say ``must be 
made.''
    So that gives actually the discretion to the CBP agent at 
the time of the apprehension not to actually process the 
individual and take them into custody, but actually have the 
voluntary return to where they came from.
    So that is the disturbing thing that I have seen from this 
memo, along with your June 15 and along with the Morton memos 
is that they have this ability where they have discretion that 
wasn't actually given within the statutory authority.
    Secretary Napolitano. No, I think that is inaccurate. We 
will be happy to provide you with a specific Border Patrol 
briefing on that point.
    Mr. Quayle. So it is inaccurate, but it says that, 
``Although the initial exercise of discretionary review should 
be made.'' I mean, you are an attorney. You know language 
matters. That is some of the other things that you have, you 
know, within your June 15--it also uses ``should'' not 
``must.'' These are the things that are troubling when we are 
trying to draft legislation here to not allow and actually have 
enforcement of laws.
    We have your June 15 memo. You believe you have 
prosecutorial discretion. HHS believes that they have the 
ability to waive the work requirement for welfare, even though 
it specifically states that that section can't be waived.
    We are in a situation--we discussed this last week--where 
we need to be able to write laws and make the Executive branch 
actually enforce them. Even when we put these ``you can't waive 
it,'' or, ``you must do it,'' it seems the Executive branch 
continues to say, ``Oh, well, we have the discretion,'' even 
though the statute doesn't state that you do.
    So if you could just answer, you know--CBP, where did they 
get this discretion to have the ability to allow the voluntary 
removal of illegal entrants when it doesn't state that within 
any statutory authority?
    Secretary Napolitano. It is hard for me to follow your 
question, Representative, but I cannot identify a prosecutor or 
a former prosecutor who would sit at a table before you and 
tell you they don't have discretion. It is why U.S. attorneys' 
offices typically don't do check-cashing cases, even though 
there is a law there.
    You have to enforce the law in a strong and sensible 
manner.
    As you know, we have actually removed more people from this 
country in the last 3\1/2\ years than any prior administration. 
We have removed more felons. We have removed more aggravated 
felons. So the enforcement record is quite strong.
    Mr. Quayle. All right, thank you, Madam Secretary.
    Chairman King. The time of the gentleman has expired.
    Now I will ask unanimous consent, the gentleman from 
Arkansas, Mr. Crawford, be allowed to sit on the dais and 
participate in the hearing.
    Without objection.
    Just have to say, Mr. Crawford, the witnesses may have to 
leave before we get to you, but you are certainly welcome to 
join us.
    The gentleman from Missouri, Mr. Long, is recognized for 5 
minutes. He will be followed by Mr. Duncan and Mr. Rogers, and 
then Mr. Crawford if we are still here.
    Mr. Long. Thank you, Mr. Chairman.
    Thank you all for being here for your testimony today.
    Madam Secretary, I just stepped out of the room a few 
minutes ago to talk to a couple of college students from my 
area that go to Drury University and one of them happens to be 
from Joplin, Missouri. I just want to thank you for all of your 
efforts after our horrendous event, the tornado that took 161 
of my constituents' lives down there a year ago in May.
    You all were exemplary and unwavering and steadfast with 
your efforts down there, and I want to thank you for that.
    I do have a question--a couple of questions on today's 
issue.
    Representative Lungren a while ago was asking you about the 
Fort Hood shooting, Madam Secretary. In his questioning about 
the Fort Hood shooting and point out that Major Hasan was e-
mailing probably the second-leading terrorist. His question to 
you, if I understood the question was: How was this missed? How 
did all of this be missed that people couldn't look into it, 
when you have got a major e-mailing jihadist ideas and things 
to the second-leading terrorist in the country?
    I hope I was wrong in understanding your answer, but to me 
your answer was, what is going on in society--we need to be 
concerned with what is going on in society that leads to the 
violent extremism.
    Secretary Napolitano. No, Representative, first of all, I 
continue to watch the progress in Joplin and your constituents 
are amazing.
    With respect to that, what I was saying is that, within the 
whole universe of violent extremism, we need to understand 
better what causes it. We need to work with non-governmental 
organizations, NGOs. We need to have a very strong community 
base policing curricula that looks at early warnings, tactics, 
behaviors, techniques, that could be employed.
    So, I hoped you didn't interpret my answer as suggesting 
that this is a sociology issue. There were clearly lessons to 
be learned about the communication between FBI and the 
Department of Defense with respect to that Fort Hood shooting, 
that Fort Hood tragedy. I think all of us, even if we were not 
directly involved are going to read--are reading the Webster 
report with great attention.
    Mr. Long. Has this been thoroughly gone through to see 
where the dots were not connected or why--if San Diego was 
saying, ``Hey, we have got a huge problem here, this guy is 
talking about jihadist ideas and he is talking to the second-
leading terrorist, has anyone gone back to the people in the 
middle that made the decision not to pursue it?'', and said, oh 
no we can't get into that, because it is a civil rights, civil 
liberty?
    I am concerned about the civil rights and civil liberty 
about the 13 people that were killed.
    Secretary Napolitano. Representative, again DHS was not in 
that Fort Hood shooting situation, per se, but we all have 
copies now of the Webster report. We are all going to read it 
and are reading it with great attention.
    Mr. Long. Okay, one other----
    Secretary Napolitano. NCTC wants to answer.
    Mr. Olsen. If I could add to that? The Fort Hood tragedy 
continues to be a touch point for us at NCTC as an event that 
we need to learn from on how to share that type of information 
and to make sure that as NCTC represents the hub of much of 
that information, whether it is reporting from the FBI or from 
CIA, from DHS, from DOD. We need to continue to make sure that, 
that information that is of threat nature and those types of 
communications find their way into the hands of the individuals 
who can take action.
    So, again, the Webster report is one of the after-action 
reports, but there have been others. Those are all part of the 
overall effort of the National intelligence community to 
respond----
    Mr. Long. All right, I have got limited time. Let me get 
back into my second question for the Secretary.
    On the Egyptian Hani al Deen, or however you pronounce the 
name, the visit to the White House last month. Apparently, you 
testified that he had been through three vetting processes and 
no information was found indicating anything was wrong. But the 
Chairman mentioned that on his own Facebook page, he had that 
he belonged to a known terrorist organization.
    My question is this, when he has been vetted and re-vetted 
and vetted a third time, I believe you said with the Secret 
Service at the White House, do those people that did that 
vetting, are we going to hold them accountable?
    Is anybody going to go back and say: Look, who did this 
vetting? This guy had on his Facebook page that he is in a 
known terrorist organization. Do we do that? Do we go back to 
those people and say, how did you miss this little item?
    Secretary Napolitano. Representative, as I said to the 
Chairman, he was vetted multiple times. What happens, and what 
we will see out of the Arab Spring, among other developments, 
is that organizations that have been named as terrorist 
organizations in the past may or not be--all of the members may 
or not be--may or may not be terrorists themselves. That is 
what needs to be looked at, because these organizations and 
parties have evolved considerably over the last several years.
    We have seen this historically--Representative, we have 
seen this historically, as well. So, if the question is: Did 
someone get into the United States--did somebody get into the 
White House who was not vetted? The answer is no.
    Should we look at the process, as the Chairman pointed out 
to me? We can absolutely look at that.
    Mr. Long. I am not interested in the process. I am 
interested in the individuals that looked at the vetting. If my 
friend Mr. Duncan did the vetting, I would like for someone to 
go to Mr. Duncan and say, I don't care if it was an evolving 
terrorist organization, if it is one that used to be on and now 
it is not on the list. I would like to hear that from Mr. 
Duncan.
    I would like to hear that from the guy that did the 
vetting, to tell me, ``Well, the reason I didn't flag that he 
had on his Facebook page that he was a member of a known 
terrorist organization is because after the Arab Spring, we 
have kind of taken that group off.'' I think that is going to 
prevent my friend Rick here who sat next to Mr. Duncan in this 
vetting process, if Mr. Duncan is held to accountability----
    Secretary Napolitano. I think----
    Mr. Long [continuing]. Then when something like this comes 
up, Rick might be a little more careful, and protect our 
citizens a little more. Does that not make sense?
    Secretary Napolitano. Representative, that particular case 
has been looked at, and there were no mistakes made in the 
vetting. I will just leave it at that.
    Mr. Long. Three separate vettings, and no mistakes----
    Secretary Napolitano. None that we can----
    Mr. Long [continuing]. On a guy that had on his Facebook 
page, that he belonged to a terrorist organization that was at 
the White House a couple weeks ago.
    Secretary Napolitano. Well, again, Representative, I think 
I have discussed this long enough this morning. I will be happy 
to provide you more detail off-line.
    Mr. Long. You know, and I appreciate--I wouldn't want to 
see a flowchart on all your responsibilities, because you have 
got an extremely, extremely complicated and tough job. I do 
appreciate what you do. But sometimes it is the little things 
that matter. If we could go back and look at these three--I 
just can't get through my head that three groups of people 
vetted this fellow and on his Facebook----
    Secretary Napolitano. Well and it began with--and the State 
Department, because this was a State Department-sponsored trip 
to bring individuals who are now going to be potentially part 
of the leadership of a country with whom we have dealings to 
Washington, DC. It was vetted at every appropriate process--
every appropriate side----
    Mr. Long. I would like to hear that again from the people 
who did the vetting say, ``Hey, that is why we did it.''
    So again, thanks for your testimony. Thanks for being here. 
I know you have got a very complicated job.
    Chairman King. Time of the gentleman is expired.
    I would just add again, though, that the law does not allow 
him into the country unless there is a visa waiver. It may be a 
noble purpose if the organization may have evolved, but right 
now it is on the foreign terrorist organization list. He is a 
member of it. He should not have been allowed in without a 
waiver, which would have had your name and Secretary Clinton's 
name on it giving the reasons why.
    Gentleman from South Carolina, Mr. Duncan, is recognized 
for 5 minutes.
    By the way, Mr. Duncan is not on the terrorist watch list, 
despite references by Mr. Long.
    Mr. Duncan. Well let me just say, I appreciate the 
gentleman from Missouri continuing down that path, because I 
think it is very important. You know I would like to once hear 
somebody from this administration admit they made a mistake, 
and own up to it, and see some disciplinary action, if 
necessary.
    Madam Secretary, you are the Secretary of Homeland 
Security. Somebody as a member of a foreign terrorist 
organization coming into this country is absolutely your 
responsibility. Absolutely. The buck stops right there. 
Homeland Security is something that I know you take a grave 
responsibility for, and we take very seriously on this 
committee and in Congress. So, let me just say that is not the 
path I wanted to go down, and I am going to stop right there.
    In the final report of the Webster Commission on the FBI 
and the events at Fort Hood that was recently released, at the 
time of the Fort Hood attack, the FBI did not have access to 
all the relevant DOD databases. Even though there MODs for that 
sharing of information, they didn't have access to that to 
search for relevant information on Hasan.
    The FBI agents were not checking all of the FBI databases 
because there were so many of them, and the agents had not 
received formal training on how to use them. Some agents didn't 
even know that certain databases existed.
    Even when putting in a query for information on Major 
Hasan, or his e-mail exchanges with Awlaki, the databases did 
not produce all the relevant information necessary for clarity 
on that case. Now I know that FBI is a separate organization, 
but.
    In 2009, you all broke ground on a $3.4 billion facility 
housing 15,000 employees, the largest building project in the 
District of Columbia region, 68 years since the Pentagon was 
built. At that time, you said we are going to have a One DHS 
atmosphere. DHS has a large amount of databases. Each of these 
databases do not appear to be linked in one central database 
with a Google-like interface, allowing the simultaneous 
searching of all the relevant databases within DHS's wide 
system.
    In January 2010, the FBI deployed the data-integration 
visualization system, DIVS, allowing authorized users to search 
more than 50 FBI and non-FBI databases simultaneously. The 
Webster report points out very clearly that ``the Washington 
field office and TFO''--I am not sure which field office that 
was--``did not search the DWS, EDMS, IDW, or the DALAS, 
although he was a member of a blank''--that has been redacted--
``counter-terrorism squad, he says he did not know that DWS and 
EDMS even existed.''
    It goes on to say that--let me find this--``at the time of 
the Fort Hood shootings, however, with few exceptions, users 
accessed each database using a discreet interface, discreet 
password, and discreet search engine.'' From what I understand, 
there are so many different databases. You have got a different 
password for every one of them. You are not supposed to write 
those passwords down. It is a frustrating system for everyone 
involved at every level--not just in your agency, but every 
agency within the Federal Government.
    It goes on to say that the historical evolution of the 
multiple FBI and other U.S. intelligence community databases as 
discreet platforms had impeded the FBI and the USIC's ability 
to access, search, organize, manage electronically stored 
information in an efficient manner.
    So, under this One DHS mindset that you talk about, does 
DHS have any plans to expedite a process similar to DIVS for 
normalizing, consolidating, and integrating the information?
    What I mean by that is, you know, we have got folks coming 
into this country on visas and we don't know when they leave 
the country, because there is no information sharing between 
the State Department or other agencies. This is a serious 
problem of information sharing that goes back to the 9/11 
Commission report that talks about the stovepipe aspects of 
information between agencies.
    The territorial disputes, the turf wars of agencies 
responsible for protecting this country has got to end. As 
Secretary of the Department of Homeland Security, it is your 
responsibility. I will wait for an answer.
    Secretary Napolitano. Well, Representative, first of all, 
as you correctly note, those are comments made by the Webster 
report as to FBI.
    Let me comment as to DHS and extend an invitation to you. 
Because we actually have done a massive amount of work over the 
last 3\1/2\ years, particularly since the Christmas day bomber 
attempt in 2009, to unify databases in such a fashion. Because 
data comes in from all over the place, so you need the data, 
but you also need some analytics with it or else the data is 
just--it is just there. There is so much of it. Matt Olsen can 
talk to that, I suspect.
    But if you were to go out, for example, to our National 
Targeting Center, you would see how we are now able to process 
and analyze 1.8 to 2 million passengers per day as they seek to 
fly into this country or around this country.
    So you know, data can always be improved. It is never 
perfect. I am not saying it is. But what I am saying is I don't 
think there is a recognition by the committee yet of how much 
work has actually been done with the committee's support.
    Mr. Duncan. Do I have to get into another system and look 
there? Are there no cross-references and sharing of the----
    Chairman King. The time of the gentleman has expired.
    The reason I am saying that is that Director Olsen said he 
had to leave by 12:30, 12:35. We will be finished in 10 
minutes, if you could both stay. Okay.
    The gentleman from Alabama, Mr. Rogers, the Chairman of the 
Transportation Security Subcommittee is recognized.
    Mr. Rogers. I thank the Chairman.
    Secretary Napolitano, it is good to see you here today and 
appreciate your service and appreciate your recent visit to 
Alabama, the Center for Domestic Preparedness. We really do 
know it is difficult for you to make those kind of visits, so I 
appreciate it.
    You are aware that last Wednesday this committee--
subcommittee I chair, the TSA Subcommittee, had Mr. Wilson, the 
head of TSA's General Aviation Department, along with Mr. Lord 
of the GAO, testify before us about a study the GAO had just 
completed on foreign flight school training or training in our 
flight schools of illegal individuals in this country.
    The report was pretty upsetting. It showed that over a 
period of years, this has been a very--I won't go into the 
number because I can't--but not an unusual occurrence. It made 
several recommendations. The gentleman from the TSA 
acknowledged all those recommendations were accurate and that 
his department had already started working on repairing several 
of them.
    What I am asking you about is the very next day, on 
Thursday, you testified before the Judiciary Committee and Mr. 
Lungren brought this up. I have seen the videotape and you 
disagreed with that. Can you tell me why you disagree with the 
GAO report and Mr. Wilson's testimony?
    Secretary Napolitano. I think the disagreement with the TSA 
witness was on another point, Representative. But with respect 
to the GAO report, the flight school that it was focused on and 
those were as of 2010 and before. What I was taking note of was 
that we had already fixed that problem moving ahead.
    What we had not done and which is what the GAO recommended 
is institutionalize it in a way with memorandums of 
understanding. Those are in process right now.
    Mr. Rogers. But you are talking about with regard to that 
one school, not across the flight school system.
    Secretary Napolitano. No, with respect to the flight school 
system----
    Mr. Rogers. Well, the GAO, after your testimony, we reached 
out to them and they came back and said that is flatly not 
provable. That is what disturbs me. We are 10 years----
    Secretary Napolitano. It is not provable because what we 
have done is a practice. It was not committed to writing. It 
now is. It will be. It is in the process of being drafted.
    Mr. Rogers. Well, that was not their observation. I would 
love to get that reconciled because it is disturbing. You know, 
we are 10 years after 9/11 and we have evidence that on a 
regular basis, people who are in this country illegally can get 
flight school training.
    The other thing----
    Secretary Napolitano. Well, if I might, respectfully, if 
you have such evidence, please share it with us. Because if we 
have any problems, we want to fix them.
    Mr. Rogers. I agree and we will share it with you. Because 
I would like these things reconciled. I take this stuff very 
seriously, as you know.
    Also, earlier in this hearing--I was in Armed Services and 
couldn't be here--but I understand Mr. Thompson raised this 
issue with you about U.S. citizens and those who are here 
legally being able to get flight school training without being 
bumped against the no-fly list. He has introduced a bill to 
change that.
    I agree with the effort to remedy that, but I want to take 
a little bit more time to study, you know, what we need to do. 
So I have asked the CRS to look at this, and they say you 
already have the power; that the Secretary can designate an 
individual or category of individuals that must be vetted under 
current statute. But I understood you told Mr. Thompson that 
you probably do need some additional statutory authority.
    Secretary Napolitano. I think what I told Representative 
Thompson is it would be nice to tidy it up, because there is a 
lack of clarity there. But with respect to this, when somebody 
that is actually on the no-fly list and is a U.S. person, we 
have a variety of ways of knowing what they are doing before 
they apply for certification, but they are not formally vetted 
or pinged against the system until they are applying to the 
FAA.
    Mr. Rogers. But see, that is the problem. That is what we 
want to get remedied, because you are right, once they apply 
for their license, they are bounced against that list. But as 
we found from the 9/11 terrorists, they just want to learn how 
to take off and fly. They weren't interested in landing or 
getting a license.
    So we want to get it fixed so that if somebody is applying 
for training, whether they are in this country or not, legally, 
they should, at a minimum, have to be bounced against the no-
fly list.
    We want to work with you to that end, so I would urge you 
to get us any proposed language that you would like to see 
happen. I am going to be working with Mr. Thompson and the rest 
of this committee to get it done for you.
    Secretary Napolitano. Indeed.
    Mr. Rogers. Thank you, Mr. Chairman.
    Chairman King. The gentleman yields back.
    The gentleman from Arkansas is recognized for 5 minutes, 
and that will end the hearing.
    Mr. Crawford. Thank you, Mr. Chairman. I appreciate your 
flexibility in allowing me to come and participate in the 
hearing.
    Secretary Napolitano, I am a former Army EOD tech, so I am 
very concerned about the threat to our National security with 
respect to IEDs, remote-controlled particularly. I am a co-
founder of the House EOD Caucus, and that is one of our main 
concerns is that we address that on an on-going basis.
    Despite repeated requests, State and local police bomb 
squads remain without the electronic counter-measures, also 
called ``jammers,'' that are used to protect from these R.C. 
IEDs. The FBI techs with jammers may be hours away from an 
incident site. At the same time, we spend tens of millions of 
dollars to give hundreds of jammers to Afghanistan and 
Pakistan, where according to a GAO report, half of those 
jammers will simply collect dust in storage.
    What is your plan to help State and local police bomb 
squads here in the United States?
    Secretary Napolitano. I will tell you, Representative, that 
is a new one. I mean, we meet with State and locals all the 
time and I meet with them also when I travel around the 
country. I have never heard the issue about jammers raised. I 
will be happy to look into it.
    Mr. Crawford. Okay. I hear that issue a lot. Because of 
being the chairman of the EOD Caucus here in the House, they 
have raised that to me and that is why I am here today is to 
make sure that you are aware of it, and what a critical tool 
that is in helping to prosecute the war on terror with respect 
to IEDs. So your attention would be greatly appreciated on 
that.
    Secretary Napolitano. Thank you for raising it.
    Mr. Crawford. I yield back.
    Chairman King. The gentleman yields back.
    I want to thank Secretary Napolitano and Director Olsen for 
your time, for your testimony, for the answers you gave. Again, 
we look forward to working with you.
    I want to just say for the record, Members of the committee 
may have some additional questions for the witnesses and we 
would ask you to respond to those in writing. The hearing 
record will be held open for 10 days.
    Without objection, unless either of you object, the 
committee stands adjourned.
    [Whereupon, at 12:45 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

    Questions From Chairman Peter T. King for Hon. Janet Napolitano

    Question 1. How do you assess the threat from domestic improvised 
explosive device attacks from terrorists and narco-traffickers? Why has 
DHS not issued a regulation securing a main IED component, ammonium 
nitrate?
    Answer. A review of overseas attacks since 2009 aligns with our 
assessment that IED attacks by a transnational terrorist group continue 
to pose a threat to homeland security. Al-Qaeda's stated goals remain 
consistent and focused on targets that maximize economic damage and 
loss of life. Al-Qaeda-affiliated groups, including al-Qaeda in the 
Arabian Peninsula (AQAP), Tehrik e-Taliban Pakistan (TPP), and al-
Shabaab have all publicly stated that the United States is a legitimate 
target for terrorist attack and each group has successfully employed 
IEDs overseas.
    AQAP, the affiliate that represents the greatest near-term threat 
to the homeland, was the first al-Qaeda affiliate to attempt an attack 
in the United States with their effort to detonate an IED on-board an 
aircraft on Christmas day 2009. AQAP continued to pursue artfully 
concealed IEDs by advancing in Yemen, the October 2010 printer plot.
    In addition to planning operations against the West, AQAP also has 
sought to radicalize and inspire others to conduct attacks. AQAP's 
English-language on-line magazine Inspire, a sophisticated propaganda 
publication geared to a Western audience, provides information on 
manufacturing explosives, constructing an IED, and building a remote-
controlled IED trigger to encourage Homegrown Violent Extremists (HVEs) 
to stage independent attacks.
    Drug trafficking organizations (DTOs) have not conducted an IED 
attack directly against U.S. officials, citizens, or interests in 
Mexico or in U.S. Southwest Border States. DTOs have employed IEDs to 
target commercial and government security interests in Mexico and to 
intimidate rivals and law enforcement.
    DTOs first employed Vehicle Borne Improvised Explosive Devices 
(VBIEDs) in 2010, but have not demonstrated a desire to execute the 
type of large-scale explosive attacks that have been a driving factor 
in plotting by terrorist organizations. Analysis of recovered IEDs in 
Mexico does not provide indicators of direct sharing of technology, 
devices, or training between DTOs and terrorist organizations.
    The Department continues to work on developing comprehensive 
regulations on the sale and transfer of ammonium nitrate, as required 
by section 563 of Division E ``Department of Homeland Security 
Appropriations Act, 2008'' of the Consolidated Appropriations Act, 
2008, Pub. L. No. 110-161 (adding subtitle J ``Secure Handling of 
Ammonium Nitrate'' to title VIII of the Homeland Security Act of 2002). 
This has included extensive consultation with Federal and State 
security partners with a vested interest in securing the sale or 
transfer of ammonium nitrate, as well as with private-sector 
stakeholders.
    The Notice of Proposed Rulemaking for the Ammonium Nitrate Security 
Program was published in the Federal Register on August 3, 2011, and 
the public was given 120 days to provide comment(s) concerning the 
proposed rule. See Ammonium Nitrate Security Program, 76 Fed. Reg. at 
46908. Additionally, the Department held 12 public meetings during the 
120-day comment period to inform the public on the proposed rule, 
listen to their concerns, and gather comments provided during those 
forums.
    The Department continues to move forward with the rulemaking 
process, and expects to develop a final rule in a time frame that 
ensures that DHS can consider and respond appropriately to the concerns 
raised during the public comment period while enabling DHS to comply 
with applicable Federal rulemaking requirements and procedures. The 
final rule must comply with the Secure Handling of Ammonium Nitrate 
provisions of the Homeland Security Act, ensure continued access by the 
public to ammonium nitrate for legitimate purposes, and improve the 
security of ammonium nitrate with minimal economic impacts. The 
Department must also plan, develop, and field information technology 
systems necessary to support the Ammonium Nitrate Security Program, 
which will impact the time frame for implementation of a final rule.
    In addition to the authority granted to DHS by the Secure Handling 
of Ammonium Nitrate provisions of section 563 of the Consolidated 
Appropriations Act of 2008, the Department also has authority under 
section 550 of the Homeland Security Appropriations Act of 2007, Pub. 
L. No. 109-295 (2006), to issue the Chemical Facility Anti-Terrorism 
Standards (CFATS) regulations governing the security of high-risk 
chemical facilities. CFATS addresses hundreds of chemicals including 
ammonium nitrate.
    In developing the Ammonium Nitrate Security Program, DHS intends to 
draw on information gained under the CFATS program about ammonium 
nitrate, and will work to ensure that CFATS and the Ammonium Nitrate 
Security Program complement each other.

    Question 2. What has DHS done to secure sensitive critical 
infrastructure information submitted to DHS by industry?
    How does DHS alert critical infrastructure operators about leaks of 
such information?
    Answer. The Department of Homeland Security (DHS) uses several 
mechanisms to protect sensitive critical infrastructure information, 
including the Protective Critical Infrastructure Information (PCII), 
Sensitive Security Information (SSI), and Chemical-terrorism 
Vulnerability Information (CVI) programs, and other For Official Use 
Only regimes.
    DHS established the PCII Program to implement the provisions of 
Critical Infrastructure Information (CII) Act of 2002, subtitle B of 
Title II of the Homeland Security Act (Pub. L. No. 107-296, 116 Stat. 
2135, sections 211-215), and regulates the use and disclosure of 
information submitted to the Department of Homeland Security (DHS) 
about vulnerabilities and threats to critical infrastructure. Operating 
on authority given by the CII Act, the PCII Program protects critical 
infrastructure information voluntarily submitted to the Federal 
Government by critical infrastructure owners and operators. CVI, a 
category of sensitive, unclassified information established under 
Section 550(c) of the DHS Appropriations Act of 2007 (Pub. L. No. 109-
295) and the Chemical Facility Anti-Terrorism Standards (CFATS) 
regulation, protects certain information developed or submitted as part 
of the CFATS process.
    To date, no leaks or misuse of PCII have been identified. In the 
event that a leak of PCII is identified, the PCII Program Office, 
located within the National Protection and Program Directorate's (NPPD) 
Office of Infrastructure Protection (IP), would notify the owner or 
operator that submitted the critical infrastructure information that a 
leak has occurred and that an assessment of the potential impact of the 
release is underway. While the initial notification may be verbal, the 
PCII Program Manager would also send the submitter a written 
notification.
    DHS safeguards sensitive information by retaining it in systems of 
records associated with each submitter, which allow information 
relating to the compromise of data to be shared with the submitter or 
with those that might be harmed from the loss of data. How this 
information is shared is determined based on the context and the need 
for responding to the loss of the information.

    Question 3. How do DHS expenditures fit in with a National bio-
defense strategy? Does DHS plan to build the Nation Bio and Agro-
defense Facility?
    Answer. In 2009, the National Bio and Agro-defense Facility (NBAF) 
was expected to be fully offset by the proceeds from the sale of Plum 
Island. However, due to the current fiscal climate, the sale of Plum 
Island is not likely to provide adequate funds in the foreseeable 
future. In addition, estimated construction costs for NBAF have 
increased by more than 30 percent as a result of construction delays 
and safety engineering requirements. Furthermore, the Department faces 
significant funding constraints from the Budget Control Act of 2011 
(Pub. L. No. 112-25). At the same time, Congressional appropriations 
have not kept pace with the costs to build the facility expeditiously 
and the aging facility on Plum Island is well past its life expectancy, 
resulting in increased maintenance costs and risk to operate.
    Given current fiscal challenges, and in light of evolving threats 
to U.S. agriculture, in fiscal year 2012, DHS asked the National 
Academy of Science (NAS) to convene a committee of experts to conduct a 
comprehensive assessment of the requirements for a large foreign animal 
and emerging disease research and diagnostic laboratory facility in the 
United States. The Mission Need Assessment was recently completed by 
NAS and provided to the Department of Homeland Security for review.
    The Department looks forward to working with Congress on the future 
of NBAF while maintaining critical research at Plum Island.

    Question 4. The Council on American Islamic Relations (CAIR), the 
Islamic Society of North America (ISNA), and the North American Islamic 
Trust (NAIT) are unindicted co-conspirators in a terror fundraising 
case. What are DHS' relationships with CAIR, ISNA, and NAIT, or their 
members?
    Answer. The Department works with many diverse community groups and 
organizations to build crucial channels of communication, both 
educating DHS about the concerns of communities and giving those 
communities current, accurate information about DHS policies and 
procedures. The Department has worked with CAIR, ISNA, and NAIT in 
community engagement and outreach efforts conducted by a number of DHS 
offices and components around the country.

    Question 5. Please update us on DHS' countering violent extremism 
programs.
    Answer. The Department has responsibility for implementing a range 
of CVE initiatives outlined in the administration's National CVE 
Strategic Implementation Plan (SIP) for Empowering Local Partners to 
Prevent Violent Extremism in the United States. This role includes 
leveraging the Department's analytic, research, and information 
capabilities, engaging State and local authorities and communities to 
bolster pre-existing local partnerships, and supporting State, local, 
Tribal, and territorial law enforcement and communities through 
training, community policing practices, and grants. DHS works closely 
to coordinate and collaborate on these efforts with the National 
Counter Terrorism Center (NCTC), the Department of Justice (DOJ), the 
Federal Bureau of Investigation (FBI), and other interagency and 
community partners.
    The Department is working with its Federal, State, local, Tribal, 
and territorial partners to fully integrate CVE awareness into the 
daily activities of law enforcement and local communities Nation-wide. 
Specifically, DHS has made substantial progress in CVE in three key 
areas:
    1. Better understanding the phenomenon of violent extremism through 
        extensive analysis and research on the behaviors and indicators 
        of violent extremism;
    2. Enhancing operational partnerships with local communities, State 
        and Local law enforcement, and international partners; and
    3. Supporting community policing efforts through curriculum 
        development, training, and grant prioritization.

Better Understanding the Phenomenon of Violent Extremism
    DHS has conducted extensive analysis and research to better 
understand the threat of violent extremism. This includes over 75 case 
studies and assessments produced by the DHS Office for Intelligence and 
Analysis (I&A) since 2009 on home-grown violent extremist activities 
and potential material support activities in the United States on 
behalf of violent extremist groups or causes, including an in-depth 
study that looks at the common behaviors associated with 62 cases of 
al-Qaeda-inspired violent extremists. DHS has also produced numerous 
unclassified homeland security reference aids analyzing domestic 
violent extremist groups.

Enhancing Operational Partnerships and Best Practices with Local 
        Communities, State, and Local law Enforcement, and 
        International Partners
    DHS has made significant advancements in operational CVE exchanges 
with international partners. We have international CVE partnerships 
with Australia, Belgium, Canada, Denmark, Germany, the Netherlands, 
Spain, and the United Kingdom, as well as partnerships with 
international law enforcement organizations such as Europol. For the 
past year, DHS, Europol, and E.U. partners have exchanged information 
on U.S.- and E.U.-based fusion center best practices, CVE training 
standards, and research and case studies, including a joint case study 
on the 2011 Norway attacks. These exchanges help us support State and 
local law enforcement by equipping them with up-to-date analysis on the 
behaviors and indicators of violent extremism, so they can prevent 
potential future violent extremist incidents from occurring in their 
communities. In addition, DHS has coordinated with the Department of 
State to train field-based U.S. Government officials, both domestically 
and internationally, on how to engage and partner with local 
communities to build community resilience against terrorist recruitment 
and radicalization to violence.
    The Department has also significantly expanded outreach to 
communities that may be targeted for recruitment by violent extremists 
and promote a greater awareness of Federal resources, programs, and 
security measures available to communities. For example, the DHS Office 
of Civil Rights and Civil Liberties (CRCL) has held over 72 roundtable 
events Nation-wide since 2011, which have helped to address grievances, 
increase awareness of CVE resources, and build partnerships between 
State and local law enforcement, local government, and community 
stakeholders.

Supporting Community Policing Efforts Through Curriculum Development, 
        Training, and Grant Prioritization
    Over the past year, DHS has worked closely with the State and 
Provincial Police Academy Directors, the International Association of 
Chiefs of Police, the Major City Chiefs Association, the Major City 
Sheriff's Association, NCTC, DOJ, and the FBI to develop CVE training 
for Federal, State, local, and correctional facility law enforcement. 
DHS has hosted seven workshops to receive feedback from front-line 
officers on the training materials, including workshops in Columbus, 
OH, San Diego, CA, Washington, DC, and Minneapolis, MN and the recent 
``Train-the-Trainer'' CVE Workshop in San Diego, CA during the last 
week of September 2012. Two workshops were also conducted for 
correctional facility officers in Sykesville, MD and in Orange County, 
CA.
    DHS launched a new CVE web portal through the Homeland Security 
Information Network (HSIN) for CVE law enforcement training 
practitioners Nation-wide on September 28, 2012. This web portal serves 
as an efficient and easy resource to access CVE training materials, 
which can be incorporated into existing training programs and contains 
over 160 CVE training resources.
    DHS expanded fiscal year 2012 grant guidance to include funding for 
training and local CVE efforts, including participating in CVE training 
workshops, developing CVE training curriculum, participating in the new 
CVE web portal, and incorporating CVE training resources into existing 
training programs.

    Question 6. In Inspire magazine, al-Qaeda member Anwar al-Awlaki 
admitted that he was radicalized in 1991 and traveled to Afghanistan 
for jihad, and that he rebuffed FBI requests to become a source. Now 
that we know Awlaki was a radical and an ``Arab-Afghan'' at the time of 
his interactions with the 9/11 hijackers, should the Government re-
examine the roles of Awlaki and his associates in 9/11?
    Answer. DHS defers to FBI and other investigative partners for 
determinations as to precisely when Anwar al-Awlaki first became 
formally associated with al-Qaeda, and whether or not al-Awlaki had any 
foreknowledge or pre-operational role in the September 11, 2001 
attacks. DHS I&A continues, however, to assess the credibility and 
value of any new information involving the role that now-deceased al-
Awlaki's public statements play--particularly through Inspire 
magazine--in radicalizing subjects to commit acts of violence against 
the United States.

       Questions From Hon. Robert L. Turner for Janet Napolitano

    Question 1. Given that Islamic terror groups are decentralized 
organizations and non-traditional enemies, what do we know about the 
underlying principles of Islamic terror groups and how are we using 
that information to prevent further attacks?
    Answer. Within the context of U.S.-based violent extremism, we know 
that foreign terrorist groups affiliated with al-Qaeda, and individual 
violent extremists, are actively seeking to recruit or inspire 
Westerners to carry out attacks against Western and U.S. targets via 
social media, personal interaction, and publication of magazines.
    The Department operates with the understanding that we face 
significant risk of terrorism from violent extremists who have either 
been recruited by al-Qaeda or its affiliates or inspired by their 
ideology. This threat is real, as evidenced by the recent thwarted 
attacks of domestic violent extremists inspired by al-Qaeda's ideology, 
to include the arrest of Naser Jason Abdo at Fort Hood in July 2011 and 
the arrest of Amine el-Khalifi in February 2012 in Washington, DC.
    Recognizing that communities across the country may face such 
threats, DHS has designed a community-based Countering Violent 
Extremism (CVE) approach that applies to all forms of violent 
extremism, regardless of ideology. We have conducted significant 
analysis and research on multiple types of threats in order to equip 
law enforcement with the tools needed to detect and mitigate all forms 
of violent extremism. This analysis and research is being shared with 
Federal, State, local, Tribal, and territorial authorities, fusion 
centers, local communities, and international law enforcement partners 
to empower, support, and equip them with the knowledge to better detect 
and identify potential behaviors associated with violent extremism to 
prevent violent crime in their communities. All of this information is 
also being integrated into all of the Department's CVE training for 
Federal, State, local, Tribal, territorial and correctional facility 
law enforcement; it is also available on the DHS CVE Training Resources 
web portal for law enforcement training practitioners.

    Question 2. Clearly, terrorists are radicalized early in their 
lives. What specifically is being done to prevent radicalization among 
Muslim youth?
    Answer. Research and analysis suggests that there are multiple 
pathways to violent extremism and that while there may be common 
behaviors that are exhibited prior to an attack, no one factor can 
explain why youth radicalize to violence. It is also important to note 
that the vast majority of Muslim-Americans living in the United States 
do not subscribe to violent extremist ideologies and are actively 
working with local authorities, the FBI, DOJ, and DHS to protect their 
local communities from violence.
    As mentioned in the White House's Strategic Implementation Plan for 
Empowering Local Partners to Prevent Violent Extremism in the United 
State (SIP), partnerships with community members are vital to our 
security, as evidenced by the fact that of the 86 foiled terrorist 
plots against the United States, between 1999-2009, almost half of the 
plots were thwarted with help and participation from communities.\1\ 
The SIP recognizes the importance of forming strong partnerships with 
communities and lists the actions the U.S. Government will take in 
support of a community-based approach to CVE. The DHS Office for Civil 
Rights and Civil Liberties (CRCL) conducts regular roundtable meetings 
across the United States and dozens of community meetings at the 
request of community leaders. CRCL has also conducted youth engagement 
with in cities such as Minneapolis, San Diego, Portland (ME), and 
Columbus (OH) to build trust and to discuss issues such as preventing 
violent extremism.
---------------------------------------------------------------------------
    \1\ ``Building on Clues: Examining Successes and Failures in 
Detecting U.S. Terrorist Plots, 1999-2009,'' Institute for Homeland 
Security Solutions, October 2010.
---------------------------------------------------------------------------
    In 2012, DHS's Science and Technology Directorate (S&T) sponsored a 
study conducted by the National Consortium for the Study of Terrorism 
and Responses to Terrorism (START), a DHS Center of Excellence at the 
University of Maryland. The study identified a range of risk and 
protective factors that may have impacted the involvement of some 
Minneapolis-St. Paul Somali-American youth in violent extremism and, 
based on these factors, provided recommendations on how preventative 
efforts could be developed at the individual, family, community, and 
Government levels. DHS's CVE efforts focus on ensuring that these and 
other findings from research and analysis are made widely available 
through training and workshops to law enforcement training 
practitioners via the DHS CVE Training Resources web portal.

    Question 3. Within the Muslim community there is an internal 
struggle, one leading toward destruction and violence, the other side 
seeking to join the global community and embrace the freedoms of a 
democratic society. Are we conveying all viable alternatives to radical 
Islam, to mainstream Muslims, before moderate are radicalized?
    Answer. Research and analysis suggests that there are multiple 
pathways to violent extremism and that while there may be common 
behaviors that are exhibited prior to an attack, no one factor can 
explain why individuals radicalize to violence. It is also important to 
note that the vast majority of Muslim-Americans living in the United 
States do not subscribe to violent extremist ideologies and are 
actively working with local authorities, the FBI, DOJ, and DHS to 
protect their local communities from violence. Recognizing this, DHS 
has designed a CVE approach that applies to all forms of violent 
extremism, regardless of ideology. DHS has been highly involved in 
implementing the 2011 White House Strategic Implementation Plan (SIP) 
for Empowering Local Partners to Prevent Violent Extremism in the 
United States. The goals of the SIP include: (1) Enhancing engagement 
with and support to local communities; (2) building Government and law 
enforcement expertise; and (3) countering violent extremist propaganda 
while promoting our ideals.
                                 ______
                                 
    [Note.--The response to Questions for the Record which were 
submitted to the Director of the National Counterterrorism Center, the 
Honorable Matthew G. Olsen, necessitated a classified response. These 
were provided to the committee and retained in committee files.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
